<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2000

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES

                    HAROLD ROGERS, Kentucky, Chairman
 JIM KOLBE, Arizona                 JOSE E. SERRANO, New York
 CHARLES H. TAYLOR, North Carolina  JULIAN C. DIXON, California
 RALPH REGULA, Ohio                 ALAN B. MOLLOHAN, West Virginia
 TOM LATHAM, Iowa                   LUCILLE ROYBAL-ALLARD, California
 DAN MILLER, Florida
 ZACH WAMP, Tennessee               
                                    

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
    Jim Kulikowski, Jennifer Miller, Mike Ringler, and Cordia Strom,
                           Subcommittee Staff
                                ________

                                 PART 5
                                                                   Page
 Secretary of Commerce............................................    1
 United States Trade Representative ..............................  209
 Bureau of the Census.............................................  265
 National Oceanic and Atmospheric Administration..................  339

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 57-729                     WASHINGTON : 1999



                        COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                     DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                  JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia                STENY H. HOYER, Maryland
 TOM DeLAY, Texas                       ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                     MARCY KAPTUR, Ohio
 RON PACKARD, California                NANCY PELOSI, California
 SONNY CALLAHAN, Alabama                PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York               NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina      JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                  ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma        JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                   JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan              ED PASTOR, Arizona
 DAN MILLER, Florida                    CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                   DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                 CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey    ROBERT E. ``BUD'' CRAMER, Jr.,
 ROGER F. WICKER, Mississippi              Alabama
 MICHAEL P. FORBES, New York            JAMES E. CLYBURN, South Carolina
 GEORGE R. NETHERCUTT, Jr.,             MAURICE D. HINCHEY, New York
Washington                              LUCILLE ROYBAL-ALLARD, California
 RANDY ``DUKE'' CUNNINGHAM,             SAM FARR, California
California                              JESSE L. JACKSON, Jr., Illinois
 TODD TIAHRT, Kansas                    CAROLYN C. KILPATRICK, Michigan
 ZACH WAMP, Tennessee                   ALLEN BOYD, Florida
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania     
                                    
                                    

                 James W. Dyer, Clerk and Staff Director

                                  (ii)



 
DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2000

                              ----------                              

                                          Wednesday, March 3, 1999.

                         DEPARTMENT OF COMMERCE

                                WITNESS

WILLIAM M. DALEY, SECRETARY

                              Introduction

    Mr. Rogers. The Committee will come to order.
    We are pleased to welcome William Daley, the Secretary of 
Commerce, who will testify on behalf of the programs and the 
fiscal year 2000 budget request for the Department of Commerce.
    The Department's budget was submitted as part of the 
President's overall budget on February 2nd of this year. 
However, we have read in the newspapers that the Department's 
budget may be $1 to $2 billion short of what will ultimately be 
requested.
    Consequently, we are in a bit of a quandary, to put it 
mildly, since we are here to consider the Department's fiscal 
year 2000 budget without knowing what the operating request for 
the Department's budget will be. I have never quite known how 
to add up numbers when there were zeroes in certain columns. We 
hope the Secretary will be able to enlighten us today on where 
things stand.
    I am sure he has brought with him the detailed requests 
that his Department is going to ask the Congress to have the 
taxpayers spend. If he does not have those numbers, I will be 
sorely disappointed and absolutely amazed.
    I might also note that the Congressional Budget Office is 
said to be releasing their reestimate of the President's budget 
request today, and it apparently has concluded that the 
President's budget request is some $30 billion in outlays over 
the spending caps that are in place for fiscal year 2000.
    What this means is that some $30 billion in outlay 
spending, which probably translates into $40 to $50 billion in 
budget authority spending, contained in the overall President's 
request, cannot be accommodated if we are to stay within the 
spending caps that are in place for fiscal year 2000. As a 
result, I do not think we can underestimate or understate the 
difficulty of the task ahead in considering the Department's 
submission.
    Before yielding to the Secretary, I will yield to my 
colleague, Mr. Serrano, for any comments he would like to make 
at this time.
    Mr. Serrano. Thank you, Mr. Chairman.
    First of all, let me thank you, Mr. Secretary, for coming 
before us today. I understand the Chairman's concerns about 
holding a hearing without numbers, but I have to remind 
everyone that often, or very rarely, does the Supreme Court get 
involved in situations that bring us to this point.
    And so I know that when all is said and done, you, Mr. 
Secretary, and your Department will give us all of the 
information we need. In fact, I suspect that when we leave here 
today we will be pleased with what we have heard.
    We also understand that no matter how much we try, today or 
any other day this year, Mr. Chairman, to get away from a 
certain issue, we cannot run away, nor get away from the facts. 
The census issue is a very difficult one to deal with for many 
people and in many cases. In most cases, it has become a very 
political issue.
    Nevertheless, it is my intent, and certainly the intent of 
most, if not all, members of this committee to see to it that 
we do the right thing, that we stick by our constitutional 
mandate. And, I personally will do whatever I have to do to 
make sure, Mr. Secretary, that you get the tools necessary to 
conduct your census the proper way and to do the work that the 
Department does, in general, in the proper way. And, I am 
looking forward to your testimony.
    Mr. Rogers. Now, Mr. Secretary, if you would like to 
summarize your statement, we would be pleased to hear from you. 
Your statement will be inserted for the record, together with 
the Department's budget-in-brief.
    Secretary Daley. Thank you very much, Mr. Chairman and 
Members of the Committee. I appreciate the opportunity, once 
again, for the third time to appear before you on behalf of the 
Department's budget. I am also very pleased to present the 
Commerce Department budget for fiscal year 2000, which will be 
the first budget of the new century.
    We have left the old century with a surplus. President 
Clinton, and I know all of the Members of the House of 
Representatives, want to enter the new one the same way. 
Without growing Commerce too much, we do want to make some key 
investments in 2000 to keep this tremendous economic success 
which we have had over the last couple of years continuing.
    Our request is for $7.4 billion. Most of the increase over 
fiscal year 1999 is for the 2000 census. In light of the 
Supreme Court ruling and the dress rehearsal evaluation, last 
week, Dr. Kenneth Prewitt, the Census Director, announced the 
broad outline of a new plan. As soon as the numbers are 
available, I will convey them to you, Mr. Chairman, and to the 
Subcommittee.
    Let me quickly highlight some of the key areas of the 
budget, first starting with the census. This is, as we know, 
the largest peace-time mobilization that this country does. It 
is an enormous management challenge to count and determine 
where every person lives on a certain date in the year 2000. We 
requested a total budget of $2.8 billion, a $1.8 billion 
increase over 1999 levels.
    Again, this was done before the court ruling in late 
January, so the request assumes the use of sampling for all 
purposes in the 2000-Census. As you well know, the court 
decision precludes sampling for the initial count, and for the 
numbers used to apportion seats for the House of 
Representatives.
    The court noted, however, that sampling techniques are 
required for non-apportionment purposes, if feasible. Dr. 
Prewitt announced last week it is feasible to use sampling to 
improve the accuracy of the final numbers. For those other 
purposes, things like redistricting and the distribution of 
Federal funds, the Census Bureau remains convinced sampling 
will improve the accuracy and should be used for all purposes 
other than apportionment, and also announced a plan that will 
make every effort to count every person.
    Conducting a census without sampling in the initial count 
will require substantially more resources. The Bureau will have 
to visit 45 million homes, up from the 30 million originally 
planned. They will need to hire more enumerators and need to 
send more people to areas with traditionally high undercounted 
areas. And more resources will be needed for promotion 
activities, paid advertising, and working in partnership with 
communities.
    I know all of us agree on this, and we need to do a better 
job than we did in 1990 when the census missed eight million 
people and overcounted four million.
    The second key area is the 13 percent increase for NOAA, 
$282 million over last year's appropriation. This increase will 
help protect our natural resources and better protect people 
and property from the enormous cost of natural disasters. Of 
that, $105 million is to support the President's Lands Legacy 
initiative.
    Today, 40 percent of our coastal waters are not fishable or 
swimmable. We want to restore coral reefs, fisheries, and 
protect our coastlines. $100 million is to reverse the decline 
in the salmon stock out West, and $42 million would increase 
the lead times and accuracy of severe weather and flash flood 
warnings and to improve our predictions of where hurricanes may 
hit.
    Let me say the modernization of the National Weather 
Service is progressing. The AWIPS is on budget. According to 
the National Weather Service, it is also on schedule.
    I thank you, Mr. Chairman, and the Subcommittee for your 
support and your enormous patience in this endeavor.
    Third, we are requesting a seven percent increase for the 
International Trade Administration. In 2000, we want to open 
new posts in 11 countries. We want to create a greater presence 
in Africa, Latin America, and add staff in the markets 
important to our exporters, such as China.
    Last year our exports dropped for the first time in more 
than a decade. Our exports to Asia plunged a staggering 14 
percent, and that huge drop accounted for over half of the 
increase in our trade deficit in 1998. Quite frankly, we need 
to do everything we can for American exporters to create new 
markets. We cannot have record high trade deficits year after 
year.
    We also want to reach out more to small businesses to 
encourage them to export, especially now that the Internet 
makes a worldwide reach so easy. We need to beef up our trade 
compliance activities. America has benefitted enormously from 
the open-trade system. Open markets do work, and we prove it.
    But not everyone has been playing by the same rules, and 
the steel situation cried out for action because countries were 
abusing our open-trade system. I believe we took very swift 
action, but we must remain vigilant and be ready to respond to 
any American industry that is a target of abuse.
    Fourth is NIST. About $55 million of the request for new 
spending is to construct the Advanced Measurement Laboratory in 
Maryland. It will enable our scientists to perform cutting edge 
research. We want to continue to have on our staff Nobel Prize 
winners and National Medal of Science winners. But they need 
and deserve state-of-the-art facilities.
    Fifth is the Economic Development Administration, where we 
want to continue fully funding important programs. We are 
requesting a $20 million increase to assist communities hurt by 
economic dislocation; $5 million of that will be for the 
Northeast where the fishing industry has been hit rather 
severely.
    Let me quickly run through some other new initiatives. We 
are asking for a $14 million increase to help public 
broadcasters transition from analog to digital broadcasting. 
The Patent and Trademark Office is expecting a seven percent 
increase in patent applications, and a 10 percent increase in 
trademark applications. Both are sure signs that our economy is 
growing.
    To meet these workload increases and improve our service to 
the customers, we will invest the increase of about $105 
million in information technology and also additional 
personnel.
    We are requesting $1.5 million for the Bureau of Export 
Administration to fund inspections of chemical facilities under 
a new international convention, and there are about 2,000 
potential sites, and the request is for inspecting at least 42 
of them. Other nations will do similar inspections to stem the 
flow of chemical weapons.
    Other requests are for increases in ATP, statistical 
improvements, research vessel support, and in preventing cyber 
attacks that could devastate companies and, therefore, have a 
most serious impact on our overall economy.
    Mr. Chairman, if I could end on a personal note. I hope to 
be the last Secretary of Commerce of this century, if all 
things go well during the next couple of hours. [Laughter.]
    I always said that this is a terrific time to serve our 
Nation. We are in the middle of the longest peace-time 
expansion in the Nation's history. But it obviously takes the 
support of this Subcommittee to make the Commerce Department 
what it is.
    I thank you, Mr. Chairman, and the subcommittee, for your 
continued support and your counsel during the last two years. 
Thank you very much, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  Revisions to the Fiscal 2000 Request

    Mr. Rogers. Well, thank you, Mr. Secretary, and it is good 
to have you with us. In spite of the fact that sometimes we do 
not agree on some topics, I find that you do lay things on top 
of the table, and I appreciate at least that.
    Well, I do not know, but if we do not--if we are unable 
to--get some numbers from you, there may not be a Department of 
Commerce to manage over the next two years. We are faced with a 
very surreal situation.
    On the one hand, the largest item in your budget, your top 
priority, the decennial census for which a $1.8 billion 
increase is already in the budget request, I am told may be a 
billion, or two, or maybe three short. But you do not tell us 
how much or how that shortfall would be paid for, offset, or 
whatever.
    On the other hand, we are somehow supposed to judge the 
rest of your budget, which has large increases in areas that 
are lower on your priority list, like NOAA, $280 million, a 14 
percent increase; NIST, $90 million increase, a 14 percent, 
without knowing what we are on the line for with respect to the 
Census. I do not know how we can develop a budget. I have never 
encountered this type of thing before.
    All of the time, the Administrations, Republican and 
Democrat, are happy to come here and tell us how much they want 
next year. And we are happy to listen, and then we get our 
pencils out and we figure out how much we have got to spend, 
and we figure out how much you need, come up with some sort of 
a working arrangement. But I do not know how we can do that, 
not knowing what you are asking for.
    I do not know how we can deal with the rest of your budget 
until we know specifically what you are demanding of us for the 
census, which is the biggest item. So until everything is on 
the table, and we know what we are facing, is not the budget 
for your Department just one big question mark?
    Secretary Daley. Well, there is no question, Mr. Chairman, 
that there is a very large question mark as to what the census 
will cost, by virtue of the fact of the Supreme Court decision 
about five weeks ago. We are working feverishly to get a number 
that we can have faith in, and that we can present to you as an 
accurate amount that we can stand behind.
    There is no question, as you say, Mr. Chairman, finishing a 
budget for the Department of Commerce without knowing what this 
amount may be is impossible. We do not like being in this 
situation. We are here because this is a massive undertaking, 
one that we do only every 10 years.
    And it is extremely complicated and has been complicated 
even more than probably in previous censuses by the uncertainty 
of exactly what method we would be using, by virtue of either 
Supreme Court cases or the political fight that has gone on in 
the Congress over the last couple of years.

            Department's Actions to Plan for the 2000 Census

    Mr. Rogers. But you created that confusion. In all other 
decennial censuses in the nation's history, we always knew how 
we were going to do it, and we did it--maybe flawed, maybe 
inaccurate, maybe off to some degree, but there was certainty 
there.
    And for three years now--and I have been on this 
Subcommittee for 15 years leading up to the Census: the 
aftermath of the 1980 Census, leading up to the 1990 census, 
the funding of the '90 Census, the turmoil that followed the 
'90 Census, the frustration that all of us have felt over the 
years about the fact that we cannot get an accurate count, and 
now the 10-year lead up to this Census.
    And I began on the 2000 census in 1991, saying, ``We have 
got to find ways to do it, and we have got to fund it.'' And 
for three years this Subcommittee has told you to prepare a 
backup plan in case the sampling procedure was rejected, as it 
now has been by the Supreme Court.
    We have asked you three years for that, and last year you 
and I had a shouting match about this. I am going to try to 
restrain myself this year.
    Secretary Daley. Thank you.
    Mr. Rogers. I say try.
    The law specifically required that you develop, and be 
prepared to implement, a 2000 Census which did not use 
statistical methods. The law says you have to do that. And not 
only that, we gave you $27 million to do it two years ago.
    And you have known you were going to do this for the last 
10 years. And yet here we are on--more than the eve of the 
deadline--we are past the deadline, and you come up here and 
tell us you do not know how you are going to do it yet, and we 
do not know how much it is going to cost.
    I just do not know what to do. I mean, the law is the law. 
The Congress has spoken. The Supreme Court has spoken. Both 
branches are saying, ``Get your act together. Do it.'' Now, 
what else can we do?
    Secretary Daley. Well, I think we can try to work together, 
Mr. Chairman, and we are doing that, not only with the 
Subcommittee, with the Congress, in putting together this 
enormous challenge before us. In the two years I have been 
here, this issue has taken up more time than any other in the 
Department, and, obviously, much time of the Subcommittee.
    We have planned for the census. We have prepared, as best 
as we can to this point, of preparing for a sample census.

                         Decennial Census Plan

    Mr. Rogers. Where is the plan? I mean, just give us the 
plan.
    Secretary Daley. Well, the plan that we have put forward, 
that Dr. Prewitt put forward last week, is the plan that we 
plan to go with in the year 2000.
    Mr. Rogers. But we have not seen your figures. And your 
plan uses statistical methods, something the Supreme Court has 
said you shall not do. It is illegal.
    Secretary Daley. They said it was illegal for apportionment 
purposes.
    Mr. Rogers. Yes. And that is where--let us just talk about 
the apportionment purposes for the moment. The Supreme Court 
has said, ``You cannot use statistical methods in the 
reapportionment count. You must actually count.'' Correct?
    Secretary Daley. For apportionment purposes, right, Mr. 
Chairman.
    Mr. Rogers. Yes, you must count. Now, do you have that plan 
ready?
    Secretary Daley. We have a plan that was put forward in 
January for that purpose. We are refining that based upon the 
dress rehearsal, based upon laying out the entire plan for the 
year 2000 and having a complete--we are in the process of doing 
what is called by the Census--``Master Activity Schedule,'' 
which is over 4,000 items, with schedules, with deadlines. That 
is what is being finalized that will be an actual finished 
final plan.
    A lot of that, as I think I said, Mr. Chairman, last year--
a lot of the final plan would be determined by the dress 
rehearsal and the testing of the systems and the plans and the 
management programs.
    Mr. Rogers. But we asked for this plan as long ago as three 
years. How are you going to conduct the actual count for 
reapportionment purposes? We gave you $27 million. You and I 
had this conversation last year. I asked you to leave at one 
point in time and not come back until you brought the plan. You 
still did not have the plan. That was one year ago. And here we 
are this year, and you still do not have the plan. Now, we want 
our money back.
    Secretary Daley. Well, I think after----
    Mr. Rogers. Give me the plan or give me the money we gave 
you to do the plan a year ago.
    Secretary Daley. Mr. Chairman, if I can, last spring when I 
was here and the hearing was recessed, you had asked for a 
plan. We came up and we gave you what we had at that point. We 
announced in January a plan of doing the census at the 
Congress' direction.
    It was funded through June, and we had made plans for an 
enumerated traditional--for lack of a better phrase--
traditional census through--basically, through this political 
fight that we are having, and through the first six months of 
1999. And we are now in the final throes of trying to put 
together the final activity schedule and the absolute final 
plan that the Census Bureau is going to go with.
    Mr. Rogers. Why has it taken three years? We asked you 
three years ago for this. I asked you last year for this, and 
detailed numbers. We gave you $27 million for the plan. You 
have had all this time. We still do not have the plan. I do not 
want a broad outline. We have got to spend dollars.
    Secretary Daley. There is not a final plan--we are trying 
to develop the final plan right now. What we gave you last 
year----
    Mr. Rogers. The question is why have you not done it before 
now?
    Secretary Daley. Because we had to go through the last two 
years of testing procedures, doing the dress rehearsal. I do 
not think putting out a final plan two years before the actual 
event is the way to go. The Census Bureau could not do that and 
then not be expected to be changing that plan, based upon the 
dress rehearsal, based upon discussions with community groups 
and local officials on how we are going to proceed. This has 
been very much a work in progress.
    We are now coming down to the final plan, based upon the 
Supreme Court, based upon the dress rehearsal, based upon 
everything we have learned over the last couple of years, on 
the methods and the ideas that have been put to the Census 
Bureau, both by Members of Congress, by the scientific 
community, by local officials, by community groups around the 
country, on how best to do this census.
    I know you would like to have seen a plan that you know 
would be followed through two years later. But the fact of the 
matter is, that is not the case on this, because we are still 
trying to finalize, based upon information we have been 
gathering over the last two years, what is the best plan and 
the best method to have the most accurate count.
    And the way we thought we could do it based upon all of the 
best information we could get, has been now determined by the 
Supreme Court that we cannot move forward. So we are now taking 
that, adapting that, along with----
    Mr. Rogers. We told you three years ago to develop a plan, 
assuming that you could not use statistical sampling. We wanted 
two plans, one without sampling, one with sampling, just to be 
ready for this event. And we gave you the money to do it with, 
and here we are at the last second, and you have not done it. I 
do not know what did with the money.
    Secretary Daley. Well, we----
    Mr. Rogers. What did you do with the $27 million we gave 
you for that very purpose?
    Secretary Daley. We have expended money to plan for exactly 
what you are saying. Did we finish a complete plan? No. I mean, 
we would not have finished--if the Supreme Court had ruled not 
that sampling was illegal, but had decided it was 
unconstitutional and we had to go back, we would not have a 
plan, a complete plan with a traditional census to give you 
today. We have to go through a complete master schedule 
activity list to get ready.
    Mr. Rogers. I told you two years ago the Supreme Court 
would rule that sampling is illegal or unconstitutional. We 
gave you the money to develop an alternative plan at that time, 
in case they did. You have spent the money. We do not have the 
plan. When can we get the plan? When can we have a plan?
    Secretary Daley. Mr. Chairman, we have a plan that was--a 
summary of the plan was put out by Dr. Prewitt 10 days ago.
    Mr. Rogers. When can I have a specific plan with specific 
dollars, Mr. Secretary?
    Secretary Daley. I cannot give you an answer to when you 
will have the specific dollars at this point, Mr. Chairman.
    Mr. Rogers. Why not?
    Secretary Daley. I have tried--we are trying----
    Mr. Rogers. Because OMB says not, right?
    Secretary Daley. No. It is because we do not have the final 
number that I can give to you and say, ``Mr. Chairman, this is 
a number that I believe in''----
    Mr. Rogers. Well, when can you say that?
    Do you realize we have got to write a budget at some point 
in time? Has that occurred to you, that we have got to spend 
money for NOAA and NIST and the National Weather Service, and 
all of the other items in the Department of Commerce? Not to 
mention the Supreme Court's budget, all of the Courts, and all 
of the State Department, with our embassies around the world, 
all of the international organizations that this Subcommittee 
funds.
    When can we have your number on the census, so we can 
satisfy the Supreme Court's need for salaries and expenses, for 
example?
    Secretary Daley. I would hope, Mr. Chairman, very shortly, 
but I cannot give you a date at this time. And I cannot tell 
you with certainty exactly what date that may be. And I know 
what terrible position this puts you and the entire 
subcommittee in, not only relating to our Department but the 
other departments that you have jurisdiction over, and the 
entire overall budget.
    Mr. Rogers. Well, I just want you and the world to know 
that when the Supreme Court's salaries stop, and when the 
National Weather Service stops forecasting weather on the 
evening news, that it is the Department's fault for not getting 
us a plan so we can appropriate your money for you.
    I want the world to know that, and I want the fault to lay 
squarely on your shoulders and the Administration's. We are 
trying our best, and have been for years, to get the money to 
you to fund the operations of the Department of Commerce, 
including the census. And I will be doggoned if I can 
understand why you cannot come here with a specific number on 
the entirety of your budget.
    And we are stymied. We have to sit here and wait, and I 
guess that is all we can do. Are you going to ask for a 
supplemental request for fiscal year 1999 to implement the new 
plan?
    Secretary Daley. That is something also, Mr. Chairman, that 
we are trying to come to final conclusion on, looking at the 
numbers, looking at where we may be on June 15th. If the 
Congress moves forward with funding for the census, what, if 
anything, we will need. And that number also we have not 
finalized.
    Mr. Rogers. Will you submit a budget amendment for fiscal 
year 2000, to pay for whatever plan you come up with? And will 
that amendment be offset? Will you take money from somewhere to 
make up for this? I mean, these are the questions you and I 
have got to face.
    Secretary Daley. Right.
    Mr. Rogers. And it is late.
    Secretary Daley. I know, Mr. Chairman, how late it is, and 
it is not a position I like being in. It is by virtue of a 
whole host of things that have occurred that have gotten us to 
this position. We are working feverishly to try to get you this 
number, so that the Department's overall budget can be looked 
at in its entirety. How we move into 2000 to address this--what 
is a serious situation is one that we want to work with you.
    Mr. Rogers. Well, I am just saying to you, you are 
jeopardizing, in an extreme way, you are jeopardizing census, 
not to mention all of the confusion that will result following 
the refusal or the failure to do a census. I am pleading with 
you, please put politics aside, let us do the census. The 
founding fathers required of us in the Constitution that we do 
so. They also said you should actually enumerate, actually 
count, people.
    You have jeopardized this requirement. You are to the edge 
of the cliff, looking into the chasm below. And I am pleading 
with you, step back from the chasm. Give us your plan. Tell us 
what it is going to cost, so we can satisfy the American 
people's need for an adequate census. Please. I do not know how 
else to put it. Please, will you do that?
    Secretary Daley. We will do both of those, Mr. Chairman. 
Obviously, your next question is--when? We are working 
feverishly to have that amount to you as quickly as is 
possible. That is the only assurance I can give you.
    And the plan that we have put forward that was announced 
last week is the plan that has been complimented and 
criticized, but I think it is a very complete plan. It is not 
the entire Master Activity Schedule, which should be finished 
hopefully sometime between the 15th and 20th of March.
    Mr. Rogers. Oh, and, by the way, I appreciate your giving 
that to me, so I did not have to read it first in the 
newspapers.
    Secretary Daley. I am often amazed by reading things in the 
newspapers about my Department also, Mr. Chairman.
    Mr. Rogers. That is the only report frankly, I have seen of 
the new plan is--what I read in the newspapers.
    Secretary Daley. That is about the same situation here.
    Mr. Rogers. You did not see it either?
    Secretary Daley. I have not seen it. The estimate, the 
guesstimate in the newspaper shocked me also.
    Mr. Rogers. So they did not give that to you either?
    Secretary Daley. No.
    Mr. Rogers. Your reason you did not give it to me is 
because they did not give it to you, right?
    Secretary Daley. We do not have a final number for you.
    Mr. Rogers. No, I understand that.
    Secretary Daley. We do not have----
    Mr. Rogers. You did not see it either?
    Secretary Daley. I saw the article, obviously. Yes.
    Mr. Rogers. But you did not see it before the article?
    Secretary Daley. No.
    Mr. Rogers. Well, who printed the article?
    Secretary Daley. I do not know who the leak was. It was an 
anonymous source.
    Mr. Rogers. Oh.
    Secretary Daley. I guess that is what it is. You know, they 
are probably here. I do not know. [Laughter.]
    Mr. Rogers. Would you raise your hand, please?
    Secretary Daley. Wait. Let me make sure it is nobody here.
    Mr. Rogers. Well, you know, we are making light of this, 
but this is deadly serious, and I am absolutely flabbergasted, 
disappointed, and frustrated that some people down there are 
playing games, political games, on something that, number one, 
is costly, and, number two, is so vitally important to our 
country, our citizens, the people that pay our salaries.
    And I think it is an absolute--I am disgusted with those 
folks down there who insist upon playing silly games with 
something this serious, and playing games with you. I think it 
is terrible that they would undercut you. So I am disappointed.
    Mr. Serrano?

                            census estimates

    Mr. Serrano. Thank you, Mr. Chairman. Mr. Chairman, I begin 
my comments with some nervousness because you and I made a 
decision that in your style, and in mine, we were going to work 
together on every issue. And, I have good news and bad news. 
The bad news is that, the one issue which will probably force 
us to disagree has come up early in our relationship. The good 
news is that, it has come up early in our relationship 
[laughter] and we will be able to keep working on it as we move 
on to agree on what I am sure will be hundreds of issues that 
we will agree on in this committee.
    And, while I know that your comments were directed at the 
Department, and on the issue, and not at me, I hope you also 
understand that my comments have a historical perspective to 
them. In terms of the two-party system, and the disagreements 
that we have in this House on this issue are in no way directed 
at you, but some may sound like I am answering your comments. 
But, even if you had not spoken, I would have spoken on the 
same issue.
    A fact of life is that, I do not have any doubt that both 
the Commerce Department and the Census Bureau want to get this 
job done and done properly. That goes without saying. They are 
professional people who do this professionally.
    In fact, the Commerce Secretary is surrounded in that 
Department, backed up, and in the Census Bureau, by people who 
are professionals. They do not run every two years to do this 
job. They do it year after year after year, and they add on new 
people, talented people, and they get rid of some people, and 
they move on. And, that is what they do.
    Secondly, we have to understand that this is the one issue 
that has been separating us for a long, long time. If we were 
to point at the heart of the differences in this House, we 
would have to point at the census count as one issue that is at 
the center of our differences as two parties, in this 
legislative society.
    I think it would be unfair, in my opinion, therefore, for 
us, as a body, to demand that they do that which at times we 
have not allowed them to do. I am not an expert on the rules of 
the House--we consider the possibility that every so often we 
deal with a bill in a special way, and we give it a little 
longer to work itself out. And, we give that particular budget 
a little longer time to present itself.
    And, maybe with the understanding that this issue does not 
come up but every 10 years, we should consider that, first, we 
were the ones who started the fight on the House floor over how 
people should be counted in this country. We were the ones who 
drove the issues to the courts.
    And, they are the recipients of all of that action. And, 
now we are asking them to turn out a product in a way we want, 
as the Constitution says. Except the constitution has said one 
thing and now the courts say, ``You cannot do that which the 
Constitution says you cannot do, but you could also do it in 
some other places for other things.'' And, they have to come up 
with dollars for that.
    They can come up with dollar figures for anything they have 
to do within the Department. What they are saying to us is that 
within the census, Mr. Chairman, there is a problem. And, I 
think we have to listen to that.
    Now, I understand your position. You are charged with 99 
percent of the responsibility of coming up with this budget. My 
role is to be persuasive in getting some things changed. It is 
to be your supporter. But, it is you who will be called by a 
chairman of the committee, full committee, and asked why the 
bill is not before the full committee. I understand that and I 
am supportive of that and I want to be helpful of that.
    But, I do not think, for us right now, it serves any 
purpose to put them over the coals when, in fact, we were the 
ones who put them over the coals to begin with.
    Now, newspaper articles today tell me that the Census 
Subcommittee is considering yet some legislative changes. 
Legislative changes which, if they come up, will alter the way 
the census will be conducted. Some of them, I must say, I 
approve. I cannot believe I am reading here that they may 
include printed forms in 33 languages. That goes beyond 
anything I would envision in my bilingualism stance. And, I 
applaud that.
    But even if I had supported that. And, it had been my idea. 
It would mean changes in the way they conduct the census. That 
means a little more time, perhaps a little more money, and, 
therefore, not being ready in time.
    Now, what I would hope would happen will remain a secret. I 
am not going to ask you a question because, if you do not agree 
with everything I have said, I really do not want to hear what 
you have to say at this moment. [Laughter.]
    But, I am hoping, Mr. Chairman, that we will fully 
understand and get to the point of understanding that they are 
charged with a responsibility they want to carry out. And, we 
have to make sure that that responsibility is taken care of.
    There were folks who were nervous, at first, about whether 
or not the political agenda would not be met by sampling. The 
issue has been taken care of. Reapportionment, apportioning 
seats will not take place. How do they handle redistricting in 
the House? Well, we have been hearing for the last four to six 
years that those are state decisions anyway. So, that will be 
dealt with by the states.
    But, the big issues that people were concerned about have 
been taken care of, to my dismay. But, so be it. That is what 
the court said.
    Now, let us give them the time to put together the numbers. 
And, if need be, let us ask, Mr. Chairman, those individuals in 
the House who are much better than I am at this to find out how 
to deal with a special situation, an emergency situation if you 
will, a once every 10 years situation, and deal with this 
particular part of the budget accordingly, not stopping the 
census from taking place.
    In fact, I am one of those people who wanted things added 
to the census. If you recall, Mr. Chairman, I am the one who 
said that the Commonwealth of Puerto Rico, the Virgin Islands, 
and Guam should appear in the census. Not outside the census. 
So, I added work to them, and I hope they carry that out. And, 
if they are not, I hope they do not tell me here today either.
    But, let us give them some time. It is in the best interest 
of our country. It is something we have to do. And, as I said, 
Mr. Chairman, and I will close with this, and I mean this 
sincerely and, I will tell you in private later, I want to be 
supportive of your efforts to get the census done. I really do. 
I am not here to cause you a problem. And, I will agree with 
you on all other hundred issues. But, this one that we tend to 
disagree on, let us see if we can work together to give them 
the opportunity to do what they have to do.
    Thank you, Mr. Chairman.
    Mr. Rogers. Thank you very much.
    Mr. Regula.

                          steel import crisis

    Mr. Regula. Thank you, Mr. Chairman.
    Mr. Secretary, we have had some dialogue on the recent 
surge of steel imports. I am pleased with some of the actions 
you have taken--the retroactive duties on Japan and Brazil that 
resulted from expediting these cases and finding critical 
circumstances and the suspension agreement with Russia.
    Now, as I understand it, the steel industry is not terribly 
excited with the suspension agreement. They would rather go 
forward with their litigation. And they have also expressed 
concerns regarding the minimum price and the levels limiting 
cold-rolled steel and the partial year surge. Would you comment 
on the concerns that the industry has raised, as it relates to 
the Russian suspension agreement?
    Secretary Daley. Thank you, Congressman. We have heard from 
the industry loud and clear as to their objection to both the 
suspension agreement with Russia and the comprehensive deal. We 
do feel that they are in the best interest of the steel 
workers, the steel companies, long term.
    We have, by virtue of these two agreements, gotten the 
amount of imports which will be coming into the United States 
back to pre-crisis 1996 levels for almost all of the products 
in the comprehensive deal, 14 different products; on the 
suspension agreement, back to 1997 levels.
    When the companies came in to us in the summer of 1998, 
their goal was to stop, as best one can under our rules-based 
society, the rules-based trading system, the import surge that 
was coming in. We believe we have done that, and we have done 
that very emphatically.
    And at the same time, we have sent a strong message to the 
rest of the world that they should not think that they are 
going to step into this void that Japan, Russia, and Brazil 
created having been brought back to pre-crisis levels and fill 
that. We will continue to act aggressively, as we did in these 
cases. We have an honest disagreement.
    We believe it is a good deal for the steel industry and 
steel workers. The price, we believe, is a price that is good 
and that it is the floor, and it is the price that will prevent 
any lowering below that. There was great concern that the price 
that was being charged before this $250 number was somewhere 
around $200, which is substantially less. We have $250 that is 
the floor. Plus, when you add on top of that the transportation 
cost for this steel, it probably gets it closer to the $300 
level, and we think that is a good price.
    Mr. Regula. I notice that the Russian steel industry has 
had some differences on this issue, and has not been very 
supportive of what the government negotiated. Has there been 
any follow up? Are the Russians going to renege on their 
agreement?
    Secretary Daley. No. We do not believe that they will 
renege at all, and we have plenty of opportunities in this 
agreement to make sure that they do live up to the agreement.
    The fact that neither our industry or their industry likes 
it may mean it is a pretty good deal.
    Mr. Regula. That is often the case in a lawsuit settlement.
    The recent surge of steel imports has led to a record 
buildup of U.S. steel inventories. And I understand that about 
24 million tons of steel have been added to customer 
inventories and work in process between '96 and '98. Some 
industry experts are claiming that even if imports decline by 
10 million tons in '99, inventories would not decline. Do you 
agree?
    Secretary Daley. Well, I think it depends upon the strength 
of our overall economy. We did see, in these last January 
numbers, that manufacturing has come back up--the first 
positive increase in, I think, about six or eight months. 
Obviously, the goal here is to see the steel industry and all 
of our different sectors grow.
    The steel industry will grow, and that backlog that is on 
the docks will be gone through, if our economy stays strong and 
grows. We are optimistic that it will continue to grow. And I 
think if we have the sort of growth that is expected, we will 
use much of that.

                             asian economy

    Mr. Regula. Do you see any signs of turnaround in the Asian 
economy? This, of course, would be very helpful in reversing 
these surpluses of steel on the world market.
    Secretary Daley. There are some signs. Korea seems to be 
doing better. Thailand seems to be doing better. Overall, 
though, Indonesia and China have had some difficulties and are 
expected to have a tough year in 1999. We do not see any great 
resurgence over 1998 in 1999 for most of Asia, but there are 
some bright spots--as I say, Korea and Thailand.
    We are hopeful that Japan, as the second largest economy in 
the world, will see some domestic-led growth as opposed to 
export growth. But in order to use up the steel that is on the 
docks, and keep our economy growing is most important.
    My understanding, Congressman, is that some of the prices 
in some of the steel sectors, steel products, has begun to go 
up in the last 30 days to 45 days, which is a positive sign 
from 1998.
    Mr. Regula. When you evaluate a steel import surge, do you 
take into account inventory that is already in the warehouses?
    Secretary Daley. My understanding is that it is taken into 
account by virtue of what is filed with the Customs Department. 
But to be frank with you, I am not quite sure exactly.

                         lands legacy initative

    Mr. Regula. One last question. I understand that the 
Department is a participant in the President's Lands Legacy 
initiative. And, as I understand it, you are proposing that 
funds be transferred from the Land and Water Conservation Fund 
to the Department of Commerce, for purposes of coastal dredging 
and restoration, coral reef restoration, coastal zone 
management grants, and expanding national marine sanctuaries, 
and estuarine research reserves.
    The Interior Appropriations Committee normally has 
jurisdiction over the funding on land acquisition and the LWCF, 
and I have some concerns about your authority to utilize these 
funds that are being proposed for transfer. Do you have plans 
to purchase the land that will be restored? And who will be 
managing these new public lands that result from such 
restoration? And how do you see this working? Or has the 
proposal not been defined at this point?
    Secretary Daley. My understanding, first, is that we do 
have authorization, and the Subcommittee has authorization, to 
appropriate those funds--about $105 million--for the Lands 
Legacy program. We are committed, though, to see a permanent 
source of funding and will--after 2000, want to work with the 
Congress to come up with some permanent source of funding.
    Exactly how that land is going to be owned or managed, to 
be frank with you, Congressman, at this point I am not quite 
sure. But I would be happy to get back to you on that.
    [Clerk's note.--The following information was submitted 
subsequent to the hearing:]

    The Lands Legacy Initiative proposes a $12 million increase 
related to land acquisition and construction, of which about 
60% would be for land acquisition. Under the National Estuarine 
Research Reserve System (NERRS) program, the states, using 
grants from NOAA (which states must match at 50%), can acquire 
land for NERRS. This land is state-owned and managed.
    By the end of FY 2000, the System will expand from its 
current 23 reserves to an anticipated total of 27 reserves. 
This expansion will increase to over one million acres of 
estuarine habitat protected by the NERRS. Examples of 
acquisition could include: wetlands and other habitat slated 
for development; threatened or endangered species habitat; 
additional areas for conducting long-term research on water 
quality, land uses and functions; and sites for construction of 
NERRS public facilities.

    Mr. Regula. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Mollohan.

                statistical sampling and the 2000 census

    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Secretary, I would like to join the Chairman and the 
new ranking member in welcoming you to the hearing. I certainly 
welcome you.
    I am sitting here thinking what a shame it is that 
partisanship has driven what can only be described as a 
bifurcated census process, but, it obviously has. We are in one 
census for the majority members of the House of Representatives 
for apportionment, and an accurate number for enumeration.
    We are in another census for everybody else for everything 
else. This census is based upon scientific sampling to try to 
get at that five percent or so that represents a real 
undercount. Every expert who testifies or speaks on the issue 
recognizes an undercount exists that can only be reached 
through scientific sampling.
    Now, the Supreme Court said that you cannot use the 
scientific sampling for apportionment. But as I understand it, 
you have to use it. You really have to use it for 
redistricting. You certainly have to use it for benefit 
distribution as a matter of practicality.
    I am asking if you agree with that, and at whatever costs? 
Shame being that you will not get an accurate count for 
apportionment without scientific sampling.
    Whatever extra that costs, you are going to have to do 
scientific sampling to satisfy the governors and the mayors of 
this country. When it comes to benefit distribution, they are 
going to insist upon accurate population numbers for the 
distribution of dollars and cents.
    Do you agree with that?
    Secretary Daley. I do agree with it, Congressman. It is our 
opinion that we are required to use sampling for other purposes 
other than apportionment if feasible. It is the Census 
Director--Dr. Prewitt's opinion that it is feasible to use 
sampling for these other purposes, and that is part of the plan 
that has been put forward and we are moving towards.
    Mr. Mollohan. Based upon whatever experience you have had, 
and what other input you are receiving. Can you testify, with 
regard to my point about the governors and mayors of this 
country, Democrat and Republican, insisting upon scientific 
sampling for benefit distribution?
    Secretary Daley. Well, we have heard from numerous mayors, 
governors and state legislators, county officials--I spoke to 
the National Counties Association this past weekend, and they 
are all concerned about the census, how it is going to be done, 
how accurate it will be, how effective it will be.
    Quite honestly, the vast majority of mayors would probably 
be more democratic, but it is a bipartisan group of mayors who 
have come forward and have participated in our process. 
Governors we have heard from on both sides.
    Mr. Mollohan. Both sides of what, Democrats and 
Republicans?
    Secretary Daley. Well, it is Democrats and Republicans. 
Some Democrats for sampling. Quite frankly, I do not think we 
have run into any Democrats that are against sampling yet as 
governors. Republicans that have been supportive of not doing 
sampling and against sampling, and some who have had no opinion 
yet and have stayed out of the fight.
    It is very much across the board, but we have heard from 
many more, quite frankly, who want the most accurate count that 
we could give them for the purposes that you have laid out.
    Mr. Mollohan. For benefit distribution?
    Secretary Daley. For benefit distribution primarily.
    Mr. Mollohan. I think when it gets down to reality, and 
people see what that means, particularly in these large states, 
there is going to be a very important expression of requirement 
on their part with regard to the census.
    Now, with regard to cost, which we are all concerned about, 
you recognize that you have to come up with a number to 
incorporate enumeration more extensively to try to get this 
under count, do you not?
    Secretary Daley. Absolutely.

                              census plan

    Mr. Mollohan. You do recognize that you have to develop a 
plan?
    Secretary Daley. Yes.
    Mr. Mollohan. You are going to develop a plan and a number?
    Secretary Daley. Yes, we will.
    Mr. Mollohan. We all know that the majority is insisting to 
do enumeration, and that this is going to cost. It is going to 
cost a billion dollars more. It is going to cost two billion 
dollars more. It is going to cost three billion dollars.
    It is going to cost some huge amount of money more to 
achieve a less accurate result. You just want to come up with 
an accurate number and an accurate plan. Is that not correct, 
before you give these to the Committee?
    Secretary Daley. Yes, sir.
    Mr. Mollohan. The Chairman has expressed concern about you 
not having a plan, and is sitting here saying well, by golly, 
why do you not have a plan. How could you come up with a plan 
until the dress rehearsal was done? You would be guessing at a 
lot of the plan's elements.
    How could you come up with a plan and a cost? How could you 
come up with a plan and a cost really in the absence of not 
only the results of the dress rehearsal, but also without the 
results of the Supreme Court decision?
    Secretary Daley. Well, it would not have been a very 
accurate plan or probably very accurate number had we done 
that. We learned a lot from the dress rehearsal that is going 
into the final plan.
    Mr. Mollohan. You are in the process of revising the final 
plan now in light of the results of the dress rehearsal, and in 
accordance with the direction of the Supreme Court. Is that 
correct?
    Secretary Daley. Yes.
    Mr. Mollohan. I would suggest that the amount of additional 
money, for the record, be less a responsibility of the Commerce 
Department coming up with than the very difficult task of the 
Appropriations Committee coming up with the additional 
discretionary dollars. We are going to need to meet a lot of 
funding requirements, besides census.
    So funding the census is going to be a part of a lot bigger 
problem.
    Mr. Chairman, you let me know when I am running short of 
time.

                     import administration funding

    Mr. Secretary, with regard to trade issue Mr. Regula was 
pursuing--I am going to ask you a dollar and cents question. I 
have heard some static secondhand from the ITA and some of 
those people who have been working hard, like Mr. Regula, on 
this trade issue--that the Import Administration has expressed 
a concern about not having enough money to do its job.
    I just was reviewing the record, and if I am accurate about 
it, the request for '99 was $29.47 million and Congress 
appropriated the request for the Import Administration.
    Do you agree with that?
    Secretary Daley. I believe that was the number, yes, 
Congressman. I have not been given it, but I think you are 
accurate.
    Mr. Mollohan. Well, if I am not, will you let us know after 
the hearing? My understanding is that we gave them the request, 
and the request is a little higher this year. I am hopeful that 
we are just not using the steel issue as some sort of leverage 
to get additional funding for that account on the premise that 
maybe if we had additional funding, we could get a better 
response out of some quarters of the Administration.
    I know you are very responsive yourself and want to be 
responsive to the steel crisis facing this Nation.
    Secretary Daley. I do think I will--and this has all 
happened, obviously, in the last number of weeks. The response 
to the steel situation has put enormous strain on our responses 
in the Import Administration. We tried to move those cases, and 
we did, faster than any cases have ever been moved.
    They are very complicated investigations. We are hopeful 
that what we saw in the steel industry does not happen in other 
sectors, but it has put quite a strain on that piece of our 
Department.
    But we are committed to continue that sort of aggressive 
action when we think illegal dumping has occurred in this 
country.
    [Clerk's note.--The following information was submitted 
subsequent to the hearing:]

    We have checked the appropriations history, and the 
Committeee in fact did provide $31.047 million, the full 
request for Import Administration. We appreciate the 
Committee's strong support for the vigorous enforcement of our 
trade laws.
    This year we are requesting $33.154 million for Import 
Administration, which includes increases totaling $1.7 million.
    We look forward to continuing to work with you to ensure a 
level playing field internationally for American firms and 
workers.

    Mr. Mollohan. Thank you, Mr. Chairman.

                     national climatic data center

    Mr. Taylor. Mr. Chairman, Mr. Secretary, you are aware of 
the National Climatic Data Center, one of NOAA's three data 
centers, is located in Asheville, which I have the pleasure of 
representing. And I was impressed in part to see that the 
Administration has requested the funds for the Climatic 
Reference Network to develop a system of real-time weather data 
at the NCDC, as well this funding for modernization.
    Now, the larger question I have is what to do about the 
data once we collect it. I talked with the director some time 
ago and if we take the handwritten charts that come to the NCDC 
in and put them on top of each other, in one year it would be 
about 24 miles high.
    And the rain gauge information, if unrolled from their 
spools, would measure about 150 miles in length. And this is 
not a direct question, but I would ask if you could perhaps put 
your thought into how we could utilize more manageable media in 
storing that information and modernizing it as much as 
possible.

               apple juice concentrate dumping from china

    I would encourage you to do that. I would also ask a 
question in dealing with China, and I am going to put the same 
question to the U.S. Trade Representative. I know the question 
is jointly to be answered. We represent apple farmers in 
Western North Carolina and what I believe to be dumping of 
apple juice concentrate from China has totally wasted a lot of 
their resources.
    We cannot even begin to pick our own apples for what they 
sell their apple juice for in this country, to our domestic 
juice manufacturers. What are some ways that you could use your 
office to address this issue, and to make our overseas markets 
more attractive for domestic apples?
    I personally do not think we are going to do much with 
China, not in the near future. But you keep that in mind?

                                 nafta

    In fact, talk with me a little bit about NAFTA in general. 
Our district has been hurt more than I would expect most 
districts because I would say there are at least 12 major 
industries in western North Carolina that have been dumped on 
by NAFTA, and we have not seen any positive results from it.
    Is this considered successful, or is the Administration 
looking at our trade through NAFTA's eyes to see how you can 
address the whole country's needs, rather than just certain 
parts of the country?
    Secretary Daley. If I could first, Congressman, on the 
apple situation, the apple juice situation from China. Let me 
talk to our Import Administration people, see if there has been 
any discussions.
    As far as I know, at this point there has been no dumping 
case filed, but--and also let me talk to our compliance center 
who makes sure that if there are markets that are not open to 
U.S. products, that we find out whether or not there is some 
action we can take within the rules-based obvious society that 
we are.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided for the record:]

    Import Administration, within the International Trade 
Administration, enforces the antidumping (AD) and 
countervailing duty (CVD) laws to ensure the domestic 
industries are not injured by unfair foreign competition in the 
U.S. market. The U.S. AD law is designed to counter 
international price discrimination, commonly referred to as 
``dumping.'' Under the CVD law, Import Administration 
investigates complaints that foreign governments are unfairly 
subsidizing their industries that export to the United States.
    While the apple industry has not filed a petition, we are 
available to meet with apple industry representatives at their 
convenience. Consistent with our legal process, Import 
Administration is permitted to meet with domestic industries to 
explain our procedures and data requirements, and to review 
draft petitions that are prepared by petitioning industries.
    The MAC unit of the International Trade Administration 
works with non-agricultural U.S. firms, particularly small and 
medium-sized enterprises, to open foreign markets--and keep 
them open while working to reduce the U.S. trade deficit. MAC 
does this by solving company and industry-specific market 
access problems in country or regional markets and helping U.S. 
firms and workers to identify and overcome barriers to U.S. 
exports.
    While the Department of Agriculture is formally responsible 
for removing trade barriers on agricultural products, our MAC 
staff would be pleased to meet with apple growers or put them 
in touch with their counterparts at Agriculture.

    On the issue of NAFTA, NAFTA has been, in our opinion, 
overall, over the last almost five years, a success. There are 
difficulties obviously with trade agreements. There are 
dislocations. Some areas are positively impacted. Some are 
negatively impacted.
    Overall, Mexico and Canada are two of our top three trading 
partners now. We have increased by 75% the amount of trade with 
these two partners. Exports from the United States to Mexico 
have increased since the devaluation of the peso in 1994. 
Exports from Mexico to the United States have increased 
substantially.
    But our exports to Mexico are also increasing at a very 
healthy rate. We think that is a positive sign. And the same is 
true with our relationship with Canada. So overall, we think 
that NAFTA has been very good for all three partners.
    Again, there is no question there has been some 
dislocation. We had the five year review this past January. 
There is a debate over what sort of estimates of job gain or 
job loss there has been. And there is quite a difference, as 
you could imagine, between what one side says and the other 
side says.
    Overall, for a healthier relationship with our neighbors, 
we think NAFTA has been very good. It is a complex relationship 
with Mexico on a whole host of areas. But in trade, we think 
things are moving positively forward in this relationship.

                    nafta impacts on north carolina

    Mr. Taylor. Well, let me illustrate: North Carolina is the 
tenth largest State, and our top three industries are tobacco, 
textiles and furniture. Well, as far as tobacco goes--I think 
this Administration inhaled and got a bad smoke or something, 
and I do not know what that is all about. We will put that 
aside, apart from NAFTA.
    But with textiles, of course, NAFTA has just hit the whole 
state hard. In fact, what few textile companies that are still 
with us, Levi-Strauss and Burlington Industries, are even now, 
just in the last few months, announcing that they are 
downsizing and moving out of the country.
    That is a real problem. And then in the furniture industry, 
we will not talk about the Department of the Interior, which 
believes no tree ought to be cut, and so it is hard to make 
furniture out of it. But we are now shipping furniture parts 
into the U.S.--one company in North Carolina gets in two 
containers a day from China, and soon it will be 6, 8 and 20.
    And this third North Carolina industry will be gone because 
China can produce furniture with the few cents an hour they 
charge in labor and get the wood offshore to provide quality 
furniture.
    How can we say that our trade policy is making jobs in 
America when you see that the top three industries in North 
Carolina are being devastated?
    Secretary Daley. Congressman, I think if you look at the 
overall job creation of the last number of years, you are 
talking about 18 million new jobs created in the country. The 
overall economy is good, as many people have seen it.
    There is no question there are pockets, either by 
dislocation of trade or technology changes, that have occurred 
that have caused pain and difficulty, steel being one, that 
technology has basically changed the way businesses operate.
    And some businesses that used to be driven to move to Asia 
for production of lower cost items are now moving to other 
parts of the hemisphere. We believe overall very strongly that 
this economy, with the sort of unemployment we have and the 
strong economy and compared to the rest of the world, is doing 
very well.
    But again, I acknowledge, as you do, that----
    Mr. Taylor. Right.
    Secretary Daley [continuing]. It is not a universal, 
perfect situation.
    Mr. Taylor. We are in an economic high point, I know. We 
started in 1980, coming back--it would bottom out on a small 
basis and started back up. And it is good for us in many ways, 
but there are good jobs and there are better jobs. There is no 
question that the manufacturing jobs that are being driven out 
of the country are being replaced with service industry jobs.
    And some of those jobs created in the high-tech area are 
positive as far as income, but a lot of the service jobs now 
that are available are not in the same area of income that we 
had with manufacturing. And that is what troubles me in the 
long run.

                     MANUFACTURING JOB DISLOCATION

    We may have the same number of jobs and even some 
increases; but if we are driving out our manufacturing jobs, we 
will not have the returns or the economic growth as far as 
individuals are concerned as we have had in the past. And the 
statistics are there for that.
    Does that trouble you? Nationwide, do you look at not just 
the number of jobs, but what we are going to do as far as the 
growth of the individuals' income, if we lose more and more of 
our manufacturing?
    Secretary Daley. Obviously we are concerned, Congressman. 
We have seen the wages of Americans overall going up in many 
sectors. I would just say I do not have an exact number. But in 
the manufacturing sectors which have had a substantial decrease 
over the last number of years, I do not know the percent, but I 
would imagine a substantial percent of that is a result of the 
technology changes that American businesses have taken 
advantage of and have made them more productive, more 
competitive worldwide. That obviously is no solace to someone 
who has lost their job by virtue of the fact that they have 
been replaced.
    Mr. Taylor. Or if it moves out of the country. I mean, if 
you can make it more productive inside the United States, 
people recognize that as the ability to compete. If you are 
lessening the competition by going to China, Mexico and 
wherever you only have to pay a few cents an hour, you 
recognize that kind of hurts the average worker here.
    And we thank you.
    Mr. Rogers. Thank you, Mr. Taylor.
    Ms. Roybal-Allard.

                            DECENNIAL CENSUS

    Ms. Roybal-Allard. Secretary Daley, I would like to go back 
to the issue of the census again because it is my understanding 
that you have an updated operational plan that is based on the 
dress rehearsal which was just recently completed.
    I, of course, am particularly interested in getting an 
accurate census coming from California. Based on the GAO study 
that was just released, California probably was one of--if not 
the biggest loser--of an inaccurate count in 1990, having lost 
approximately $2.2 billion Federal dollars, over the decade.
    And of course, Medicaid in California was the largest 
program that was affected. I can tell you that especially the 
hospitals and the clinics in my district could have used that 
additional money.
    Another finding of GAO's that is of particular importance 
to me was the fact that the under count affected Hispanics more 
than any other group, particularly in states like California 
and Texas, with nearly half of the under count in California 
and Texas among those who were of Hispanic origin.
    Based on this GAO study, does the study reinforce what you 
already know or what you already knew? And were there any 
surprises? And if so, what additional actions are you taking in 
order to correct some of the things that were raised in the 
study?
    Secretary Daley. I think there is no question that the 
study confirms what many people had felt, and that was that, by 
having a less than accurate count, certain communities, certain 
states would be disadvantaged potentially from a representative 
portion and also from a distribution of over $200 billion of 
Federal funds.
    I think the GAO study highlights the five states that were 
most severely hit. Some states, I think, would not be impacted 
if sampling had been used. But no doubt about it, California 
was the number one state.
    That is one of the main reasons that in our discussions 
with communities, and local officials around the country, we 
have highlighted, and they have highlighted more so to us, 
their desire for an accurate count because they believe that 
they should get a fairer share and a more accurate amount based 
upon their real numbers and not a number that is less than 
accurate.
    So that is what drives this process over the last eight 
years both from the perspective of those who looked at the 1990 
census and understand that it was less accurate for the first 
time than any census before, and the fact that the Congress and 
the Administration at the time went to the National Academy of 
Sciences in a unified, bipartisan way to say how do we do this 
better in the future.
    Obviously there are disagreements on how to do that. But we 
feel very strongly that, for the reasons and the sort of 
implication in that GAO report, that is another reason why we 
should have the most accurate census we can do. And that is why 
we have put our plan forward. Last week Dr. Prewitt forwarded 
the plan that includes sampling for distribution of Federal 
funds and redistricting purposes.

                           CENSUS ADVERTISING

    Ms. Roybal-Allard. Based on the dress rehearsal, it appears 
that paid advertising was particularly effective in raising the 
awareness of the public about the census.
    However, we also know from the 1990 census that even when 
there is a high percentage of people who know about the census, 
that awareness does not necessarily translate into action, in 
which they actually fill out the form and send it in.
    What is it going to take to correct that. I know you have a 
good advertising campaign. We know that we could raise 
awareness, but we also know that awareness does not mean that 
people are going to turn it in.
    So what are you planning on doing or what will it take to 
translate awareness into action?
    Secretary Daley. One part of this is obviously the paid 
advertising drive that we will do, the first time that the 
census has done this. They have depended in the past upon free 
advertising given by the networks and by the TV stations which 
were generally between 1:30 a.m. and 4:30 a.m.
    And so we are putting together a very aggressive 
advertising campaign, both television, radio, print media, and 
it is twofold. One, to educate people, as you have said, to 
tell them what this is all about and why it is important. And 
then to motivate them to participate, to fill out the 
questionnaires and make sure that they are accurate.
    We are, along with that, having pre-notification, sending 
postcards to notify people that basically your questionnaires 
will be coming. We will have an entire campaign basically prior 
to the April 1st date to do two things. One, to educate people 
up front; and then second of all, to try to motivate them and 
to motivate in those areas that have been historically under 
counted and try to target those groups.
    As you mentioned, Hispanics were substantially under 
counted last time, much more so than anyone else.

                   MINORITY UNDERCOUNT IN THE CENSUS

    Ms. Roybal-Allard. One of the dress rehearsals sites was 
Sacramento, California, and I believe it was chosen because of 
its diverse population. And as I go down the list of which 
districts actually reflected the undercount in 1990, it reads 
like a Who's Who of urban and racially diverse districts in 
cities across America.
    Could you tell me what some of the special problems are 
associated with urban districts or diverse areas and what you 
did in Sacramento which will help make the census more 
accurate?
    Secretary Daley. I think aggressive partnershipping with 
the local governments, having a more accurate address list so 
that as enumerators do go out door to door, that they have an 
accurate listing of locations, which is very difficult in urban 
situations.
    You have buildings that are abandoned or new buildings that 
are being built, and to make sure that we are familiar with 
that. We had an aggressive program with community groups to 
make sure that they were involved in the process.
    The partnership program that we have with, again, local 
governments and with community groups has been updated, and I 
think a lot more emphasis has been put into it. So we have had 
a whole host of learning from the dress rehearsal, what has 
worked, what has not. What we did learn in that dress 
rehearsal, as we learned from the dress rehearsal in South 
Carolina and the Indian Reservation was that the under count 
can be substantial.
    We have a much more mobile society. We have people who are 
less willing to deal with their government, less willing to 
want to get involved. They get a lot more junk mail. And so it 
is going to be harder this time to do what we did and just 
tread water, if that was our goal, to the 1990 level.
    Ms. Roybal-Allard. Thank you.

                       decennial census planning

    Mr. Miller. Mr. Secretary, good afternoon.
    Secretary Daley. Good afternoon.
    Mr. Miller. My area of interest is the census.
    Secretary Daley. Really? Okay. [Laughter.]
    Mr. Miller. Last week, when the new plan was introduced 
without a lot of detail, but with a new plan of a two number 
census, I was very disappointed. It reverses the policy and 
belief of the Census Bureau for years of posing a two number 
census.
    I mean, a two number census is bad public policy, and it is 
politics driving bad public policy. It is a recipe for 
disaster. It is a lawyer's dream. Because what we are going to 
have is, we are going to have the Supreme Court approve a set 
of numbers, actual enumeration.
    So every city, county, census block, census track have one 
number. And then we are going to manipulate those numbers and 
have the Clinton set of numbers which are the manipulated 
numbers. And every city is going to want the higher number.
    As I say, it is going to be tied up in the courts if that 
goes for a long, long time.
    First let me go back to what Chairman Rogers was talking 
about and why we do not have the details. While I was not 
involved in it back in 1997 when the Appropriation Bill was put 
together, there was a requirement then to have a dual track, to 
be prepared for both.
    And then last August, three Federal judges ruled that it 
was--you know, it was illegal to have the sampled census, so we 
were going to have to do a full enumeration. So it should have 
been--everybody should have been very aware that that was very 
possibly going to happen.
    In September, three more Federal judges, in another 
unanimous decision, said it is illegal. In January the Supreme 
Court ruled it illegal. And we got a detailed plan, fairly 
detailed plan, with appropriations and budget numbers and all 
for the sampled census, but we did not get it for this one.
    Now we are going to get it here in a couple of weeks, we 
hope. The question, to follow up with Mr. Rogers' question, is 
who made the decision not to pursue what the law required back 
in fall of '97 to have both tracks being prepared?
    I mean, I know we had an interim director last year, but 
someone had to make a decision and say well, do not worry about 
it, you know, we are going to win this one and, you know, so we 
do not need to follow that. I mean, someone had to make a 
conscious decision to not prepare--to not do a dual track.
    Secretary Daley. No one made a conscious decision not to 
finalize a plan, two totally final plans of sampling and of 
non-sampling traditional form, however you want to call it. The 
fact is, had Congress not appropriated the monies that we did 
use for the initial planning as we went forward, I would 
imagine I would be, at some point over the next number of 
weeks, sitting before you asking for even more money on a 
supplemental, or on a next year basis than we will ask because 
we did do planning on a second track.
    Did we finalize and have a complete, final plan? No, we 
have not. We did not get that.
    Mr. Miller. But we had one on the other one, the more 
complicated one.
    Secretary Daley. That was not fully formally finalized and 
done. And had the Supreme Court ruled the other way, I would be 
sitting here probably telling you that the plan that the Census 
Bureau is moving forward on, the master activity schedule based 
upon what has happened in the dress rehearsal, what 
information----
    Mr. Miller. We have a master activity schedule and an 
appropriation request for the other plan that is illegal. And 
so we do not have one for the other one. So someone, in my 
opinion, had to make a conscious decision and not be fully 
prepared.

                           TWO NUMBER CENSUS

    But let me switch over to another question. And this issue, 
as I saw, is a recipe for disaster. And quoting the Census 
Bureau, they said a two number census would be confusion, 
``would create confusion and controversy.''
    And they have been on record really against a two number 
census for a long time. You know, why has the position changed 
that now we like a two number census? And will it not create 
confusion and controversy?
    Secretary Daley. Congressman, we do not like a two number 
census either. We wish we could have the most accurate. But 
between having two numbers and a less than accurate number for 
the purposes of Federal distribution of funds or redistricting, 
we will have to go with two this time.
    Obviously, if the Congress changed the law and allowed--and 
made it legal to use sampling for apportionment purposes, I 
would be sitting here telling you that one number is the best 
way. That is how we wanted to go. And if we had our druthers, 
as you, I would assume, would know, we would be sitting here 
saying one number is the way to go.
    It is. But we also are at a point right now that we have to 
get the most accurate number. And the way to get the most 
accurate number is to go, in our opinion, in the way we are 
proceeding.
    Mr. Miller. To a two number census. It is going to be, as I 
say, an absolute disaster we are facing for the next decade. We 
were at a hearing yesterday and Congresswoman Sue Myrick, who 
is the Mayor of Charlotte, was talking about--Mr. Taylor is 
gone. But in North Carolina, they are still tied up in the 
court over redistricting.
    They had a new redistricting plan last year. So just 
imagine when every city and county is going to be suing on the 
redistricting plans. I mean, it is going to be a different 
debate.
    Secretary Daley. But those cases are not being litigated at 
this point because of the two number census. They are being 
litigated because the legislature drew lines in a way----
    Mr. Miller. But just think of the litigation we are going 
to have in the next decade.
    You know, because we are going to have a lot--unbelievable 
amount of legal battles.
    Secretary Daley. Oh, yeah.
    Mr. Miller. Can you envision that?
    Secretary Daley. Oh, my name is all over them, I am sure. 
[Laughter.]
    Mr. Miller. I mean, but, you know, the number, you know, is 
going to be phenomenal. But is this going to create confusion? 
Now you are saying it is--your interpretation is that it is 
required for redistricting?
    Secretary Daley. If it is feasible for other purposes other 
than apportionment.
    Mr. Miller. You are listening to the same attorneys who 
have spent the past seven years telling you it was legal to--
you know, you did not have to do a full enumeration. So you are 
going to listen to the same legal advice that has been wrong?
    And, you know, even the CRS has issued an opinion that they 
think it is probably doubtful that is going to be required. I 
mean, I think you are going to lose this in court. I feel 
fairly confident, once the case is introduced, they are going 
to throw it out for redistricting.
    I mean, you can read Judge O'Connor's opinion. You can, you 
know, look at other things. But you are, you know listening to 
this same bad legal advice and going to create the second 
number.
    Money is a different issue. Money is a totally different 
issue. And, you know, I am not debating money. But for 
redistricting--and we are talking about an April 1 of next 
year's number. So, you know, I was thinking the other day this 
must be--you know, this is going to be great for the trial 
lawyers.
    They are going to have a lot of fun with this one. I mean, 
you can imagine. You are literally going to be the Secretary of 
Commerce in the next decade.
    Secretary Daley. Well, I just know from 1990 that lawyers 
had a field day and the Secretary at the time--Mosbacher's name 
was taken in vain all over America, so I assume I will join his 
great position and have my name all over.

                          multilingual census

    Mr. Miller. I introduced a ten point plan to help improve 
the census because we all want to get rid of the--you know, we 
recognize it is there and we want to do what we can. And 
actually, seven of my points the Bureau has been supportive of.
    And some of it is just more money for advertising. I think 
paid advertising, you know, would be--and I think that we will 
find out they are going to recommend more money for that. The 
languages--I asked the question about more languages.
    I mean, Spanish, of course, is covered, but I do not 
understand--right now, for example, it is only in five or six 
languages. And you say well, that is just a minimal number of 
people. Well, if you are in Congresswoman Carrie Meek's 
district where there is a large Haitian population, Creole is 
the language.
    And yet, right now, you know, there is instructions of how 
to do it, but they have got to fill it out in English. And the 
only other way they can do it is we are going to hire people on 
the telephone to handle the issue. I mean, a lot of other 
areas, you know, problems are going to have that with language.
    It is not like I have a large Haitian population. I do not 
know, maybe Mr. Serrano does. But, you know, right now there is 
no way to help them but they have got to do it by telephone. I 
mean, it is not being--you know, trying to reduce that part of 
the under count I do not see.
    And I do not know why the opposition--they say oh, the 
computers will not do it. Well, so you are going to do it by 
telephone with translators only?
    Secretary Daley. My understanding, Congressman--first of 
all, when I came in here two years ago, I was told that these 
questionnaires would be out in 30-some languages and I thought 
that sounded great when I was told it. I wondered how they 
could ever do it and how you could have the sort of system that 
would--but that was their opinion at the time, that it could be 
done.
    I think what was proven to them through research and really 
putting not only pencil to paper, but probably some real 
understanding of how difficult and complex that would be, that 
it was just not feasible. My understanding is the six languages 
which the questionnaire would be printed up in--English, 
Spanish, Korean, Vietnamese, Talalog and Chinese--thank you--
covered 99% of the people, so it became almost a cost benefit 
issue. It would be great if we could supply a questionnaire to 
every person who may have every language, and I am sure there 
are more than 33 languages that are spoken out there.
    Mr. Miller. Even Braille is not even included in this.
    But I mean, the thing is, these are the most under counted 
populations. To me, we can go the extra mile to make it 
possible and they are not going that way.

                        post census local review

    Let me go to another issue that--and that is post census 
local review. This is essentially supported by all local 
officials. I have not met a local elected official that is 
opposed to post census local review. You are familiar with what 
we are talking about.
    Now, Director Prewitt is saying that we cannot make any 
changes in the plan because it is already set in concrete, even 
though the plan is not available. But you are saying today that 
the plan is not set in concrete. And then the Advisory 
Committee of the--your Census Advisory Committee has 
recommended in favor of post census local review.
    Because, as I say, I have not met an elected official--
there was 124,000 people added in 1990. And they say well, I 
guess those are not important anymore or such. I mean, you 
know----
    Secretary Daley. Well, they are very important, 
Congressman, and I do not look at that. We take all ten and all 
the other recommendations that you have made or may make very 
serious. Our goal is to do exactly what your goal is, and that 
is to count the largest number of people who are here in the 
United States on April 1st.
    The post census local review did not work well in 1990.
    Mr. Miller. But it added 124,000 people.
    Secretary Daley. Only a quarter of the governmental 
entities participated. It was not as successful as some people 
think it was. Right now we have greater local participation in 
the pre-census run up than we have ever had in putting together 
our address lists. We have 84% of the local entities helping 
us.
    Mr. Miller. But that is before. This is kind of like the 
audit. I mean, you have audits of books if you are in the 
private sector.
    Secretary Daley. Well, that----
    Mr. Miller. Like after the fact, why can we not--we have a 
real trust problem with this census, as you know. I mean, you 
know, and so now we are saying to the local mayors and county 
commissioners and township officials, you know, you cannot look 
at these numbers, we do not trust you anymore.
    Secretary Daley. Well, I can speak----
    Mr. Miller. What harm does it do? Dr. Prewitt could not 
find any harm.
    Secretary Daley. I do not think it does harm in the sense 
of--well, as you define harm. I know that what we have done 
with local governments in this audit, as you call it, is to try 
to audit the address list, which is the most important thing we 
can have accurate on April 1st by virtue of going to the local 
governments, saying that this is the urban address list we 
have, update it, continue to update it.
    If there is new construction going on, let us know. Get 
that all pre April 1st. If we keep this going afterwards in 
kind of an open-ended audit, it will make it very difficult to 
finish and have an accurate count--because I would imagine 
there will be some who will want to come in on December 31st 
and say there are two new people who just moved into my city 
and please count them because I am two people under a million 
and that is the magic number I have to get to.
    So our goal is to try, between January 1st and April 1st, 
so that on April 1st we know that we have the most accurate 
mailing--or address list of new residences, new construction so 
that----
    Mr. Miller. That is all good. I mean, those are good 
programs and I am, you know, glad to see that the Bureau is 
moving in that direction. But the thing is that little bit of 
trust that we need. And for those communities--I mean, mistakes 
are made.
    We had one congressman testify in Wisconsin that a whole 
ward was mysteriously left off. Of course, the Bureau corrected 
it. And Bureau sets the standards of--you know, you do not add 
two people I mean, I would agree with that. But it is just----
    Secretary Daley. But I know a few mayors who probably would 
not agree with that. One in my family. [Laughter.]
    Mr. Miller. Well, as you know, the Mayor of Detroit added 
45,000 to Detroit. So is it so set in stone that we cannot make 
any changes or, I mean----
    Secretary Daley. Well, I think we feel very confident that 
what you are trying to address is being addressed as best we 
can with this pre-census involvement by the local agencies--
local governments. And to try to do the post-census is not 
going to give us the sort of numbers.
    We think we can accomplish it--part of the reason for that 
post survey having 124,000 is because they did not do as good 
of a job before April 1st as we plan to do.
    Mr. Miller. Actually, if they do a good job before, then 
there should not be anybody added, so it does not hurt to do it 
then. You know if everything is corrected, you know, in the 
pre-census----
    Secretary Daley. But you cannot do everything.
    Mr. Miller. You know, it is just a matter of whether----
    Mr. Rogers. Mr. Wamp.
    Mr. Miller. Thank you.
    Mr. Wamp. Thanks, Mr. Chairman. I was thinking just a 
minute ago, Mr. Secretary, when I was growing up and my dad 
would whip my butt and say, ``Hold still and take it like a 
man.'' And I admire you. You are tough.
    This day cannot be too easy for you. I serve on the 
Interior Subcommittee and down there we sometimes get on 
Secretary Babbitt like that and he squirms and yells and 
wiggles. It is kind of nice to see a guy, and maybe it runs in 
your family, that can take a harsh word or two. Maybe you are 
tough from where you grew up. [Laughter.]
    Secretary Daley. I am the youngest of seven, so that is the 
real reason why I can take a lot. [Laughter.]

                 department of commerce y2k compliance

    Mr. Wamp. Your testimony says that you have moved from 25% 
on Y2K compliance, I think, to 85%. Tell me more about NOAA. 
Where are they? That would be a great concern of mine on Y2K 
compliance with NOAA.
    Secretary Daley. Let me--to be honest with you, 
Congressman, I do not have it broken down by bureau. Let me 
just take a minute and--if I can ask Scott Gudes, who is the 
Deputy Under Secretary for NOAA.
    Mr. Wamp. Please.
    Secretary Daley. Tell us where NOAA is.
    Mr. Gudes. I'm Scott Gudes, Deputy Under Secretary at NOAA.
    We are in pretty good shape. The big lead issue is the 
Class VII, Class VIII conversion at the National Center for 
Environmental Prediction. We need to get that Class VIII up and 
operating. That is our lead issue.
    Mr. Wamp. Okay, keep us posted as the year goes by on that 
particular issue. I know with all the events that we have had 
in the last weeks and months and years even, that should be a 
primary concern.

                        lands legacy initiative

    And then furthermore, kind of following up on that, being 
on Interior I am, like Chairman Regula, concerned somewhat 
about Lands Legacy because it is a multi-agency--how many 
agencies are involved in Lands Legacy?
    Secretary Daley. I think there is somewhere around five or 
six, at least.
    Mr. Wamp. And as you say, five or six, and the total 
expenditure is somewhat unclear. And you said earlier you are 
not exactly sure how the land management issue would be 
handled. And one of the concerns we have on Interior, not being 
paranoid, but just being concerned and cautious, is any of this 
kind of a back door approach to some of the issues relative to 
Kyoto, climate change?
    I notice that on your natural resource initiatives in your 
portion of Lands Legacy, Ocean 2000 and Climate in the 21st 
Century are the names of some of these programs. Last week we 
had Secretary Richardson appear before the Interior 
Subcommittee and surprise us with an emergency $14 million 
dollar request for Y2K compliance for a nuclear reactor in the 
former Soviet Union.
    That is kind of a side issue. But there is so much global--
so many global problems now, and I just wonder--I guess 
clarification that your department--or there is not an 
initiative to try to circumvent, in the absence of a Kyoto 
Treaty and the Senate ratification there, that this is not part 
of an effort to try to put together a multi-Agency, hard to pin 
down, hard to define, multi $100 million dollar initiative to 
try to implement some of the climate change initiatives that 
you cannot get approved.
    And therefore, if you just split it out, spread it out, 
split it up and make it confusing, maybe they do not know what 
we are doing with a whole lot of money coming from ten 
different directions. And on the Interior Subcommittee, we feel 
some of that happening, but you cannot really put your finger 
on it.
    Secretary Daley. None of the funds for the Lands Legacy 
program in the Department of Commerce will be used for 
atmospheric conditions. And now, quite frankly, if our 
ecosystem improves, that is going to help the objectives of a 
Kyoto. But those objectives are what we all share.
    But I can assure you that this is not being put together 
and our programs in the Department of Commerce are not being 
put together for the purposes that you fear.
    Mr. Wamp. And so the $105 million dollar request for fiscal 
year 2000 is just for lands in the areas that you described 
earlier and the preservation of those lands which will improve 
the ecosystem, and it is just basically a domestic initiative 
through the Department of Commerce?
    Secretary Daley. Yes.
    Mr. Wamp. Okay.
    Thank you, Mr. Chairman.

                       CARIBBEAN BASIN INITIATIVE

    Mr. Kolbe. Thank you, Mr. Chairman and Mr. Secretary. My 
apologies for not being here. But when we have these multiple 
committees and as chairman of one subcommittee who was chairing 
a hearing this afternoon it is difficult to be two places at 
once. So I am sorry I was not here earlier.
    I have a feeling there has probably been a few questions 
asked of you about the census today. [Laughter.]
    Secretary Daley. No, it did not even come up today. We are 
waiting. [Laughter.]
    Mr. Kolbe. So I think I will just pass on that one.
    Secretary Daley. Thank you.
    Mr. Kolbe. Except to let you know that I share the concerns 
that my colleagues on this side of the aisle have expressed 
about your idea for two numbers in the census.
    Let me ask you a couple of other issues here that I have 
some concern about. We are going to consider a supplemental 
tomorrow that is going to have some money for the Caribbean to 
cover the extraordinary costs of Hurricane Mitch and Hurricane 
Georges. I was down there with the Vice President's wife 
shortly after Hurricane Mitch hit Honduras, and the devastation 
is absolutely extraordinary.
    But I am also concerned because that supplemental does 
not--and I think appropriately, since this is not an 
appropriations bill--not include anything dealing with what I 
would consider the long term problem, and that is trade 
enhancement.
    Congressman Crane and I are preparing tomorrow to introduce 
legislation for a Caribbean Basin Initiative, which I know you 
are familiar with. And I am wondering if you might comment on 
the need for some kind of a long term economic development for 
the Caribbean region and Central America.
    Secretary Daley. I share your concern, Congressman. As you 
know, the Administration supports the Caribbean Basin 
Initiative. Many of the industries in the Caribbean have been 
dramatically negatively impacted over the last number of years, 
especially since NAFTA was passed.
    And we are hopeful that Congress this year will move 
forward on that and some other trade issues.
    We have put together, out of the Department of Commerce, a 
team that we took to Central America about a month and a half 
ago that David Festa headed. And we have come back, and 
reported to the U.S. businesses to get them engaged in looking 
to help in Central America to do the sort of projects that are 
needed by virtue of this hurricane.
    And we are reaching out to the business community to tell 
them one of the opportunities that may be there to help bring 
our expertise and to encourage them to continue the sort of 
support unilaterally that they have done in a humanitarian way.
    But as far as the trade issues are concerned, I think we 
have got to look to find ways to help the Caribbean not just 
through aid, but some additional trade initiatives. First one 
and the best would be the Caribbean Initiative, in my opinion.
    Mr. Kolbe. Well, thank you. I happen to agree with you. 
Long term, I think it is the most important thing that we could 
do for that region.

              WORLD TRADE ORGANIZATION MINISTERIAL MEETING

    On another trade related topic, do you have anything in 
your budget--I guess it would really be for this year, but 
maybe in 2000 budget request--for the preparation for the WTO 
ministerial meeting that will be taking place here this fall?
    Are you going to have--I know that is primarily USTR's 
responsibility, but Commerce has a large role to play in that.
    Secretary Daley. We will play a large role but we are 
trying to figure out right now how we can be supportive of the 
USTR. To be frank with you, we have not allocated people yet to 
the program. We are waiting to have all of the interagency 
process develop, what it is each of us will be doing.
    Mr. Kolbe. What takes place, of course, here in the United 
States, as you know, and there will be a large operation that 
goes with that--and I would just be interested in knowing that 
role. As you see that developing, please let us know what role 
you see Commerce playing in terms of support, research, and the 
preparation for the various topics that will be coming up at 
the meeting.
    Secretary Daley. We have been in consultation, obviously, 
with the Trade Representative's office, State Department, the 
other agencies of Government to try to help lay out the agenda. 
And we have not, as I say, allocated personnel or resources 
yet.
    But we know, because we have such a large piece of that, 
our Market Access and Compliance unit and our Trade Development 
unit in ITA are going to put substantial resources to support 
USTR.
    [Clerk's note.--The following additional information was 
provided for the record:]

    While we have no increase request in the FY 2000 Budget for 
the Department's involvement in the World Trade Organization 
(WTO) Ministerial, we have an increase request in the budget 
for our Market Access and Compliance unit (MAC). I would 
anticipate that some of these resources will be used to assist 
in Ministerial work.
    ITA will be actively involved in preparing for, and 
participating in the WTO Ministerial. Our MAC unit will be 
working closely with the whole U.S. Government interagency team 
on issues ranging from government procurement to technical 
barriers to trade. Our sectoral analysts from our Trade 
Development unit will be working with their USTR and other 
agency counterparts on issues ranging from tariffs to non-
tariff barriers to key U.S. manufactured goods and services 
exports and will consult actively with U.S. industry. Our 
Import administration staff will be working to ensure that the 
new negotiations to reinforce our ability to aggressively 
enforce the nation's trade laws.
    Once the Ministerial is concluded, we expect Commerce to 
play an active role in virtually all the negotiating groups 
that will likely be put in place to conduct the negotiations. 
This has been the pattern in past negotiations.

                          steel import crisis

    Mr. Kolbe. Thank you. I know before I came in there was 
some discussion about steel imports and concerns about anti-
dumping.
    Is it the Administration's view that we need legislation to 
deal with this recent surge?
    Secretary Daley. At this point, we believe the actions that 
have been taken through the existing dumping laws have 
addressed the concerns of industry and the workers last year, 
and that was to stop the import surge that came in. We believe, 
based upon December-January numbers, there has been a 
substantial, over 70%, decrease from Japan.
    I think it is 90% from Russia. And we think we have 
addressed the problem as far as those three countries which 
were the three largest importers of steel in the United States, 
hot rolled steel specifically. So we think we have gone a long 
way to slow down, if not stop, in the hot rolled area the 
dumping that went on last year, which did have an impact, as we 
know, on the steel industry and steel workers.
    Mr. Kolbe. Thank you.

                                 NAFTA

    And finally, Mr. Chairman, my last question would be--it is 
really more of a statement, I guess, than a question. I 
understand before I was here there was some criticism of the 
North American Free Trade Agreement. And I just want to say, as 
one who does live near the border and sees the effects of this, 
certainly there are problems that have resulted from this.
    But I do not think anybody can look at NAFTA and see that 
it has not been overall a benefit to the United States as well 
as to Mexico. The steady increase in the amount of trade that 
we are doing with Mexico, both imports and exports to Mexico, 
has been very, very substantial through the years.
    And you look at the job creation in the United States, the 
low unemployment rate, one would be very hard pressed, I think, 
to attribute any major macroeconomic sense, any kind of job 
loss to NAFTA. Of course there are jobs that shift around 
everywhere--whether it is to Malaysia or whether it is to 
Mexico.
    That happens all the time. But I think by and large there 
has been a tremendous benefit. And certainly the help that it 
gave Mexico in the peso stabilization after their peso 
devaluation occurred in 1995 I think has been very substantial.
    I do not know whether you want to just comment on that.
    Secretary Daley. I would agree with you. Mr. Taylor had 
asked the question, based upon dislocation that has occurred in 
his district, in his opinion, by virtue of NAFTA. We, as I 
stated to him, share the same sort of concern.
    But at the same time, we believe it has been extremely 
helpful. And I know in 1993 you played a most important role in 
passage of NAFTA. And so I think--we believe strongly that it 
has been a positive for the United States and for our two 
neighbors who have now become two of our top three trading 
partners.
    Mr. Rogers. Thank you, Mr. Kolbe.

                         CENSUS OPERATING PLAN

    Now Mr. Secretary, back to the census. Have you seen a 
detailed, operational plan for the census?
    Secretary Daley. I have seen the plan, the summary that Dr. 
Prewitt announced last week. We will be meeting to go through 
the master activity schedule as it is laid out and as it is 
finalized.
    Mr. Rogers. But you have not seen it yet, the Master 
Activity Schedule?
    Secretary Daley. I have not seen the one that will be 
finished and finalized. I saw one my last visit about a year 
ago out there that obviously is not accurate.
    Mr. Rogers. But you have not seen the one that they are 
planning on now. How can you say that then it is feasible?
    Secretary Daley. Well, the people at the Census Bureau, the 
people who are charged with develop----
    Mr. Rogers. I am asking you. I will ask them next week.
    Secretary Daley. Quite frankly, Mr. Chairman, not being an 
expert or a statistician----
    Mr. Rogers. You cannot say?
    Secretary Daley. Independently, in my own knowledge, I 
could not tell you that plan, based upon just knowledge that I 
had in and of myself, is feasible. But as we all do, we depend 
on the people who develop the plans and are the experts based 
upon their experience, both those who have been at the Census 
for years and the people that we have brought in to put this 
plan together.
    Mr. Rogers. Well, you are willing to trust the Bureau 
Director to say that it is feasible, right?
    Secretary Daley. Yes, sir.
    Mr. Rogers. Well, good for you. But we do not do business 
that way on this Subcommittee. We need to see the plan before 
we determine that it is feasible. And we just cannot do that 
because you have not been forthcoming with the plan, though you 
have had every day you have been here as Secretary, and then 
before you we had the other secretaries who would not show us 
the plan.
    How do we know that the statistical adjustment procedure is 
accurate? The Bureau, as I understand it, plans to do the same 
procedure tried in 1990 on the statistical adjusting. And yet, 
we learned almost three years after the fact, after that census 
was over, that the adjusted numbers advocated by the Census 
Bureau were wrong.
    They overestimated the undercount by a full percentage 
point. Now you claimed to have fixed the problem for 2000, but 
we have no way of knowing that because we cannot get an 
evaluation of the dress rehearsal. We have not even seen that.
    We will not see that, we are told, until later this spring. 
Yet, you are up here asking for your budget and it just will 
not work that way.
    Comments?
    Secretary Daley. I would just say, Mr. Chairman, that I 
believe that the data from the dress rehearsal has been 
supplied to the Committee, and surely the report by the 
Director on the dress rehearsal has been put out. Whether it is 
exactly what you or your staff wanted--if there is a 
clarification as to what you need, I would surely go back to 
the Census and accomplish what you want.
    Mr. Rogers. Well, the report that they gave the staff said 
a complete evaluation of the results will be provided later 
this spring. So we just have not seen it. We have seen a rough 
summary, but we do not do business that way.

                           TWO NUMBER CENSUS

    Now, to follow up on Mr. Miller's line of questioning, for 
four years the Administration argued blindly for a one number 
census, arguing that ``anything else would mean chaos and 
endless litigation,'' to quote you and your staff.
    The Supreme Court says you have to actually count now for 
apportionment purposes. Now you quickly change gears and say 
well, two numbers are fine, a two number census is fine. I 
guess what I am going to ask you is who is going to decide 
which set of numbers to use for whatever purpose?
    Will States be given the option of using the actual count 
or will they be able to pick the Clinton count?
    Secretary Daley. First of all, Mr. Chairman, as I stated, 
we wish we had one number. We need to have the most accurate 
number, however, and we wish that the Court had ruled that use 
of sampling for apportionment was legal. We would have had one 
number that we could put forward that we believe was the most 
accurate.
    Right now the States have the option. They can do their own 
census. We supply the number to them for redistricting 
purposes. The States can do whatever they want with it for 
redistricting purposes. They could go off and decide whatever 
method, as I understand it, they would want to use.
    So they could conduct their own census. They could take our 
number and, in their individual wisdom, decide how they want to 
use it or whether or not they want to use it at all.
    Mr. Rogers. So we could see a scenario where New York State 
chose the Clinton numbers to redistrict within the State, 
Arizona picks the actual enumeration numbers for redistricting 
within their State, and we wind up with these two gentlemen 
representing districts that are not equal?
    Secretary Daley. Before----
    Mr. Rogers. Do you think the Supreme Court might have a say 
in that?
    Secretary Daley. The Supreme Court may have a say in that. 
But even before this census--in the 1990 census, New York, in 
their individual judgement, could have decided not to take the 
number that was done by the Census and conduct their own census 
and move forward.
    They had that choice at that point.
    Mr. Rogers. Well, I think most State constitutions and 
State laws read ``the official decennial census number.'' So my 
question to you is--which one of these numbers will you 
designate if you do any? Are you going to designate one of the 
two numbers as the official one?
    Secretary Daley. We will forward to the States for 
redistricting or for the apportionment of Federal funds the 
adjusted number that is the most accurate number for them to 
use for those purposes. What they then decide to do with those 
numbers I would imagine legally is up to the individual States.
    Mr. Rogers. But will you also furnish them the actual 
enumeration numbers?
    Secretary Daley. They will have, for apportionment 
purposes, that number for each of the States. That will be 
available.
    Mr. Rogers. Will you designate, or will the Department or 
anyone else designate, either of these numbers as the official 
census number?
    Secretary Daley. We will--for apportionment purposes, we 
will send the number to Congress. According to the law, that is 
required. And then for redistricting and for distribution of 
Federal funds purposes, we will supply the official number for 
those purposes from the census that will be an adjusted number.
    Mr. Rogers. So you are going to call the adjusted number 
the official number?
    Secretary Daley. For the redistricting and for 
apportionment of Federal funds, that will be the number that 
will be used. For apportionment of House seats that will be 
given to the Congress, the number based upon the decision of 
the Supreme Court will be the one that will be given to you.
    Mr. Rogers. Again, to repeat the question, will you 
designate----
    Secretary Daley. I am not trying to play games. I do think 
that I have tried to answer it, and I think there is a number 
for apportionment purposes that we will give the Congress based 
upon the Supreme Court ruling. And we will supply to the 
States, for their redistricting purposes, a number.
    Now, whether we have two official numbers, one that is 
official for apportionment purposes or one for redistricting 
and, slash, distribution of funds, let me ask for a moment 
here, if I may.
    Yes, they are both official. One is official for 
apportionment purposes and one is official for the other 
purposes that are feasible based upon the court decision.
    Mr. Rogers. The lawyers are lining up at the doors. 
[Laughter.]
    Now let us switch to another more pleasant topic, if we 
can. [Laughter.]

                         noaa budget proposals

    We try to wind up on a good note. NOAA. There are numerous 
problems to even get off the starting block with your NOAA 
budget proposal. First it calls for a 14% increase, a $280 
million increase. Fourteen million dollars in navigation fees 
as NOAA's share of the Coast Guard fee on navigation and vessel 
traffic services that has been proposed and rejected twice.
    So it is not going to happen. Fishery management fees of 
$20 million that have been proposed three times in the last six 
years rejected by the Committees of the Congress. Not going to 
happen. One hundred and five million dollars from the Land and 
Water Conservation Fund to fund a number of initiatives in 
NOAA, whereas, the existing statute makes these funds available 
for the National Park System, National Forest System and the 
National Wildlife Refuge System. The subcommittee that has had 
jurisdiction over the Fund has always been the Interior 
Subcommittee.
    One hundred million dollars for an unauthorized program for 
grants to four States for Pacific coastal salmon recovery, the 
exact uses of which no one has been able to define, and which 
the Department did not even request as part of its budget but 
came forth as a last minute add on from somewhere on high.
    Numerous new initiatives and increases for programs under 
the Coastal Zone Management Act and the Endangered Species Act, 
which are unauthorized. Where do we even start on a budget 
proposal that has so many possibles and ``ain't never gonna 
happens'' in it as this one?
    That is more pleasant than the last one. [Laughter.]
    Secretary Daley. I thank you for the courtesy, Mr. 
Chairman.

                             noaa user fees

    On the fee situation, we do feel there is obviously a 
disagreement, but we do feel that those--that there are 
circumstances where discrete users of these services like 
navigation fees and the private sector commercial users who 
are--who depend upon those services that we provide should be 
paying a certain amount, small amount that it is, in order to 
cover some of the expenses to provide all of these services 
that we provide for much of the private sector.
    We feel strongly that as the costs increase for a number of 
these programs and a number of these services that we are 
providing to private sector, that--and we have done it in 
certain other areas, in ITA and others, that the users of these 
services should be paying a small amount of fees for some of 
these services.

                        lands legacy initiative

    We would hope that Congress would begin to agree that some 
of these private sectors should be using this. We do believe, 
as I mentioned to Congressman Regula, that the Subcommittee 
does have authorization regarding the $100 million Lands Legacy 
issue to use those funds.
    We do want though a permanent sort of funding source after 
2000. And we would like to work with you and the Congress to 
come up with that. The other increases that you have cited we 
believe are extremely important to keep our economy strong and 
keep these parts of our Nation which are important to us 
strong, and the services that NOAA gives are extremely vital to 
many of these parts.

                      pacific coastal salmon fund

    The salmon situation, there has been an 84% drop in salmon, 
which is an important part of the economy of the northwest and 
some very difficult challenges for us in the Northwest to deal 
with based upon congressional action.
    And we will work closely with the States and the tribal 
communities in the Northwest to come up with a grant program 
and make sure that this money, if it is appropriated by 
Congress, will be well used.

               international trade administration funding

    Mr. Rogers. Now the trade deficit, record trade deficit, 
was announced the other day, up 53% from 1997 in large part 
because of a decline in exports. You propose relatively modest 
increases in positions for the U.S. and Foreign Commercial 
Service and in Market Access and Compliance for enforcement.
    There is a crisis out there in trade--in the balance of 
trade. A lot of cheap imports coming in, decline in exports 
despite all the export promotion that you have been doing. 
Where is the response to this trade imbalance in your budget 
other than a slight increase in foreign commercial service?
    Secretary Daley. There has not been a dramatic increase, 
you are right, in the ITA. Our request for the increase in 
Market Access and Compliance is an important step in trying to 
make sure that we enforce and have other nations enforce the 
agreements which we have reached.
    Our export promotion and our request we believe is 
adequate. In spite of the tremendous drop, as you mentioned, in 
exports, we believe that our 100 domestic offices and our 75 
international offices do fill that void. And we will be even 
more aggressive than we have been.
    But the trade deficit is a result of two things, Mr. 
Chairman. As we know, one is our strong economy, which we hope 
to continue. And second of all, because of the drop in the 
Asian and some other economies, one of the things that I know 
the Congress has done with their replenishment of the IMF and 
the strong statement which Congress made on that behalf was to 
try to strengthen these economies. Because if they do not come 
back, then the likelihood of our exports increasing will 
diminish.

                       export promotion expansion

    If I may, Mr. Chairman, our $13.8 million expansion of the 
U.S. and Foregin Commercial Service, the following are its 
components: $4.2 million to open six new commercial posts in 
Subsaharan Africa and establish an African-based training 
center; $4.6 million to open three new commercial posts in Asia 
and grow our presence in China and the Philippines; $2 million 
in Latin America to open new posts in El Salvador and Uruguay 
and enhancing our staff in Mexico, Brazil, Argentina and 
Trinidad-Tobago; $1 million for the three standard attaches in 
Russia, China and South Africa. This will ensure that our 
standards that develop are transparent and harmonize; and $2 
million for Joint Export Technology Project with NIST and the 
Manufacturing Extension Partnership to help manufacturing SMEs 
that Congressman Taylor talked about enter the export market 
easily.

     u.s. and fcs expansion--relationship with department of state

    Mr. Rogers. Now, your request includes an increase for FCS 
personnel in Asia, Latin America and Africa. The State 
Department budget request asks $3 million for an increase in 
their market promotion efforts in those same countries.
    Are you aware of the overlap? And if so, why?
    Secretary Daley. To be honest with you, I am not aware of 
the fact that they have requested that amount for promotion. We 
try to cut down the duplication that may occur between the 
agencies. I know the Department of State has been very 
aggressive in trying to, as we do, promote U.S. exports and 
U.S. business opportunities.
    And so I would imagine we could complement each other with 
those sort of amounts and activities.
    Mr. Rogers. Do you think you can better handle export 
promotion or can the State Department?
    Secretary Daley. Of course I believe we can do a better 
job.

               advanced technology program funding level

    Mr. Rogers. Halt the presses. Finally, about ATP. I was 
surprised at your request for the Advanced Technology Program, 
$251 million. That is a $54 million increase over the '99 
level.
    Last year, in the negotiations to wrap up the 
appropriations bills in October, the massive deal with the 
White House, we had a series of discussions with OMB about 
arriving at a funding level for ATP that could remain more or 
less level for the next couple of years and get us out of this 
annual debate over funding.
    We thought we had that settled last year, and that level 
was approximately the level we ended up at in '99. You were not 
there at those discussions, but what can you tell us about how 
ATP ended up requesting a $54 million dollar increase contrary 
to the agreement we had with OMB last October?
    Secretary Daley. Now, Mr. Chairman, as you stated, I was 
not there. If there was an agreement that was made, it had not 
been brought to my attention. I think we had this discussion 
once before I think in the first year I sat before your 
Subcommittee.
    We believe ATP has been a successful and a positive 
program. We think we have also changed the nature of it so that 
it is a program that is targeted to small businesses. In '98, 
67% of the new awards went to small businesses, which I know 
was a concern to the Subcommittee when I first came here in the 
makeup of the ATP program.
    So I cannot, to be frank with you, Mr. Chairman, comment on 
an agreement that you say was reached in October regarding the 
funding. But we have been committed to an increase in ATP 
because we think it is a good program and has worked.
    Mr. Rogers. OMB was the one pushing that deal to fund ATP 
them again this year at a comparable level. They were the ones 
that pushed that deal and we reluctantly, more or less, agreed 
to it. So we feel a little bit sandbagged here, as you might 
suspect, by OMB.
    I wonder if it is ever going to get to the point when we 
ask OMB to come and sit beside you when you testify. I think 
that would be altogether appropriate because they are driving 
so many of the decisions that you have to come and defend, and 
I regret that.
    Maybe we ought to just subpoena the OMB up here to tell us 
the figures for the 2000 Census because they are driving you 
and everyone else. What do you think about that?
    Secretary Daley. I think I probably should not comment on 
what I really think--[laughter]--and just say that I would 
leave it at that.
    I do--well, I better leave it at that.
    Mr. Rogers. Go ahead. [Laughter.]
    Secretary Daley. No, I think----
    Mr. Rogers. I won't tell nobody.
    Secretary Daley. They are sitting behind me and I can feel 
their eyes staring at me now, so I better leave it.
    Thank you for your comments though, Mr. Chairman.
    Mr. Rogers. Anyone else have questions?
    Mr. Serrano.

                     u.s. and fcs overseas security

    Mr. Serrano. Thank you, Mr. Chairman.
    Secretary, this may come as a shock to you, but we have 
decided up here that when Dr. Prewitt comes we are only going 
to ask him about import and exports--[laughter]--and never 
touch on the census.
    And let me just ask you something here. We had a hearing 
last week on embassy security. And I know that it has been 
touched on, the fact that there will be more people now from 
your Department based overseas. How does the increased threat 
to U.S. facilities and staff overseas impact the Commerce 
Department's ability to successfully improve export 
opportunities for American business?
    Is that something that you have to worry about as you set 
out to do business?
    Secretary Daley. It is of concern to us, Congressman. Most 
of our commercial service operations and personnel are located 
in the embassies, so they are secure facilities. We had begun a 
program to begin to move some of those out of the embassy to be 
a little more accessible to our potential clients and 
customers, but that looks as though it may be difficult to do.
    We are doing an analysis of our commercial service 
operations as to their security level, and I would obviously 
like to talk to you on the side about that. But we feel 
confident that our people are secure. We have experienced, as 
so many other Federal employees did in the bombings in Kenya 
and Tanzania, many people who were injured.
    We had four nationals in Kenya killed. We had two of our 
commercial service people seriously injured. So it is of 
greater concern to us today, quite frankly, than we thought it 
would be a year and a half ago when we began a process to move 
commercial service people out of embassies to be more 
accessible.

                        trade with latin america

    Mr. Serrano. And I notice that when you were mentioning the 
different areas, you did mention Latin America. And for years, 
Mr. Secretary, there was a feeling south of the border and in 
some areas like the south Bronx and L.A. and so on that we were 
not making that extra push to trade with Latin America.
    So notwithstanding whatever may come from NAFTA, and some 
people on this panel support it and others oppose it, is there 
an effort now to reach out to those neighbors who, for many 
years, were neglected in our trade efforts?
    Secretary Daley. We are very aggressive. And in our request 
to the Committee for additional resources for the U.S. and 
Foreign Commercial Service, Latin America is one of our primary 
targets. It has been one of the few markets in the world over 
the last year of turmoil that have continued to see an increase 
in exports from the United States.
    We believe strongly that if we could move to the free trade 
area of the Americas eventually, that will be very helpful in 
increasing our exports and increasing the economic integration 
of our hemisphere, which will only help us and give U.S. 
companies who are disadvantaged right now greater opportunities 
in Latin America.
    So it is a focus of ours. I have done one trade mission. I 
am leading another trade mission later this year hopefully to 
South America and Central America. And it is a major focus for 
us, as I know it is for the entire Government.

               analysis of potential for trade with cuba

    Mr. Serrano. Let me ask you a question on one of my other 
favorite subjects in this House. Do you know, Mr. Secretary, if 
the current trade embargo on Cuba prevents your agency from 
doing any analysis as to what that market would look like for 
American business if it was open?
    I mean, without obviously making any statements about 
whether it should be. The Administration's policy is to 
strangle the Government until they cry uncle. But those of us 
who think that will change someday wonder what will that market 
be like for us, especially since I am one of those who believes 
that the embargo against Cuba will end when Wall Street wants 
it to and when American farmers scream the way they are 
beginning to scream now.
    Do you know if--so my first question is, has anything like 
that ever happened that you know of, any study? And secondly, 
do you know if current Helms-Burton laws and so on prevent you 
from going out and doing that study now in anticipation of a 
change?
    Secretary Daley. I do not know the answer to the second 
question, Congressman, whether we would be prohibited. I will 
get back to you and let you know. All I can tell is from 
anecdotal information. We hear from U.S. companies frequently 
of their strong feeling that there is real opportunity in Cuba.
    How to quantify that and put a number on it, I would like 
to give some thought and talk to our trade people and see if 
they have--if we have not done it, do they have outside sources 
that have done it and get it to you.

                            trade with china

    Mr. Serrano. And my last question on trade is: On the other 
side of our misled policy--and you will notice, Mr. Chairman, I 
am calling my party's policy misled, so I am very fair on this 
kind of thing--we trade with China, but at the same time we 
denounce China everyday for its behavior, its government 
behavior.
    Does that create--what kind of a situation, I wonder, does 
that create for your agency? I mean, on one hand part of your 
role in life is to make sure we trade more with China. On the 
other hand, part of your role is to be part of an 
Administration and a Nation as a whole that condemns China on a 
daily basis.
    Is that a problem or is that a problem for someone else?
    Secretary Daley. Well, it is a problem in the sense that if 
there are opportunities for U.S. businesses, and therefore U.S. 
working men and women around the world that are--and markets 
that are close to us, especially a market that would be so 
close and we would probably be in an advantageous position, it 
puts us in the Commerce Department in a position of regretting 
that.
    But it is obviously decisions that Congress has made that 
has prevented us and the U.S. business community from doing 
business, so we just move on to markets that we know it is 
legal to do and just support our U.S. businesses.

                     minority undercount in census

    Mr. Serrano. My last comment, Mr. Chairman, getting back to 
our favorite subject of the day, it is interesting to note that 
I have a special interest in a fair count since the 16th 
Congressional District in the Bronx, which is represented by 
that charming, debonair Congressman Serrano, is the most 
undercounted district in the Nation.
    It is also interesting to note that of the first 35, Mr. 
Chairman, districts in order of the most undercounted to the 
least, of the first 35, 28 are represented by the Hispanic or 
African-American members of Congress.
    Now, usually, in today's world, that means that those 
people who represent those districts usually means that the 
population of those districts reflects the representation in 
our case, meaning that the top 28 districts (not representative 
of the 35) are minority districts, if you will, which are 
probably the ones obviously in need of the education dollars 
and health care dollars and so on.
    So I make that point not only to bring my sympathy part 
into it on being the most undercounted district in the Nation, 
but secondly to remind us that a fair count means education 
help, it means health care help, it means job incentive 
programs for the people who we most need it for so that they 
can grow up or later on become good taxpaying citizens.
    And with that, Mr. Secretary, I thank you for withstanding 
us--all of us today. And we look forward to working with you in 
making sure that all these things take place. And when we do 
end the embargo on Cuba, I want you to--do not laugh. It could 
happen. You never know.
    We would want you to have some figures for us on that.
    Secretary Daley. I will get back to you on both of those 
questions, Congressman.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

    The Helms-Burton laws do not prevent the Department from 
doing a market analysis of Cuba. However, in light of Helms-
Burton and the Cuban Assets Control Regulations which prohibit 
the export of products, technology and services from the United 
States and Cuba (with the exception of publications and other 
informational materials, and certain humanitarian goods such as 
medicine and medical supplies), we have not undertaken such an 
analysis given that U.S. companies can not take advantage of 
such a product. We are prepared to undertake such an analysis 
should U.S. policy toward Cuba change.

    Mr. Rogers. Mr. Secretary, we had promised to have you out 
of here by 4:00. We have missed it by 12 minutes, and I 
apologize for that. Thank you for your time and your attention. 
We look forward to hearing from you soon.
    Secretary Daley. Thank you very much, Mr. Chairman.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, March 17, 1999.

                   UNITED STATES TRADE REPRESENTATIVE

                                WITNESS

CHARLENE BARSHEFSKY, UNITED STATES TRADE REPRESENTATIVE

               OPENING STATEMENT CHAIRMAN ROGERS

    Mr. Rogers. The committee will come to order.
    This afternoon we are pleased to welcome the United States 
Trade Representative, Ambassador Charlene Barshefsky. You are 
here on an interesting day in the House. We are debating, on 
the House floor legislation to respond to the surge in steel 
imports. You are also here at an interesting time as the 
President prepares to host the Chinese premier and as the U.S. 
prepares to host the World Trade Organization ministerial 
conference later in the year.
    A lot of these issues are much weightier than your budget, 
which, in comparison with many of the other agencies that we 
deal with, is relatively modest.
    So welcome.
    Ms. Barshefsky. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    I want to join you in welcoming the Ambassador, and to 
remind ourselves that our Nation should participate in all 
trade activities, and, at the same time, demand the price, if 
you will, for some of that participation. We should make sure 
that we demand from our partners respect for the people who 
work and for environmental laws and beliefs throughout the 
world. I am looking forward to Ambassador Barshefsky's 
testimony and looking forward to joining you, Mr. Chairman in 
doing what we have to do to make her job easier and make our 
efforts much easier.
    Mr. Rogers. Madam Ambassador, your statement will be made a 
part of the record. If you would like to summarize it for us, 
we would be happy to hear from you.

           OPENING STATEMENT OF AMBASSADOR BARSHEFSKY

    Ms. Barshefsky. Thank you very much, Mr. Chairman, and 
Members of the committee.
    I welcome this opportunity to appear before you. Let me 
just begin by thanking the subcommittee for your support over 
these many years, as well as in terms of market opening as well 
as our budget.
    Let me just say that it is a great privilege to work with 
career employees of the Office of the U.S. Trade 
Representative. We are among the smallest agencies in 
Government.
    Our budget request is $26.5 million to support 185 full-
time employees. With this staff we address over $2 trillion in 
trade volume, an increase of nearly three-quarters of a 
trillion dollars since 1992. We monitor and enforce a network 
of over 270 trade agreements negotiated since 1992, and we 
develop and execute our agenda for the future.
    The budget request we have made reflects our need to 
upgrade security in Washington and Geneva, to add seven 
additional full-time career employees in the agriculture, 
China, Japan, Western Hemisphere and Africa shops to help us 
address a much greater volume of trade, and a growing network 
of agreements, to fund legislated employee pay raises, to 
offset increased travel expenses to several key regions of the 
world and to improve our translation capabilities.
    The request also protects USTR's tradition as a lean agency 
in which each full-time employee has great responsibility and 
which can act quickly to deliver tangible results for Americans 
through new job opportunities, better jobs, higher farm 
incomes, and a rising standard of living, and these 
capabilities are evident, we believe, in the results we have 
achieved.
    Since 1992, U.S. exports have expanded by 51 percent. This 
is despite the Asian crisis and the fact that 40 percent of the 
global economy is in deep recession.
    We have had, as you know, uninterrupted economic growth, 
the longest peace-time expansion in our history, with 18 
million new jobs, and an employment rate the lowest since 1970. 
Wages, home ownership and family living standards fall off 
significantly.
    Our goal is to build upon this record into the next century 
based upon the long tradition of bipartisan commitment to fair 
and open markets and close cooperation between us and the 
Congress, which has characterized American trade policy since 
the Second World War.
    Let me, if I could, turn to our agenda for the year ahead, 
beginning with enforcement.
    First of all, the crisis that the American steel industry 
suffered when imports rose sharply, and suddenly, well above 
historic levels.
    The President's January 7th steel report laid out a 
comprehensive action plan to address this import surge. This 
provides for a rollback of imports from Japan, the key source 
of the import surge, to pre-crisis levels, by stating that the 
Administration is prepared, if necessary, to self-initiate 
trade actions against Japan.
    The plan also outlines actions by the Commerce Department 
to expedite ongoing antidumping cases, and apply dumping duties 
retroactively.
    In addition, the Administration expresses strong support 
for an effective safeguard mechanism and commits us to continue 
to assess the effectiveness of steps taken.
    Since this report, the Commerce Department has announced 
large preliminary dumping margins with respect to Japan, 
Russia, and Brazil.
    We've initialed two agreements with Russia, including a 
suspension agreement on the carbon flat roll dumping case, and 
a broader agreement under the market disruption article of our 
bilateral agreement with Russia.
    These agreements would roll back and cap steel imports from 
Russia, the second largest source of our 1998 import surge.
    In Korea, we have expanded expedited discussions on steel 
with the objective of permanently getting the Korean government 
out of the steel business. This encompasses the closure and 
sale of Hanbo steel and our attempts to ensure the expeditious 
market-based privatization of Korea's largest steel producer, 
Posco.
    Import statistics over the past two months show that this 
policy is working. Import volume of steel overall has fallen by 
34 percent in the last two months.
    Japanese, Russian, and Brazilian flat roll steel products 
are now virtually nil. At the same time, we have remained 
faithful to our own international commitments, thus doing our 
share to forestall a protectionist response to the global 
crisis by our trading partners, and retaliation, particularly 
against American agriculture, and steel-intensive manufacturing 
exports.
    Second, our efforts to open markets through trade 
negotiations are based upon a commitment to enforce the 
agreements we reach. We have initiated over 80 separate 
enforcement actions since 1993, including 44 at the WTO.
    As our action in the recent bananas case demonstrates, we 
expect our trade partners to meet their commitments, and we 
will use our rights to make sure that they do so.
    At the same time our own trade laws, special 301, regular 
301, section 1377 for telecom, are vital tools, but to ensure 
that we have maximum advantage of these laws, the 
Administration recently decided to reauthorize by executive 
order the substance of two laws for which authority had lapsed. 
Super 301 and Title VII on Government procurement.
    Let me now turn to our negotiating agenda for the years 
ahead and our legislative priorities.
    In his State of the Union Address last January, the 
President set out a bold call for the launch of a new round of 
multilateral trade negotiations. This will be launched when we 
chair and host the WTO's Third Ministerial Conference in 
Seattle this December, itself a monumental undertaking as the 
largest trade event ever held in the U.S.
    We envision a new type of global round of talks with three 
separate dimensions. First, expedited negotiations in a wide 
range of areas which would include, at a minimum, sharp 
reduction or elimination of industrial tariffs and nontariff 
barriers, market access and liberalization for services 
industries, including audiovisual, financial services, the 
professions, telecom, distribution, and others. Agriculture, 
including addressing the distortive practices of State trading 
enterprises, high tariffs, export subsidies, and addressing 
Europe's common agricultural policy as well as biotechnology, 
intellectual property, Government procurement, and the 
exploration of how the WTO can help create an international pro 
competitive regulatory climate, particularly in services as 
well as to advance our efforts against bribery and corruption.
    These negotiations would have clearly defined timetables 
and expectations, so we are no longer waiting six or eight 
years for countries to further open their markets.
    The second dimension of a global round would be 
institution-building, including, for example, capacity building 
amongst the least developed countries, so they can implement 
the obligations they undertake.
    Trade facilitation, particularly in the customs area, to 
ease the burden on our businesses, and more effective 
coordination between the WTO, on the one hand, and other large 
institutions like the IMF and The World Bank, the ILO, and 
others, as well as a commitment to greater transparency in the 
WTO itself.
    The third dimension of a new round should accommodate 
ongoing results. For example, we would like to see the 
completion of ITA II, that is, the extension of our information 
technology agreement. Transparency in Government procurement 
worldwide, a consensus on the APEC sectoral agreements, 
improvements in dispute settlement, and in electronic commerce, 
extension of the moratorium on tariffs applied to electronic 
transmissions.
    Our trade agenda beyond this new round is equally 
ambitious. I go through this in detail in my written statement 
but let me cite just a few examples.
    In China, we will continue to monitor and strictly enforce 
our trade agreements. At the same time, we will continue to 
seek broad market opening through our negotiations toward 
China's accession to the WTO.
    Premier Zhu's visit next month is a chance for China to 
advance this goal. We certainly hope that they take it, but 
delay in trade reform is not an option for China. We must be 
treated fairly in that market.
    In the Western Hemisphere, we are continuing talks toward 
the free trade area of the Americas with the aim of concrete 
market opening progress this year.
    In Europe, we are working to remove barriers and strengthen 
trade ties through our transatlantic economic partnership 
covering such areas as technical barriers to trade, 
biotechnology, intellectual property rights, Government 
procurement and electronic commerce.
    In Africa, we're implementing the President's initiative to 
improve trade relations and ensure Africa's better integration 
into the global trading system.
    This, coupled with our desire to see the Africa Growth and 
Opportunity Act pass, should make a very substantial difference 
in our trade relations with that continent.
    In Japan, we are, we believe, effectively addressing last 
year's rapid surge in steel imports. At the same time, we are 
continuing to work on opening and deregulating Japan's market. 
The visit of Prime Minister Obuchi here, in May, I think will 
help those efforts along quite substantially.
    Apart from Japan and China, in Asia, we continue building 
consensus for further market opening in APEC, and in the Middle 
East, we are promoting regional integration based upon the 
foundation of our free trade agreement with Israel and the 
creation of new Israeli-Jordanian industrial zones whose 
products will receive preferential access to the U.S.
    We are working on similar projects with Egypt and the 
Palestinian Authority.
    We are also working to ensure that as trade expands 
environmental standards rise, and respect for internationally 
recognized labor standards grow, and we have a variety of 
programs with respect to international environmental 
disciplines and international disciplines on worker rights, 
that we are pursing at the present time.
    And last, our legislative agenda. Of course the 
Administration urges the renewal of trade negotiating authority 
for certain agreements. In addition, we strongly support 
legislation to continue the GSP program, to pass the OECD 
shipbuilding agreement, to renew trade adjustment assistance, 
to pass CBI parity legislation as well as, as I have already 
mentioned, the Africa Growth and Opportunity Act.
    In summary, the U.S. economy and the living standards of 
our citizens have benefited immensely from the work that the 
Administration and the Congress have done together.
    As we address a growing trade volume and enforce a larger 
network of agreements, our budget request will enable us to 
continue working with you and with the Congress as a whole as 
we carry this work forward into the new century and shape the 
trading world of the next generation.
    Thank you very much, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                       satellite export licenses

    Mr. Rogers. Thank you, Madam Ambassador.
    Last month, the administration rejected the sale of a $450 
million satellite to a business group that holds ties to the 
Chinese Government. This is a result of the fact that previous 
satellite exports have resulted in providing the Chinese the 
scientific expertise to improve their missile launching 
capacity.
    What is your view on the decision to reject the sale of the 
satellite?
    Ms. Barshefsky. Mr. Chairman, USTR is not involved in the 
process of export license review on particular matters such as 
this. Obviously, I fully support the administration's decision 
in this regard.
    Mr. Rogers. Well, in the document, a report by the 
Secretary of State, which was issued January 25, 1999, 
transferring the authority to recommend on these types of 
matters, among the people to be consulted in that directive was 
the U.S. Trade Representative.
    So you are in the loop.
    Ms. Barshefsky. Well, we may be in the loop on paper but we 
were not in the loop with respect to rejection of this 
particular----
    Mr. Rogers. You were not consulted?
    Ms. Barshefsky. Certainly, I was not. I do not know if 
anyone in our office was, but I was not. I obviously support 
what the administration has done, but I was certainly not 
directly consulted; no.
    Mr. Rogers. It is supposed to be the Departments of 
Commerce, Energy, Transportation and the USTR. I am somewhat 
puzzled, why you were not consulted.
    Ms. Barshefsky. Mr. Chairman, I will get back to you, if 
anyone in our office had been consulted. I was certainly not 
directly consulted; no.
    Mr. Rogers. But nevertheless, you say you would support the 
administration?
    Ms. Barshefsky. I have no basis not to.
    Mr. Rogers. Given the revelations concerning the theft of 
critical nuclear technology by China at the Los Alamos 
laboratory, is this the appropriate time to reward China with 
entrance into the World Trade Organization?
    Ms. Barshefsky. Mr. Chairman, China's entry into the WTO, 
were it to occur, is hardly a reward to China. China would have 
to make a series of large unilateral commitments to open up its 
markets across the range of its economy. Goods, services, 
agriculture, with very few exceptions. In addition, China would 
have to commit to abide by the rules of the WTO.
    So this, by any means, would not be a favor to China. It 
is, instead, if China were to come forward with a commercially 
meaningful package of commitments, a way for the United States 
to begin to redress the extraordinary trade imbalance we have 
with China and gain access to the world's most populous and 
largest single market.
    Mr. Rogers. The New York Times' editorial last Sunday said, 
quote: ``It may be that problems with China can be managed 
through a more exacting form of engagement that places less 
emphasis on commerce. It is abundantly clear that doing so will 
require more vigilance about protecting American interests, and 
a greater willingness by the White House to resist Chinese 
efforts to exploit the relationship.'' End of quote.
    Do you agree with that?

                    u.s. trade relations with china

    Ms. Barshefsky. I think we have to look at our overall 
relations with China and determine how best to proceed 
consistent with broad American interests, consistent with the 
global interests that we have in a stable and prosperous China, 
when it is constructive in the region in which China is 
located, not destructive and not destabilizing, and I think 
that will require a look at every facet of our relations with 
China, whether security, diplomatic, political, commercial, 
that whole range of interests, and be sure that we feel we have 
the right policy with respect to each of those areas.
    There's no single magic formula and there's no single 
bullet. I think in the trade area, in particular, where we are 
clearly at a disadvantage because of China's closed market and 
economic structure that is rather at odds with ours in the 
global community, that we would be wise to try and push China 
as much as possible toward internationally accepted commercial 
norms, toward market opening, and adherence to the rule of law.
    That I think is very much in our interest, whether or not 
we are talking about commercial matters per se.
    But to get China under multilateral surveillance, subject 
to the rule of law, subject to public and enforceable 
commitments, absolutely should be a goal of the United States 
and the fact that we might also benefit from that, 
commercially, is no reason not to see those changes in China 
occur.
    Mr. Rogers. Do you anticipate that entrance into the WTO 
will be supported by the U.S. when the Chinese premier comes to 
the U.S. next month?
    Ms. Barshefsky. I think the question, first off, is whether 
China is willing to step forward and make the commercially 
meaningful commitments that would be required for it to get in, 
which means market access in goods, services, and agriculture, 
adherence to the full range of WTO rules, reasonable transition 
periods where that's required, but not unduly lengthy.
    I think China in the first instance has to decide if it is 
ready to come forward. I think we have made important progress 
but there is still work to be done.
    If China were to come forward, obviously, Mr. Chairman, we 
would work with the Congress in terms of going through what it 
is this agreement would encompass and I have been doing a 
number of briefings on the Hill and we try to keep Members 
informed.
    I think we all would have to come to a common decision on 
this. But I do believe it is absolute in our interest if China 
will move ahead, will undertake the reforms we have been urging 
in this administration for six years, but for seven years, in 
prior administrations, if China is willing to do that, we 
should not be afraid to say yes.
    Mr. Rogers. You said that the U.S. would support their 
entry only if it is, quote, ``commercially meaningful.''
    Ms. Barshefsky. Yes.
    Mr. Rogers. What do you mean?
    Ms. Barshefsky. Sharp reductions in their overall tariff 
rates and elimination, over time, of their non-tariff barriers. 
Opening up their agricultural sector, including in commodity 
areas of critical importance to the U.S., you know, wheat, 
corn, cotton, soybeans, sort of the gamut of very, very large 
commodity exports as well as all the specialty agricultural 
products. The fruits and the nuts, and so on, and so forth.
    Opening up of their services sector. Distribution, for 
example, is absolutely critical. Financial services. Market 
opening in telecommunications, in professional services.
    You know, these accessions are of enormous complexity 
because they cover basically the entire trade regime of the 
acceding country, but I think this gives you some flavor.
    We are not looking for little change in China. This is not 
looking for incremental change in China. This would be very, 
very radical change from where China is at present.
    Mr. Rogers. What role do you believe Congress should have 
in approving China's entrance into the WTO?
    Ms. Barshefsky. I think Congress should obviously look at 
the agreements. You should certainly look at all the agreements 
we negotiate and obviously work with us. I do not think this is 
an area where the administration and Congress are on different 
sides.
    I think we all want the same thing, that is to say, a 
productive China and one that is moving toward international 
norms, including in commercial matters, and in the conduct of 
their trade regime, and I would hope that we could work 
together to achieve that.
    Mr. Rogers. Now even if China pledges to take a whole host 
of steps and make that radical change that you have mentioned 
to win entrance into the WTO, what reason is there to believe 
that China would follow through on those steps once it becomes 
a member and we have played our card?
    Ms. Barshefsky. Well, I think that we have a number of 
mechanisms that would be designed to help ensure that.
    One is of course that every commitment China would make 
would be fully enforceable. We are looking for very specific 
commitments, year by year, product by product, subproduct by 
subproduct.
    We do not want to leave anything to the imagination and we 
wish to avoid ambiguity.
    Second of all, China, for the first time, would have its 
entire trade regime subject to multilateral scrutiny.
    It is the first time the United States would not be alone, 
as we were on intellectual property rights and textiles issues, 
pushing China with Europe doing very little, with the rest of 
Asia doing very little. WTO accession gives every single member 
an interest in ensuring that China lives up to its obligations.
    Third, we would propose to include in China's protocol the 
``rules of the road,'' if you will, a special provision which 
allows for multilateral review, every year, of China's 
adherence to its commitments.
    Are there problem areas? If so, what are they? What is the 
possible solution. So that we do not fall behind in China's 
implementation of its commitments.
    So I think those steps, coupled of course with our 
preserving all of our trade law rights, the United States would 
not be making one single change in its trading regime, nor 
would we alter in any respect our trade laws.
    So those WTO measures, coupled with our own trade laws, 
which will remain fully effective, we believe will be 
sufficient.
    This is a very complex undertaking. It will not be easy. It 
is not easy with Europe as we have seen recently. It will not 
be easy with China, but we do think we have the means in place 
to arrive at a credible means of enforcement.
    Mr. Rogers. Do you believe that Taiwan's entrance into the 
WTO would come before or after China's entrance?
    Ms. Barshefsky. Well, Taiwan's market access talks are not 
yet completed. In a WTO accession, the acceding country first 
negotiations bilaterally with each of its major trading 
partners and then multilaterally on the rules.
    Taiwan has not yet closed out, bilaterally, with Canada, I 
am not quite sure why, and there is some indication that there 
are several other countries that it may not have finished with 
yet, bilaterally.
    In terms of the multilateral rules, that negotiation is 
still ongoing in Geneva and is not yet complete. So I cannot 
give you a final time line on Taiwan.
    I do think that it has long been the anticipation of many 
WTO members that China and Taiwan would enter essentially 
simultaneously, a formulation with which Taiwan has generally 
been comfortable and with which China is comfortable.
    But were China's accession to stall, if China does not move 
forward, then I think we have to revisit that issue.
    Mr. Rogers. Mr. Serrano.
    Mr. Serrano. Thank you.
    Mr. Chairman, by the way, as I was listening to you speak 
on the issue of China, it dawned on me that if we use espionage 
as a basis for not participating in the World Trade 
Organization, we may have to close down the organization, 
because at one time or another, every country, including 
ourselves, has been accused. Not that we have ever done it.
    You know, every day the Chairman and I have a little side 
understanding going here, that he tries not to bring up the 
Census issue, and I try not to bring up Cuba. But just to get 
rid of it, immediately, it is amazing, how we make all these 
wonderful--and you are not guilty of anything other than what 
we all are in this country--presentations on why we deal with 
China, which continues to beg the question, why we do not deal 
with Cuba.
    I guess the simple answer is there is a law against that 
and there is no law against dealing with China. But the more I 
hear why we must deal with China, the more I am reminded of the 
fact that in the neighborhood I grew up in, in every other 
neighborhood the ``big guy'' always had more power than the 
``little guy.''
    So if China was 4 million people and 50 miles wide, we 
would probably be demanding from them what we have been 
demanding for 40 years from Cuba.
    But that is another issue. It is just that I need to get it 
out every so often, or my staff will think there is something 
wrong with me.

                  u.s. foreign office security issues

    The issue of security. You asked for $225,000 in your 
budget for security.
    Ms. Barshefsky. Yes.
    Mr. Serrano. There is also the issue of last year's Omnibus 
appropriations bill, which included dollars for security.
    One question. Did you get any dollars from that bill for 
security? And secondly, the $225,000 you are asking for, do you 
know what that will require in additional funding in years to 
come, future years, in order to meet your obligations?
    Ms. Barshefsky. We did not receive any funding in the 
Omnibus Bill for security. It is our understanding, basically, 
that those funds are being used to strengthen security at U.S. 
embassies worldwide, but that, unfortunately, does not include 
one of the foreign offices we have, which is in Geneva.
    We have made, however, a number of security improvements 
over the years in both the Geneva office as well as here in 
Washington.
    But with all the various incidents that have been 
happening, we are of course ever vigilant and ever concerned 
about security issues.
    The FY 2000 requests that we have made on security, a 
budget request of I think $225,000, would really include four 
different projects, aimed at reducing threats from terrorism or 
espionage to our facilities and data.
    One is as to Geneva, two additional contract guards for our 
Geneva office. I would be pleased to brief you, separately, on 
the necessity for that, but we do think that is important.
    Second, funds to upgrade the encryption of our computer 
network communications between Washington, D.C. and the Geneva 
offices.
    Third, funds to hire an additional contract guard at our 
annex building which is on F Street, here, in town.
    And last, we would like to purchase certain parking spaces 
which run along the side of the building. The District of 
Columbia Government is pleased to allow us to do that, so that 
vehicles could no longer park, other than Government vehicles, 
could no longer park in an area so approximate to the building, 
and we have requested funding for that purpose as well.
    Mr. Serrano. You would be purchasing the parking space?
    Ms. Barshefsky. Yes; along a portion of the side of the 
building. Yes, sir.
    Mr. Serrano. I imagine that is a very expensive proposition 
in the middle of D.C. Right?
    Ms. Barshefsky. Well, no. I think it is $25,000.
    Mr. Serrano. $25,000?
    Ms. Barshefsky. Yes. Each year.
    Mr. Serrano. Now, is there an ongoing consultation with the 
State Department about the security issue?
    Ms. Barshefsky. Yes, there is, indeed, and if I might 
clarify one thing. Each of the budget requests we have made on 
the security guards, and so on, of course that is funding in 
each year. You do not hire a security guard for one year.
    With respect to working with the State Department, in 
Geneva, we are not located in the State Department's mission 
building. We are located in separate quarters.
    I think we would prefer to move, if we could, for security 
reasons. We have been working with the State Department on 
whether we could move to their mission building in Geneva.
    An architect has done a fairly exhaustive review and has 
concluded there is not the space. We have a very small Geneva 
shop, about 12 or 13 people, but the mission building currently 
does not have the space, and the architect, as I understand it, 
has concluded that renovating or adding on to the space would 
be prohibitively expensive.
    On the other hand, I think a number of us feel that we, for 
security reasons, should attempt to move. We are looking at the 
question of other space. We still have not given up on the 
mission building and I have yet to receive the architect's 
report, which I would like to personally review.
    But we are working with the State Department, and we are, 
as you can imagine, very security conscious.

                         u.s. trade with africa

    Mr. Serrano. Now on another item, you are asking in your 
statement for seven additional positions, two of which are for 
your African unit.
    Ms. Barshefsky. Yes.
    Mr. Serrano. How many people are currently assigned to that 
unit, and how does that compare to staffing for other 
geographical units? Could you briefly describe your current and 
proposed trade activities with Africa.
    What would be the impact on your ability to carry out the 
administration's Africa trade agenda if you do not get these 
two new positions?
    Ms. Barshefsky. Our offices are staffed very slimly. Let me 
give you an example. Our Western Hemisphere office has seven 
permanent professionals, three detailees. Europe, six permanent 
professionals, two detailees. China, three permanent 
professionals, no detailees.
    Africa has three people, one professional and two 
detailees. We have asked for the seven new career positions 
because these shops are almost ridiculously understaffed.
    The people who are in these shops of course are first-rate 
professionals. None of them come in at 9:00 o'clock. None of 
them leave at 5:00 o'clock and none of them work five days a 
week, and they are under tremendous pressure.
    With respect to Africa, of course this is a new shop. It is 
one that I created because the U.S. Trade Representative's 
Office had never had an office dealing with Africa.
    We have offices dealing with every geographic region of the 
world and, somehow, over the course of 30 years, we missed an 
entire continent.
    So I created the office. We have begun a process of 
negotiating trade and investment framework agreements, that is, 
sort of overarching agreements with some of the African 
nations, so that we can have regular consultations on market 
access issues, WTO-related issues, and so on.
    We also have negotiated a bilateral investment treaty, our 
first in sub-Saharan Africa with Mozambique. We would like to 
extend that program to ensure the sanctity of American 
investment abroad in Africa, and, in general, we would like to 
have at least one other person who can work quite directly with 
the African nations on WTO-related matters, both with respect 
to disputes we may have, as well as with respect to revision of 
rules and other issues.
    Mr. Serrano. Well, we have a great interest on this side in 
that whole issue of African trade, so with the Chairman's 
permission, I would hope you will keep the committee informed 
on how that is going and what progress or lack of progress we 
make.
    Ms. Barshefsky. Yes, sir.
    Mr. Serrano. Mr. Chairman, I have no further questions.
    Mr. Rogers. All right.
    Mr. Kolbe will be back in just a minute. Do you have a 
series of quick questions, Mr. Regula?
    Mr. Regula. Well, a couple, but I would like to submit some 
for the record, with your permission.

                  north american free trade agreement

    I have one question. In your statement, speaking of NAFTA, 
you mention that it complements our efforts to protect the 
world environment and promote core labor standards overseas.
    Ms. Barshefsky. Yes.
    Mr. Regula. Now one of the great complaints I get from 
companies impacted by imports due to NAFTA, is that companies 
in Mexico do not meet the same environmental standards and they 
do not meet the same labor standards, which gives them a 
competitive advantage.
    How do you square that with what you say NAFTA is doing?
    Ms. Barshefsky. I think that we have made some good 
progress under the NAFTA with respect to core labor standards 
and with respect to the environment but the situation is by no 
means perfect, and there is a huge amount of room for 
improvement as you well know.
    On the labor side, of course, we have created the means by 
which parties can complain about certain labor practices, and 
we think that that process has worked at least with respect to 
some of the affected sectors.
    On the environment side, we find we have the North American 
Development Bank up and running more fully, and we will see an 
increased funding of environmental clean-up projects, 
particularly along the border.
    Mr. Regula. Thank you. I will put the rest of my questions 
into the record.
    Mr. Rogers. Thank you, Mr. Regula.
    Mr. Kolbe.

                       caribbean basin initiative

    Mr. Kolbe. Thank you very much, Mr. Chairman.
    Ambassador Barshefsky, along with Congressman Phil Crane, I 
have recently introduced legislation dealing with the Caribbean 
Basin Initiative issue to provide both short-term and some 
long-term trade enhancements for the region, and I know that 
the administration has its own version of this, but as far as I 
know, at this time that bill has not been introduced in either 
the House or the Senate, the administration's version. Is that 
correct?
    Ms. Barshefsky. I believe it is correct; is it not? Yes; 
that is correct.
    Mr. Kolbe. Can you tell me, to the extent you know the 
administration's plans, what your specific plans for moving a 
Caribbean bill this year are going to be.
    Do you know if the administration hopes to do it in 
conjunction with the supplemental appropriation bill, or 
separately from that, shortly after? Or what plans do you have?
    Ms. Barshefsky. I think the general thinking has been to 
try and move a CBI bill parallel with or shortly after the 
supplemental, but our understanding has been that the 
leadership would rather not see it on the supplemental itself.
    As you may know, Chairman Roth of the Senate Finance 
Committee has been looking at the prospect of putting together 
a fairly large trade bill which would encompass trade 
negotiating authority, as well as CBI parity, the Africa 
legislation, GSP rollover, an extension of the Trade Adjustment 
Assistance Program, and so on and so forth. We are working with 
the committee and certainly would hope to see the committee 
move forward.
    We also will be appearing before the Ways and Means 
Committee next week in the hopes that a bill can move through 
that process. So we are anxious to move that bill forward, and 
we are anxious, of course, to also move the Africa legislation 
forward, as well as trade negotiating authority and the other 
matters that have been pending for such a long time.

                         fast track legislation

    Mr. Kolbe. I am also cosponsor of the legislation on Africa 
and obviously, when we get around to a fast-track authority 
bill, I would certainly be supportive of that, provided it's 
one that provides for meaningful negotiating authority for the 
President, that doesn't tie it to too many other issues. This 
is a discussion that you and I have had, and others in the 
administration have had, more than once.
    Ms. Barshefsky. Yes, many times.
    Mr. Kolbe. But on the fast track thing, I'm interested to 
hear you say you're looking at ways in which you could move 
that. Because the statements I have heard that have come from, 
I believe, you, and certainly from the administration, have 
been that there's going to be no attempt to do anything unless 
there's a consensus that is developed on labor and environment.
    Do you see any consensus developing?
    Ms. Barshefsky. Well, we say that a consensus needs to 
develop because I don't think a bill will pass without that 
kind of consensus. We have been working particularly with the 
Senate Finance Committee, inasmuch as they seem anxious to try 
and move the bill forward.
    On the question of whether there is yet further common 
ground that could be reached among the various views on labor 
and environmental issues, I don't know if the committee, at the 
end of the day, will be amenable to altering its position from 
the bill that it had put out in 1997. We were very supportive 
of that bill and, you know, we're very supportive of the bill 
that the Ways and Means Committee put out in 1997.
    But we do think, in light of what has happened to the Ways 
and Means bill, first in '97 and then again in '98, that if 
some stronger consensus or middle ground isn't found, the bill, 
or an approach embodied in that bill, as in the Senate bill, 
would fail again.
    Mr. Kolbe. Some of us think a little leadership from 
downtown might help on that.
    What kind of an impact is it going to have on you at 
Seattle without any kind of negotiating authority?
    Ms. Barshefsky. Well, no President has ever had the 
authority to conclude a Round that he has started. Ronald 
Reagan didn't have it for the Uruguay Round----
    Mr. Kolbe. He had to come back.
    Ms. Barshefsky. He had to come back. You know, Carter had 
to come back to finish off the Tokyo Round and so on.
    We would rather have it than not have it going into the 
Seattle Ministerial. I think there's no question about that. 
But we would not be out of line with the historic pattern, if 
you will, if we did not have it going into the ministerial.

                             wto and china

    Mr. Kolbe. I have one other question on WTO and China. As 
mentioned Premier Zhu Rongji is coming to Washington next 
month.
    What is the likelihood, or can you give us any kind of 
probability that a WTO agreement will come out of that meeting?
    Ms. Barshefsky. I think we don't know. It's----
    Mr. Kolbe. What I'm trying to get at, are you working 
feverishly to try to get it to that point?
    Ms. Barshefsky. Well, we've been working feverishly and 
pushing China feverishly for six years, but most particularly 
for about two-and-a-half. We meet with the Chinese every month, 
rain or shine, usually for one to two weeks at a time, every 
month, without exception, this past two-and-a-half plus years. 
So we have tried to keep the pressure on and tried to move the 
Chinese, and I think we've made some important progress.
    I have done a lot of negotiating with the Chinese over 
these past six years, and in my experience, the hard decisions 
are leadership decisions. Once the leadership makes them, yes 
or no, that's the answer. Negotiations then move very, very 
quickly to conclusion.
    If China decides no, it does not wish to go forward, well, 
it's not going to get into the WTO. If China decides they're 
willing to open up in financial services, they're willing to 
open up in distribution, they're willing to make tariff changes 
and so on, then I think they could move very, very quickly, 
because most of these decisions in China are imposed top-down.
    Mr. Kolbe. I quite agree, and I quite agree with you that 
there has to be a commercially viable offer that they put on 
the table. But given the internal situation, domestic situation 
in China, that doesn't look too likely, does it?
    Ms. Barshefsky. Well, I think there are a couple of 
different things going on. One is that the President has called 
for a new Round. China has said for many years it does not want 
a Round to proceed without it as a member of the WTO, or the 
bar will keep getting higher to their entry and they'll fall 
further behind. I think that lends a little impetus.
    Number two, there's always the question of Taiwan. I think 
China is anxious that Taiwan not enter before it.
    Third, Zhu Rongji has embarked, as you know, on a very 
ambitious reform program in China. But it is somewhat stalled. 
I believe that it may be possible that he, as many other world 
leaders in the past, could look to WTO accession as a means of 
imposing reform on China, getting around his own domestic 
politics, on the basis that this then becomes an international 
obligation of China to move forward.
    So, despite the economic situation in China, which I agree 
is a complicating factor, there may be other reasons that might 
impel the leadership--and we don't know this for sure, of 
course--but that might impel the leadership to move forward to 
make the necessary concessions.
    Mr. Kolbe. Thank you, Mr. Chairman.

                           mission in geneva

    Mr. Rogers. Thank you, Mr. Kolbe.
    On the mission in Geneva, the State Department tells us its 
officials don't have any recollection of a consultation with 
you about moving into their mission.
    Ms. Barshefsky. Oh, yes. We have had many consultations. I 
have not gotten involved in the consultations, but----
    Mr. Rogers. Please identify the person you are talking to?
    Ms. Barshefsky. I'm sorry. This is John Hopkins, our 
Administrator.
    Mr. Hopkins. Mr. Chairman, we have talked to staff in the 
Foreign Building Service, as part of the State Department.
    Mr. Rogers. Who are you talking to, so we can----
    Mr. Hopkins. I'll have to get the name of the person. I 
can't recall off the top of my head.
    Mr. Rogers. Well, you're not making too big an impression, 
I'll say that to you, because they don't even know you're 
talking to them.
    Ms. Barshefsky. Let me also add that Ambassador Rita Hayes, 
who heads our Geneva office, has also been talking with the 
State Department personnel in Geneva. We'll provide you with 
the names of people we have consulted.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

    Several State Department employees, at different levels of the 
agency, have communicated with USTR employees about the possible move 
of USTR Offices from the Botanic Building to the U.S. Mission building 
in Geneva, Switzerland. As a general matter, these communications have 
been initiated by the State Department and have taken the form of 
telephone calls, cables, discussions at meetings, and memoranda and 
letters.
    Recently, there have been two peak periods of such communication. 
First, in early 1995, when the State Department was downsizing U.S. 
presence in the Botanic Building, it invited USTR to relocate to the 
Mission Building. As part of this effort, State Department officials 
communicated with USTR employees in Geneva and in Washington. In 
Geneva, the State Department's Counselor for Administration at the U.S. 
Mission in Geneva, Ronald Rabens, communicated directly with USTR's 
Deputy Chief of Mission in Geneva, Andrew Stoler. In Washington, D.C., 
the State Department's Deputy Assistant Secretary for Foreign 
Buildings, Jerry Tolson, called, visited and wrote to USTR's Assistant 
U.S. Trade Representative for Administration, John Hopkins, inviting 
and encouraging USTR to move to the U.S. Mission Building. This 
communication included a letter from the USTR Chief of Staff, Peter 
Scher, to the State Department Under Secretary for Management, Richard 
Moose in March 1995.
    More recently, beginning in 1998 and continuing in 1999, several 
State Department officials have communicated with USTR employees on the 
general topic of physical security, which has included communication on 
the possibility of relocating USTR's Geneva Office from the Botanic 
Building to the State Department Mission Building. Most of this 
communication has involved USTR's Geneva Office staff. A summary 
follows:
Communications between State Department Officials and USTR Geneva 
        Office Employees
    August 20, 1998: The State Department Mission Administration 
Counselor in Geneva, Warrington E. Brown, visited USTR to discuss 
security at the Botanic Building and State's responsibilities, 
including the possibility of relocating USTR to the State Mission 
Building. USTR's Geneva Office Deputy, Ambassador Rita Hayes, attended 
the meeting, together with USTR's Geneva Office Administrative Officer, 
Elizabeth Faulkner.
    August 20, 1998: The Geneva Mission Emergency Action Committee met 
at the State Mission Building to discuss security for both Missions, 
and the possible relocation of USTR to the State Mission Building. 
USTR's Geneva Office Administrative Officer, Elizabeth Faulkner, 
attended, representing USTR.
    November 4, 1998: The State Department Mission Administration 
Counselor, Warrington E. Brown, met with USTR's Geneva office Deputy, 
Rita Hayes, to discuss security and a possible USTR move to the State 
Mission Building.
    February 16, 1999: Three State Department officials met with USTR 
to discuss a redesign of office space at the U.S. Mission Building in 
Geneva in order to accommodate USTR employees and operations within the 
Mission Building. These State Department officials were: Ronald Tomasso 
and Laura Rogers, office space planners from the State Department's 
Office of the Deputy Assistant Secretary for Foreign Buildings 
Operations in Washington, D.C., and Robert Hurlbert, the State 
Department General Services Officer in Geneva. These officials met with 
USTR's Geneva Office Administrative Officer, Elizabeth Faulkner. Ms. 
Faulkner later briefed USTR's Geneva Office Deputy, Ambassador Rita 
Hayes, and USTR's Deputy Chief of Mission, Andrew Stoler, on the 
meeting.
    February 19, 1999: The State Department invited USTR Geneva Office 
employees to a meeting in the U.S. Mission Building to discuss the 
initial report of State's space planners. State Department officials 
attending this meeting included: Ambassador George Moose and Warrington 
Brown. USTR officials attending were Deputy Chief of Mission, Andrew 
Stoler, and Geneva Office Administrative Officer, Elizabeth Faulkner. 
Also attending were Department of Agriculture Minister Counselor, Ken 
Roberts, and representatives of the other Federal agencies. The 
discussion revolved around the extent to which the Mission Building, 
after the review by the State Department space planners, had sufficient 
space to accommodate USTR. The space planners reported that, based on 
their preliminary assessment, the State Mission Building did not have 
sufficient space to house USTR operations.
Communications between State Department Officials and USTR Washington 
        Office Employees
    Two State Department employees, on different occasions in January 
or February 1999, called USTR's Assistant U.S. Trade Representative for 
Administration, John Hopkins, to alert USTR that a team of State 
Department space planners would be traveling to Geneva to examine 
office space at both the U.S. Mission Building and in the USTR-occupied 
space at the Botanic Building. This review would occur during the week 
of February 16, 1999. The purpose of this review was to ascertain 
whether there was adequate space at the U.S. Mission to relocate and 
house USTR employees and operations in the Mission. These two State 
Department employees were: Waide Egener and Ronald Tomasso of the State 
Department's Office of the Deputy Assistant Secretary for Foreign 
Buildings Operations.

                           u.s. trade deficit

    Mr. Rogers. Last year the U.S. recorded the largest trade 
deficit in history, $169 billion. The deficit was the largest 
with Japan at $64 billion, the second largest was China at $56 
billion, a 15 percent increase from previous years.
    Year after year we hear how progress is being made in 
opening the markets of Japan and China to U.S. goods. 
Unfortunately, that progress is obviously not reflected in the 
statistics.
    What evidence is there that the approach that has been 
taken over the past several years, negotiating item by item on 
opening markets in Japan and China, will at any time in the 
near future alter the fundamental imbalance in our trade 
relationship with Japan and China?
    Ms. Barshefsky. Let me first go through some numbers with 
you. As I said earlier, over the last six years our exports 
have increased by 51 percent. To our NAFTA partners, our 
exports are up almost 80 percent, and to Mexico, 95 percent, 
Canada, 73 percent. To the rest of Latin America, 80 percent.
    Our exports to Japan are up 21 percent, and to China, 92 
percent. But that's off of a very small base. To the rest of 
the Pacific Rim, up 37 percent. To Europe, up 39 percent.
    I look at our export performance as one indicator of the 
success of individual trade policy initiatives. Trade policy 
isn't the only reason our exports are going up. Exchange rates, 
other factors, obviously are absolutely critical. But we know 
in areas in which we negotiate sectoral agreements our market 
access improves, and that means more exports for the industries 
in that sector.
    With respect to the overall trade deficit, the trade 
deficits are largely a function of macroeconomic factors. Our 
growth rate is much higher than that of our major trading 
partners, and now, 40 percent of the world is in recession, 
deep recession, buying less and less of our goods.
    Trade policy won't really affect those macroeconomic 
balances much. The numbers are too big and the forces are much 
larger than any individual country sectoral practice. But that 
is why we're extremely pleased with our export performance.
    Now, our export performance in this past year has been 
anemic, and that is because countries in deep recession can't 
afford to buy what we sell. But we are still, even despite 
that, doing remarkably well.
    Mr. Rogers. We have a vote on the floor--two votes, in 
fact. I think we can be back in just a few minutes. So we will 
stand in short recess.
    [Recess.]
    Mr. Rogers. The committee will be in order.
    You yourself have quoted the statistics that, since we 
opened Most Favored Nation status with China in 1980, our 
exports to China have only grown by $9 billion, which is barely 
half of the export growth to Taiwan, and less than a quarter of 
our $39 billion in export growth to the ASEAN countries.
    Ms. Barshefsky. Yes.

                       u.s. exportation to china

    Mr. Rogers. The fact of the matter is that there is not a 
great deal to show for our solicitousness of China, except for 
a growing one billion dollar a week trade deficit. Isn't that 
really the reality of the situation?
    Ms. Barshefsky. I'm not happy with our export performance 
to China. On the other hand, I don't think we've been 
solicitous of China in the trade realm. We have gone to the 
brink of trade war twice with China on intellectual property 
rights and one on textiles.
    I think this is one of the reasons that WTO accession would 
be important; that is to say, broad market opening on the part 
of China is absolutely critical. But I certainly agree with 
you, that our export performance to China is absolutely anemic 
and doesn't rise to the level that it should for a country of 
that size and for an economy of that size.

      world trade organization ministerial in seattle, washington

    Mr. Rogers. From November 30th to December 3rd, the U.S. is 
hosting a World Trade Organization ministerial conference in 
Seattle, following the President's invitation. Give us a 
preview of what you expect to happen during those four days.
    Ms. Barshefsky. Well, this will be the largest trade event 
that has ever been held in the U.S. The U.S. is hosting it and 
I am chairing it. It is the ministerial at which the global 
trade agenda for probably the first decade of the next century 
will be outlined. That is to say, the areas for negotiation, 
the areas for a further work program in matters that may not 
yet be ripe for negotiation, institutional reform of the WTO 
itself, and so on.
    We would anticipate a negotiating agenda in the context of 
a new Round that would be very broad and that could address 
many, many outstanding issues we have from the Uruguay Round--
for example, in agriculture--as well as potentially newer 
issues, such as newer forms of needed IPR protection.
    Mr. Rogers. As of now, the one appropriation issue that we 
have in regard to that is a $2 million request by the State 
Department, with no request in your budget. Do you expect most 
of the cost to be picked up by Seattle?
    Ms. Barshefsky. Well, we do expect certainly by far the 
bulk of the course to be funded by Seattle, meaning some 
combination of the Seattle host committee, the State 
legislature, the City of Seattle, the Governor's office and so 
on.
    Mr. Rogers. But you're not expecting any other Federal 
funds to be required, are you?
    Ms. Barshefsky. Well, what we're doing now--the State 
Department does have a request for $2 million in its budget for 
this. We think we may face some additional funding requirements 
in FY '99, and we're working with the administration, with the 
State Department and OMB, to define those requirements and to 
establish a plan for getting the resources that we might need.
    Mr. Rogers. What agency would be asked to pick that up?
    Ms. Barshefsky. Well, this is why we're working with OMB. 
We're not yet entirely sure, and we would want to stay in touch 
with the committee on this.
    If I might, let me just highlight a few costs that we may 
expect this year. For example, we need to reserve rooms for the 
U.S. delegation, so a deposit has to be made.
    Mr. Rogers. We can talk about that at another time. Why 
don't you submit that for the record.
    Ms. Barshefsky. Okay, fine. Thank you very much.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

    As the United States prepares to host the World Trade 
Organization Ministerial to be held in Seattle, Washington from 
November 30-December 3, 1999, USTR will face additional costs 
this fiscal year that are well beyond the limits of its 
appropriation. While most of the expenses will be the 
responsibility of the host city there are costs that are 
relevant to the USG's role in planning and chairing this event. 
We have identified the following FY 1999 costs that will need 
to be funded: (1) logistical preparations in Seattle consisting 
of deposit needed to reserve rooms for the event, the services 
of a professional conference design and logistics contractor, 
and staff logistical preparations including travel to Seattle 
and the WTO in Geneva to negotiate areas like conference 
security, press and finance; (2) international travel necessary 
to participate in worldwide negotiations for framing issues and 
finalizing Ministerial text including ten WTO General Council 
sessions planned between now and July as well as several 
worldwide economic and trade events through September; and (3) 
public awareness and outreach to open a dialogue within 
American communities on the goals and benefits of trade.

                      public accessibility to wto

    Mr. Rogers. Now, the WTO, by its very nature, rouses 
suspicions because you have an international body making 
decisions that directly affect U.S. trade policy. One of the 
issues that affects how the WTO is viewed is how open and 
transparent the proceedings are. I think everyone is in 
agreement that WTO needs to be made more open and accessible, 
and you say so in your statement.
    Exactly what steps is it your position WTO needs to take to 
open up, and under what timetable?
    Ms. Barshefsky. There are a couple of different areas. We 
would like to reach agreement this year, in 1999, on the 
further derestriction of documents. There are too many 
documents that are restricted, in terms of their availability 
to the public, and we believe most could be and should be made 
readily available to the public.
    We would like, even in this year, to get further opening in 
the dispute settlement process. A member of the public can walk 
into any hearing room in the Capitol and sit in the back of the 
room quietly and listen. You can walk into any courtroom in the 
United States, even at the lowest local level, sit in the back 
of the room and listen. This is true mostly around the world--
not entirely, but mostly.
    You can't do that in WTO dispute settlement. It's all on 
the record; there aren't any ``winks and nods''. Well, why 
can't the public then quietly sit in the back of the room and 
observe? That kind of change would be very important.
    We want to ensure the rights of organizations to file 
amicus briefs. That, we think, is also very important and helps 
to lend confidence to the system. So there are a variety of 
changes we would like to see instituted this year. If we don't 
make it this year, we are going to absolutely continue to push, 
because it's critical that these international institutions, 
whether it's the WTO or other such institutions, be open to 
public scrutiny. It's absolutely critical.
    Mr. Rogers. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.

                       caribbean basin initiative

    My question has to do with the Caribbean Basin Initiative, 
which is something that the administration has been pushing for 
in the last Congress.
    One of the concerns that I have is that this initiative 
really has a detrimental effect on low-wage garment workers, 
and textile workers in particular. Since 1994, it is my 
understanding that there has been approximately a loss of one-
quarter million apparel workers, or jobs, in the United States.
    Given the loss of these jobs, and the fact that these jobs 
are primarily jobs that women and minorities have, could you 
help me to understand what the rationale is behind the support 
of this?
    Secondly, have you analyzed the impact of the CBI on the 
domestic garment and textile industry, especially as it impacts 
low-income wage earners.
    Ms. Barshefsky. Well, the administration will be putting 
forward a proposal on CBI to somewhat narrow its scope from 
previous versions of the bill, to take into account the 
concerns that many Members have had, including the concerns you 
have expressed, that the bill could cause additional damage to 
our textile workers.
    The bill envisioned by the administration would require the 
use of U.S. fabric, which would be sent to Caribbean nations, 
formed into garments and sent back to the U.S. Currently, of 
course, the Caribbean can bring in fabric from China or 
anywhere else it might wish, but under the bill, if they wished 
to receive special benefits here, they have to use U.S. fabric. 
We think that will mitigate very substantially any adverse 
impact from the bill.
    It is the way in which generally we have proceeded in 
textiles with Mexico, allowing Mexico to overtake China and 
other nations as a cheap apparel importer to the United States. 
So to the extent we're displacing other foreign sources with at 
a minimum U.S. fabric used in the manufacture of garments that 
are then sold here, we think that we're shifting trade in a 
very positive direction from the point of view of our workers.
    Ms. Roybal-Allard. With this shift in the direction of the 
CBI, are you going to be doing an analysis as to what impact it 
will have with these changes?
    Ms. Barshefsky. Yes. Let me check to see if such an 
analysis has already been done. If not, certainly we can 
request the ITC to do such an analysis.

                              caip program

    Ms. Roybal-Allard. Also with regards to NAFTA and the NAD 
Bank, under the NAD Bank there was a program, the CAIP program, 
which was intended to help American companies and workers that 
were negatively impacted by NAFTA. As a result of NAFTA, I 
believe there were approximately 125,000 jobs lost here in this 
country.
    One of the things that I am hearing is that many of the 
companies and people that have been negatively impacted are 
extremely frustrated because they're not getting the help and 
assistance that was promised them if they were, in fact, going 
to be negatively impacted as a result of NAFTA.
    I would like to know, first of all, just how many direct 
loans actually have come out of the CAIP program.
    Ms. Barshefsky. The numbers that I have are aggregate 
numbers. Let me give you at least some aggregate numbers, but 
then I will have to go back on the specific program you're 
asking about, which I don't have.
    The numbers that I have relate to NAD Bank's principal 
function, which is to fund especially environmental cleanup 
programs at the border. On that, I am pleased to say that NAD 
Bank has finally gotten off the ground. I think we were slow in 
that and we should not have been slow in that, as you have 
pointed out many times.
    I can give you those numbers. I don't have specific numbers 
on the program you cited, but I am pleased to provide those to 
you.
    Ms. Roybal-Allard. Okay. Given the number of jobs that have 
been lost, my understanding is that the number is still very, 
very low.
    Ms. Barshefsky. Let me look into that, if I might provide 
those to you.
    Ms. Roybal-Allard. Also, one of the issues of the CAIP 
funds has been that the regulations in order to qualify for the 
program are very stringent, so a lot of the companies of the 
people that need the help the most aren't able to get it.
    Has there been any thought of looking at these regulations 
to see if they can be adjusted in such a way that it could 
reach more and more of the companies?
    Ms. Barshefsky. I will also need to look at that. I know, 
generally speaking--and I'm now not talking about this 
particular program--but, with respect to our Trade Adjustment 
program, our Dislocated Worker Assistance programs, which the 
Labor Department runs, there has long been a concern on whether 
the workers are aware these programs are available, a concern 
about the amount of time it takes to get benefits under the 
programs, concern about the question whether the training or 
retraining is required or not required, and if so, how does one 
go about getting it. So, with your permission, I would like to 
provide you a review of that whole situation and the 
administration plan in that regard as well.
    Ms. Roybal-Allard. My understanding is that, to date, CAIP 
has only approved one loan, at least in California, in 
Watsonville.
    Ms. Barshefsky. I will look at that.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    Mr. Serrano.
    Mr. Serrano. One quick question.
    Do you anticipate--I know this is somewhat of a strange 
question--but do you anticipate that the administration will 
not approve entry to the Seattle meeting of any delegates from 
any countries we're not friendly with?
    Ms. Barshefsky. Is this a Cuba question? [Laughter.]
    Mr. Serrano. No, it's an Iraq question. Is Iraq a member?
    Ms. Barshefsky. Let me think about that. Is Iraq a member?
    Mr. Serrano. Then it's a Cuba question.
    Ms. Barshefsky. I suspect Iraq is a member of the WTO. That 
would be my guess. That would be my guess. Certainly Cuba is, 
as you know.
    I can't answer your question, but I would be pleased to 
consult with the State Department and others and respond.
    Mr. Serrano. I suspect that there might be congressional 
and other pressures to keep certain countries out. We tried it 
at the UN, we tried it at the Olympics, we try it on a daily 
basis.
    I would hope that the Administration's position is that, if 
it's truly a World Trade Organization and we're the host 
country, then everybody comes and we abide by their rules.
    My second question is, do you think it would jeopardize the 
WTO holding their meeting here, that perhaps other countries 
would boycott? I mean, we have to look at that whole picture.
    Ms. Barshefsky. I think the whole picture needs to be 
looked at. I can't answer the question on whether it would 
jeopardize the meeting, though I suspect some countries may 
protest.
    Mr. Serrano. Thank you, Mr. Chairman.

                         importation of bananas

    Mr. Rogers. Let me ask you about bananas.
    Ms. Barshefsky. Yes, sir.
    Mr. Rogers. ``Yes, we have no bananas.''
    The European Union is refusing to abide by WTO decisions 
regarding imports of bananas. We have imposed a half billion 
dollar tariff on European goods to rectify that.
    Where do we stand?
    Ms. Barshefsky. We are in the process now of arbitrating 
the precise amount of damage with Europe, which is Europe's 
right, and the arbitrators should rule fairly soon.
    In the meantime, however, we have used a number that we 
came up with, which was about $520 million, and we have what is 
called ``suspended liquidation'' on that amount, with the goods 
that we had previously indicated would be affected. That means 
that importers become contingently liable for a 100 percent 
duty on the value of the goods--in other words, a doubling of 
the price of the goods. The importers currently must post bond 
to cover that potential duty liability.
    Once the arbitrators rule, we will utilize the number that 
they establish as the amount of trade damage, and we will, on 
the basis of that number, then, in fact, begin collecting 
duties. By ``we'', I mean the Customs Service, will begin 
collecting the duties, as opposed to simply the bond 
requirement.
    Mr. Rogers. Is this the first major test of the WTO's 
ability to enforce its mandates?
    Ms. Barshefsky. Well, it's the first time, that we know of, 
that a country has absolutely refused to comply. There are 180 
or so cases pending in the WTO, perhaps 160 cases pending in 
the WTO. We don't know of any other situation, and we have not 
been faced by any other country, with the situation where a 
country won't comply.
    Normally, if a country loses, they either comply outright, 
or they negotiate with the winning party a compliance program. 
When we've lost, we have negotiated out a compliance program 
with the winning party.
    Europe, for 20 months, has refused to negotiate with us. We 
have just belatedly begun talks with Europe. They finally 
acceded to our request to negotiate a compliance plan and a 
solution. But the talks are in their infancy and, indeed, the 
Commission itself does not have a negotiating mandate from the 
member states, which it would need to conclude any kind of 
arrangement.
    So we are proceeding under our rights in the WTO to the 
action that we have currently taken.
    Mr. Rogers. How likely is it that it will be mutually 
resolved, do you think?
    Ms. Barshefsky. I think the odds are long at the present 
time, unless Europe steps up to the plate and agrees they will 
comply, which is what they should be doing.
    Mr. Rogers. Is this the first test of WTO's ability to----
    Ms. Barshefsky. I think it is an unfortunate case, but we 
have been successful in about 21 or 22--we've been successful 
in 19 of 22 cases that we have brought. We have never had a 
compliance problem, not in any of them. So I think the system 
generally works very well, and in quite an advantageous manner 
from our point of view.
    But, if Europe decides in its first loss--this is Europe's 
first loss--that it won't comply, if we don't put our foot 
down, the message we would be sending to other countries is, 
``Oh, you don't have to comply, either.'' That's unacceptable.
    Mr. Rogers. Thanks for your testimony. I'm sorry we were 
interrupted briefly there.
    Ms. Barshefsky. No problem.
    Mr. Rogers. Good luck to you. If we can be of help, let us 
know. unfortunately, we're short of money this year. Have you 
heard that before?
    Ms. Barshefsky. I've heard it before, but we only need a 
very tiny bit.
    Thank you very much, Mr. Chairman.
    Mr. Rogers. Thank you.
    The committee is adjourned.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, March 24, 1999.

                          BUREAU OF THE CENSUS

                                WITNESS

KENNETH PREWITT, DIRECTOR, BUREAU OF THE CENSUS

                    Chairman Rogers' Opening Remarks

    Mr. Rogers. The committee will be in order.
    We are pleased to welcome Kenneth Prewitt, the Director of 
the Census Bureau. This is the first time Director Prewitt has 
appeared before this Committee, and we welcome you. We hope it 
is a pleasant experience for you.
    The President's budget was submitted on February 2. It 
included a total of $3.07 billion for the Bureau of Census, of 
which $2.8 billion is requested to conduct the decennial census 
in 2000. However, we have been told that this is not the final 
request for the 2000 Census. From what we read in the 
newspapers, the final fiscal year 2000 request could be as much 
as $1 billion to $2 billion higher. We have been pleading with 
the Administration, for almost 3 years now, to give us the 
actual cost of doing an actual enumeration, and we have yet to 
receive it.
    We are put in a real bind here. The 2000 Census is 1 year 
away, and is one of the biggest expenditures of this 
Subcommittee, and obviously, the Census is terribly important 
to the Nation. Yet, there are so many unanswered questions. We 
have not received the Bureau's final plan for the 2000 Census. 
We are still awaiting revised cost estimates for the plan. And, 
we have been asking for this information for 3 years, and we 
have paid millions of dollars to receive it, and you haven't 
delivered yet. It is my hope that this hearing will help to 
answer some of these questions.
    The 2000 Census is a constitutional duty, a duty that we 
take seriously. The failure to carry out a constitutional duty, 
I have to remind everyone, is very serious business, with 
serious consequences. This Subcommittee and the Congress will 
not tolerate the failure of an Executive Branch official to 
carry out his constitutional duty. So I hope this hearing will 
help us move forward in fulfilling our responsibilities.
    Dr. Prewitt, we will insert your written statement into the 
record. In a moment we will welcome your summary of your 
statement, if you would like. We hope you can keep that within 
5 minutes, but we are not going to bind you to that.
    Before doing that, I will recognize Mr. Serrano.

                 Congressman Serrano's Opening Remarks

    Mr. Serrano. Thank you, Mr. Chairman. I want to join you in 
welcoming Kenneth Prewitt, Director of the Census, here this 
morning.
    The census is an essential ingredient of American 
democracy. The Constitution dictated how House seats would be 
divided among the States for the first Congress and required an 
enumeration of the population within 3 years so seats could be 
apportioned fairly. Additional censuses every 10 years would 
report population growth, while building over time and keep the 
apportionment fair. Census data that tells us how many people 
are in the country, and where, are also used to distribute 
Federal funds totaling nearly $200 billion annually. And, 
information collected in the census is a basis for many 
decisions, both public and private, affecting our national 
economy.
    Until not long ago, censuses could be conducted by sending 
enumerators door-to-door to talk to people. However, in the 
last few decades, vast changes in the Nation, a more diverse 
and mobile population, less trust in government, more working 
women, new forms of households, have increased the challenges 
facing the men and women at the Census Bureau.
    We all agree that a complete, accurate and fair count is 
the goal for the 2000 census, but we obviously disagree on how 
to achieve it. I am hopeful, Mr. Chairman, that this morning's 
hearing will cast more light than heat on the complex issues 
facing the Census Bureau. And, I hope that we can put aside 
dispute and begin to work on the budget that will allow the 
Census Bureau to do its job.
    Most of all and lastly, Mr. Chairman, I hope that this 
morning's hearing continues to remind us that the Census Bureau 
is composed of professional men and women who know what they 
are doing. They do it well. They have been caught up in a court 
decision which has made their lives miserable. However, the 
intention is to give us the best and most accurate count they 
can. And in that sense, they are doing their constitutional 
duty. Thank you, Mr. Chairman.
    Mr. Rogers. You may proceed, Dr. Prewitt.

                    Opening statement of Dr. Prewitt

    Mr. Prewitt. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear before your Committee. I will certainly 
keep these opening comments quite brief. I will just give you a 
broad overview of our plans.
    Mr. Rogers. Could you move the microphone closer to you?
    Mr. Prewitt. Sorry. Certainly.
    I will start, if I may, with nondecennial activities. Other 
than for Census 2000, we are requesting only modest adjustments 
for the programs that provide the base data for the Federal 
statistical community and a broad spectrum of public users. I 
do urge as we enter these deliberations on the requirements for 
those programs that they not be sacrificed to meet Census 2000 
requirements. Any erosion of funding for these products of our 
critical economic and demographic data about and for the 
American people will have devastating effects on their 
availability and accuracy. We cannot afford erosion of these 
programs. However, we certainly have prepared our estimates 
cognizant of the fiscal pressures that the census places on the 
Federal budgetary process.
    The Bureau's request will permit continued collection of 
critical information on diverse topics such as the state of the 
economy, income and poverty, health, crime victimization, 
housing, voters, consumer expenditures, travel, child care and 
so forth. For example, fiscal year 2000 is the last year of the 
1997 Economic Census Cycle. By the end of the year we will have 
issued all but a handful of the 1,200 reports generated by the 
Economic Census. Fiscal year 2000 is also the first year of the 
2002 Economic Census and Census of Governments cycle, and we 
will begin planning for those major efforts.
    More than 100 annual, quarterly and monthly surveys provide 
key national economic statistics on a current basis, including 
services, construction, manufacturing, Federal expenditures, 
and general economic statistics. Thanks to the funding from the 
Congress in prior years, the new North American Industry 
Classification System, referred to as NAICS, is now being 
implemented in the Bureau's surveys and censuses.
    Also, in our fiscal year 2000 request is funding to 
continue the American Community Survey to conduct comparative 
nationwide analyses between American communities surveyed at 
the 31 sites we established during this fiscal year. The ACS 
must take place concurrently with the 2000 Census in order to 
compare and analyze the data and assess whether it will allow 
us to eliminate the long form from the 2010 Decennial Census, 
long a goal of this Committee and one of the intended outcomes 
of the survey.
    The American Community Survey is already a success story. 
It gives current, small area data on demographic, socioeconomic 
and household characteristics of the population. Gathering 
these data on a more frequent basis and forming partnerships 
with other Federal agencies and State and local officials help 
decisionmakers plan and evaluate public policies.
    Just one example: The Census Bureau has been invited to 
participate with the Department of Justice in a crime-mapping 
and data-driven management initiative. The community policing 
perspective requires current, small-area data not only on 
crime, but also on factors which create crime risks and how to 
protect against those risks. For example, the data provides 
small-area estimations on clusters of poor housing, school 
dropouts who are not employed, and people who walk to work, 
which tell local officials about crime risk factors so that 
they can intervene before neighborhoods experience serious 
problems.
    To turn very briefly then to the decennial census. It is 
obviously a very critical year for the Census Bureau in that we 
must carry out the decennial census of population and housing. 
While the estimates for the other Bureau programs will not 
change much from what was transmitted in the President's 
budget, and, as I earlier mentioned, reflect only modest 
adjustments over fiscal year 1999 levels to keep pace with the 
rising cost of operations, the estimate for Census 2000 will 
change significantly because of the recent Supreme Court 
decision.
    The Supreme Court announced in their 5-to-4 decision in 
late January that the Census Act does not authorize the Bureau 
to use statistical sampling methods in Census 2000 to produce 
the population count used for apportioning congressional 
representation. While this ruling was disheartening to those 
who have worked long over the last 7 years in an attempt to 
design, plan and conduct a census that is both more accurate 
and less costly than prior censuses, our charge now is to make 
every effort to be as accurate as possible without statistical 
methods for apportionment purposes.
    Consistent with the Supreme Court ruling, we will also 
conduct an Accuracy and Coverage Evaluation we call ACE to 
measure the undercount and produce more accurate numbers for 
every other purpose. It will be very difficult, particularly 
now that we are a mere 372 days from Census Day 2000, and of 
course the debate over the design continues. Obviously, it was 
necessary to make significant changes in our original plan, 
resulting in changes to the budget estimates as presented to 
you.
    Let me summarize quickly where we are, what you can expect. 
We have prepared and released an operational plan for a census 
without sampling for nonresponse follow-up. This operational 
plan outlines significant modifications in five areas: methods 
to improve public response, methods for conducting nonresponse 
followup without sampling, methods to improve coverage in lieu 
of the use of sampling techniques, enhancing quality assurance, 
and additional training for already planned methods and for 
conducting the Accuracy and Coverage Evaluation to evaluate 
census operations and to produce numbers for nonapportionment 
purposes.
    We prepared a new Master Activity Schedule to which we are 
currently adding more detail for a census without sampling for 
nonresponse followup to incorporate changes in the areas I just 
noted. This schedule is the work plan for the daily activities 
of thousands of permanent and temporary census workers and 
draws on the lessons learned from last year's dress rehearsal. 
We are currently working on revised budget estimates together 
with a detailed explanation and justification of the changes 
which will be required. The Census Bureau expects to complete 
this task during the spring.
    While availability of revised estimates on this schedule 
are obviously not ideal for the appropriations process, it is 
the earliest, I believe, that we can produce those estimates 
with the same care and certainty of those developed over the 
past 7 years. Because the change in methodology required by the 
Supreme Court affects both the timing and the magnitude of the 
operations, we expect to require additional funds for fiscal 
year 1999, and we will also alter our previous estimates for 
fiscal year 2001.
    For a number of reasons that I will explain further, the 
task of actually enumerating every American in Census 2000 will 
be substantially more difficult and costly than the 1990 
decennial census, and the results may not be any more accurate. 
There are many factors that contribute to the difficulty of 
enumerating every American and where they live, as well as the 
cost of conducting the highly integrated, complex mobilization 
of people and technology.
    First, there are more people and more housing units. In 
addition, the American people are more mobile than ever, so 
there is simply more work to be done. Rising labor costs and a 
different employee profile account for a large part of the 
estimated cost increase. Taking the census is extraordinarily 
labor-intensive and under the current plan we need to hire 
several hundred thousand more people than projected under the 
original plan. Many of the types of people used to take 
temporary census jobs are employed elsewhere, resulting in the 
need to recruit, hire and train more people than ever before 
for the part-time census employment that they often take as a 
second job.
    In order to be most productive, Census 2000 will need 
temporary workers with a high skill level, both to operate and 
maintain our office automation technology and to have direct 
face-to-face and telephone contact with respondents. Because 
many of them will go to people's homes, and they must all 
protect the privacy of the respondents, our employees must meet 
very stringent standards and background checks. In order for 
the Census Bureau to successfully compete with private industry 
for these skilled people, even only for temporary employment, 
wages must be competitive and that drives costs up.
    In addition to increased workload and labor costs, we must 
invest heavily in order to increase public awareness and in 
order to improve the response rate, and try to improve our 
enumeration of those who are traditionally hard to count. We 
are still finalizing the cost of the census, which does not 
include sampling for nonresponse followup. Because it was 
necessary to complete the detailed Master Activity schedule 
with the operating plan before calculating final cost, a 
detailed budget estimate for Census 2000 is not yet available.
    That concludes my opening statement, and I am prepared to 
answer your questions, sir.
    [The statement of Mr. Prewitt follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                        Plan For the 2000 Census

    Mr. Rogers. Thank you for your statement.
    Now, let me say at the outset, I know you are new at this 
job, and that you are having to take orders on this from up the 
ladder. And for that, I express some sympathy for you. Having 
said that, let me just say this. I was around here in the 
aftermath of the 1980 Census. I came onto this Subcommittee 15 
years ago, and helped oversee the preparations for the 1990 
census and then the aftermath of the 1990 Census, including the 
court proceeding that determined statistical sampling was not 
appropriate in the 1990 census.
    Then, having become Chairman of this Subcommittee in 1995, 
I began to pressure the Commerce Department to begin to prepare 
to do the 2000 Census in an appropriate way, having realized 
that the 1990 Census was botched because the Commerce 
Department, under another Administration, didn't properly 
prepare for, and didn't properly execute it. We hammered at 
them all the while, gave them all the money they needed, and 
they botched it.
    Now, we see the preparations for this Census, and it is 
going to make the 1990 Census look like a Sunday school picnic. 
In my opinion, based on my experience, this one is being 
botched a thousand degrees more than the 1990 Census 
preparation because today, you can't even tell us how you are 
going to conduct the census in 2000, and here we are one year 
away. We have spent millions of dollars on this. We have had 
them redesign the forms. We have hired firms at our insistence 
to help make the forms you mail out more attractive and easier 
to fill out. We have micromanaged, if you will, to a certain 
degree, hoping that we would get, this time, an actual 
enumeration that was more accurate than before.
    Three years ago, we began to tell the Census Bureau and the 
Commerce Department, look, prepare for an actual enumeration 
just in case the courts rule that that is required. Go ahead 
and do your other things, but as an alternative, be prepared. 
And we gave you the money. Three years ago, we began to require 
in statute that the Census Bureau prepare for an actual 
enumeration. In the final fiscal year 1998 Appropriations Act, 
we required the Bureau to quote, ``plan, test, and become 
prepared to implement a 2000 decennial census without using 
statistical methods,'' end of quote. And we gave you $27 
million to develop the plan, just to develop the plan. And you 
are here to tell us you don't have a plan, is that correct?
    Mr. Prewitt. No, sir. We have a plan.
    Mr. Rogers. What is the plan?
    Mr. Prewitt. Would you like me to respond now?
    Mr. Rogers. Yes.
    Mr. Prewitt. Certainly. Well, the plan is the plan which we 
submitted to Congress in the middle of January, that was before 
the Supreme Court decision, but was the one that we had 
designed to not include sampling. And then we updated that 
several weeks later to try to improve on it, based upon our 
dress rehearsal results which weren't available to us when we 
produced this. And we went from that set of plans to what we 
call our conduct schedule. This is our conduct schedule, which 
identifies every procedure that we intend to carry out in 2000, 
the start date and the finish date of all of those conduct 
procedures which, for us, is a very detailed set of processes.
    Mr. Rogers. But this uses statistical methods, correct?
    Mr. Prewitt. No, sir, not for the----
    Mr. Rogers. Actual enumeration?
    Mr. Prewitt. No, not for the actual enumeration.
    Mr. Rogers. Do you have a plan for the actual enumeration 
without using statistical methods?
    Mr. Prewitt. Yes, sir. This plan is subtitled ``Using 
Traditional Censustaking Methods,'' which was our vocabulary 
for a census which does not use sampling methodologies. This is 
the update of it.
    Mr. Rogers. Well, what I am asking you is, do you have an 
actual enumeration census plan for all purposes, not just for 
reapportionment?
    Mr. Prewitt. Yes, sir. Yes, we do.
    Mr. Rogers. For all purposes?
    Mr. Prewitt. Yes, sir.
    Mr. Rogers. For redistricting, for apportionment of Federal 
dollars and so on?
    Mr. Prewitt. Yes.
    Mr. Rogers. And which plan is it? Which one of those plans 
is it?
    Mr. Prewitt. It is a combination of all. These are all a 
sequence of plans.
    Mr. Rogers. My understanding is that your plan uses 
statistical methods for all but reapportionment. Am I incorrect 
in that?
    Mr. Prewitt. The design of the Census for 2000 is a 12-
month process, from April 1st, 2000 to March 31, 2001; and in 
that process, we have a number of obligations, one of which, as 
you obviously have indicated, is our constitutional obligation 
to produce apportionment numbers no later than December 31st of 
2000. We are on schedule to do that.
    Mr. Rogers. The question is, does your plan use statistical 
sampling for things other than reapportionment?
    Mr. Prewitt. Yes, sir.
    Mr. Rogers. Then you don't have a plan before us, as we 
directed you to do 3 years ago, and gave you money for that 
conducts a 2000 Census that does not use statistical sampling, 
period?
    Mr. Prewitt. I am sorry, Mr. Chairman. Let me try to--we 
have a plan that produces apportionment data on schedule.
    Mr. Rogers. I am not asking apportionment data, I am 
talking about general data.
    Does your plan conduct a census using actual enumeration 
for all purposes as we directed you to do 3 years ago and paid 
for last year?
    Mr. Prewitt. Yes, it does.
    Mr. Rogers. Well, I don't--you just said you are doing it 
only for reapportionment.
    Mr. Prewitt. No. I was trying to say that there is a 
sequence of things. The first step in that sequence is to 
produce information to the 50 States, to the U.S. Congress, for 
allocating seats across the 50 States. We are on schedule to do 
that. Those data then are available to the country, and they 
will be produced, those data without statistical sampling, will 
be produced for the country at the same level of detail as 
additional data--could I put a poster up that would help?
    Mr. Rogers. Sure.
    Mr. Prewitt. I appreciate this will not be easy to read, 
and you don't have to understand the details of it to read it. 
A version of this I think has been shared with your staff, and 
of course can be made available to the committee members.
    The plan that is--I am sorry, sir. Can I go to this?
    Mr. Rogers. Please. I think we can hear you. Sure.
    Mr. Prewitt. This is a set of activities that produces by 
December 31st the counts that do not use any statistical 
sampling methods. Once these data are produced, they can 
subsequently be used for anything the country wants to use them 
for.
    In addition, we are doing what we call our Accuracy and 
Coverage Evaluation, which starts and continues into 2001, 
which we can use and will recommend to be used for purposes 
other than apportionment. But it is simply incorrect to say 
that the nonsampling data cannot be used for other purposes, 
because they clearly can and will be. We believe they will be 
less accurate than the data that are corrected using the 
statistical methods. But the plan is complete.

                           two-number census

    Mr. Rogers. So what you are planning on is a two-number 
census.
    Mr. Prewitt. Sir, we are planning on a census which we 
believe will be progressively more accurate.
    Mr. Rogers. With two different results?
    Mr. Prewitt. If I may, in 1990, the Census Bureau did the 
best job it could and presented to the country, as it should 
have, a number based upon its enumeration strategy. It then 
conducted an evaluation that revealed, rather persuasively, 
that we had missed some people. We then used that evaluation to 
correct for those numbers, and the use of those numbers was 
left to different agencies.
    If I may cite a letter from the Commissioner of the Bureau 
of Labor Statistics, the BLS: Starting in 1992, the BLS 
incorporated the undercount for all of their estimates of the 
working-age population. Had they not done that, their estimates 
would have been over 2 million persons short. Those estimates 
have been used for the last 8 years for all unemployment 
statistics that come out of the Bureau of Labor Statistics. 
Otherwise, the overall level of employment and unemployment 
would have been too low and the geographic and demographic 
distribution of unemployment and other measures shown in our 
data would have been inaccurate.
    May I ask, sir, if this could be put in the record?
    Mr. Rogers. Sure.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Prewitt. The point is that you could call that two 
numbers. The Bureau of Labor Statistics preferred to call it 
the more accurate number. So they took one number, they then 
used a correction factor that gave them a more accurate number. 
So whatever vocabulary we wish to use in this instance, for 8 
years this country has designed its economic policies based 
upon data that were corrected and incorporated into all BLS 
economic statistical series. So every time that Mr. Greenspan 
or anyone else comes before the Congress and explains what is 
going on in the economy, they are basing that judgment and 
their analysis on what I think you would call a second number. 
It is a more accurate number.
    Mr. Rogers. Well, I dispute that. Now, in 1990, as you 
know, the Census Bureau proposed to adjust the number. 
Secretary Mosbacher, then the Secretary of Commerce, rejected 
that, saying it was not accurate. It took almost 3 years after 
the 1990 Census for the Census Bureau to discover that the 
statistically adjusted numbers were wrong. They overestimated 
the undercount by a half a percent. Is that not correct?
    Mr. Prewitt. It is correct, sir, that there was certainly a 
serious error made, that it was found, and we are glad it was 
found. However, the number that then became available to the 
country was still more accurate, by far more accurate than the 
initial count. That is why the Bureau of Labor Statistics has 
driven all of its economic data for the last 8 years from that 
new number, because they think it is more accurate.
    Mr. Rogers. Well, I can't argue that, because the 1990 
actual count was a horrendous count by everyone's account. It 
is because it was not run properly, and some of us knew at the 
time that the Director of the Bureau at that time didn't know 
how to do it, and there was not an accurate count.
    That is the reason since that time, this Subcommittee, 
Republicans and Democrats on this Subcommittee, has been 
pushing to beef up the actual count procedures to give monies 
in preparations for a better mailing list, for more appealing 
census forms, for a better followup, and all of the other 
things that go into making an actual count more accurate. We 
have invested hundreds of millions of dollars in doing just 
that.
    And here, now you are saying, well, we are not going to 
worry about that, we are going to guess. We are going to have a 
virtual count, if you will. And in my congressional district, 
we are going to estimate based on not even a State sample, but 
a regional sample now of several States, we are going to 
extrapolate from that, that in my district there are so many 
people that no one knows about, but we are going to figure they 
are there.
    Well, I am here to tell you that my district doesn't 
reflect that five- or six-State region. It just doesn't reflect 
it. His district doesn't reflect his region. His doesn't 
reflect his region. We are all so different, and you can't run 
us through the same-size-fits-all process. And that is what you 
are attempting to do, which was rejected by the Secretary of 
Commerce 8 years ago.
    Now, the court said that for reapportionment, you must 
provide an actual enumeration. They said if you want to do 
sampling, you can only do it if it is feasible, and some of us 
are saying it is not feasible. It is the feasibility of your 
plan that I think is at question here.
    How does your plan differ from what was attempted to be 
done to the 1990 Census and statistical estimation?
    Mr. Prewitt. Mr. Chairman, if I could start, your question 
started with respect to the master address file, the improved 
forms, the publication and advertising program and so forth. 
The Census Bureau really does appreciate the support of the 
Congress in trying to make the address file a more accurate and 
better tool, and we indeed have spent, as you referenced, well 
over $100 million doing that. We are still doing it. We know 
that the census is two things. It is finding 270 million 
people, but it is attaching them to 120 million addresses. You 
see, the addresses are as important to us as the people, 
because the Constitution obligates us not just to count, but to 
locate and fix where the people are.
    So the Congress' support in helping us improve the master 
address file is an extremely critical part of Census 2000, and 
we have been doing that work, and we have been fixing the form 
as the Congress had hoped. It is more user friendly. We have 
pretested it. All of the things that you identified are part of 
this plan, and I appreciate that we can't spend as long as it 
would take to go through them, but we can go through every one 
of those and show you the state of our planning, if you would 
like. So I would urge that we believe that the Census Bureau 
has been fully responsive to the congressional instructions to 
improve these parts of the procedure.
    We believe that the plan that is available is a superior 
plan, that is, the enumeration plan is a superior plan to the 
plan that was used in 1990. It is good that it is a superior 
plan, because it is going to be harder to count the American 
public in 2000 than it was in 1990. So the things that you 
identified have all been done, and they are embedded in these 
documents and there as part of that schedule, and we can talk 
about them in detail.
    Secondly, you asked about the difficulties of estimating 
population characteristics from one area to the other. I can 
just simply say that if we did not know how to do that, this 
country would not have health statistics, would not have 
education statistics, would not have labor statistics. Every 
statistical activity that the country carries out includes 
aggregating responses across different jurisdictional lines. 
There is simply no other way to do it to give this country good 
data for those purposes.
    So it is not something new to create statistical programs 
that are aggregated across a lot of different jurisdictions. 
That is what we do in the current population survey, which 
drives all of the unemployment numbers.
    Mr. Rogers. Well, it is new. I think you will admit this is 
the first time we will have ever, if you are successful, 
conducted a census using sampling.
    Mr. Prewitt. We started using sampling in 1940.
    Mr. Rogers. Statistical sampling?
    Mr. Prewitt. Statistical sampling.
    Mr. Rogers. Have you ever used statistical sampling for an 
actual enumeration in a decennial census for purposes of 
reapportionment, redistricting, whatever?
    Mr. Prewitt. Well, ``whatever'' includes a lot of things, 
but not reapportioning and not redistricting.
    Mr. Rogers. That is correct. So this is a new thing you are 
trying out.
    Mr. Prewitt. That part of it is new.
    Mr. Rogers. It is new.
    Mr. Prewitt. We are not trying to do it for 
reapportionment, because that is what the court ruled on.

                 status of preparations for 2000 census

    Mr. Rogers. Now, you have shown us a pamphlet here of your 
plan. I am told that that is only a sketch, that we do not yet 
have the Master Activity Schedule completed, the complete 
Master Activity Schedule; is that correct?
    Mr. Prewitt. This document is what is called a conduct. 
This is the most critical document in the planning of a census. 
It identifies every----
    Mr. Rogers. That is a summary. We are looking for the 
details.
    Mr. Prewitt. Sir, I don't have the details today.
    Mr. Rogers. Do they exist?
    Mr. Prewitt. Well, in large measure.
    Mr. Rogers. The question is, do you have a complete Master 
Activity Schedule? Not a summary, not a scheme, not a plan, not 
an idea, not a concept. Do you have an actual Master Activity 
Schedule that we can look at?
    Mr. Prewitt. No, sir.
    Mr. Rogers. Why not?
    Mr. Prewitt. It is not complete.
    Mr. Rogers. Not complete. We have paid for it. We have 
directed you 3 years to develop it. We paid you $27 million 
last year to do it in 1998.
    Mr. Prewitt. I do not have the legislation in my head and I 
apologize for that, but I believe that what the Congress 
expected us to do, and I believe what we have done, is have a 
plan that puts us on schedule to conduct the census on April 
1st, 2000. We are on that schedule. That matters. The 
particular date on which a master activity schedule is finished 
strikes me as not what is the core. What is core is can we do 
this census on schedule according to the instructions of the 
U.S. Congress? We are on that schedule.
    Mr. Rogers. Well, tell me the cost.
    Mr. Prewitt. As I just said in my opening comments, I don't 
have that cost today.
    Mr. Rogers. Why not?
    Mr. Prewitt. It is not complete.
    Mr. Rogers. When are you going to tell us? Here we are on 
the eve of writing an appropriations bill for this 
Subcommittee, which funds the Supreme Court, all the Federal 
courts, the U.S. Marshals, the security of courthouses, the 
operations of the State Department in 184 locations around the 
world, antiterrorist activities, the operations of the FBI, the 
DEA and the drug war, the Foreign Commercial Service in the 
Department of Commerce, the National Weather Service, and on 
and on and on. All of those operations of the government are 
waiting. We can't do anything to fund those agencies after June 
15th because the Census Bureau will not tell us how much money 
they have to have to do what we have directed them for 10 years 
to do and the Constitution mandates.
    Here we are sitting and waiting, and I have pleaded with 
everybody from the President down--give us the dollar figure. 
Give us the plan so we can judge whether it is feasible and try 
to find the money for it. Does it bother you that the Supreme 
Court is sitting over there waiting for their pay and the 
lights will go out on June the 15th in the Supreme Court? Does 
that bother you that these things are hanging in the balance?
    Mr. Prewitt. Mr. Chairman, it bothers me a lot.
    Mr. Rogers. Does the fact that the Congress directed you in 
the 1998 Appropriations-Act to develop the plan and the cost 
and get it to us forthwith? Does that bother you that you 
haven't done that?
    Mr. Prewitt. Well, if I could go to the first question 
first, is that all right, and then I will come to the second 
question.
    Mr. Rogers. Sure.
    Mr. Prewitt. With respect to the bind that we have put this 
Committee in, of course it bothers me, and I wish it weren't 
the case. I wish it weren't the case for us, not just for the 
burdens that it places on this Committee. What I am worried 
about is presenting to you a number which is not rock solid.
    That is, I think I put you in a different bind if we come 
before you today and say we haven't finished all of our 
detailed work to give you the very, most secure estimate that 
we can, so that when we do give you that estimate, it is not 
going to go up or down; it is ``it,'' minus natural disasters 
and so forth.
    It just seems to me a responsible thing for an agency head 
not to produce a number for the U.S. Congress which is not as 
firm and tight and solid as it can be. So I appreciate that we 
have put you in a bind and made your task difficult.
    I would say that the Census Bureau's task has not been 
easy. We started with an instruction from President Bush to 
design a census which would be more accurate and less costly 
than 1990. We tried to implement that instruction over a 5- to 
6-year period. We then hit a period, as you say, in 1998 when 
we got another instruction. We tried to accommodate that 
instruction. Then, in early this year, we got a partial 
resolution of some serious uncertainties. We have tried to 
accommodate that.
    The good news, which I appreciate doesn't make your task 
easier, but in the long run the good news is that the Census 
Bureau is on a schedule to give you a quality piece of work on 
April 1, 2000.
    Mr. Rogers. Do you know why we are where we are today? We 
are in this bind--we are in this bind because the Bureau did 
not develop a real plan for actual enumeration for all 
purposes, as they were directed and paid to do, because you 
kept hoping the court would rule in your favor on sampling. And 
you didn't even start developing the Master Activity Schedule 
until the week after the Supreme Court ruled that you could not 
do it. That is why we are here. And you don't have the Master 
Activity Schedule that we can look at with you and determine if 
it is a feasible plan, if it is worth paying for. We are 
spending our taxpayers' dollars to get a service and our job is 
to see that we are getting the proper service. And you can't 
tell us what it is going to cost. We are here because the 
Bureau simply refused, after repeated pleadings and threats and 
everything else for several years, to develop a plan for actual 
enumeration for all purposes. And from the very beginning, when 
you were first talking about doing both an actual count and 
statistical adjustment on time, it was questionable even then. 
Even a year ago, your own Census Bureau managers admitted that 
it was the single biggest risk in the 2000 Census is to try to 
do both on time. And that was when you only planned to count 90 
percent of the people. Now that you are talking about that law, 
you have to count 100 percent in the actual enumeration phase, 
and that is exactly what the court has told you to do.
    I am again absolutely frustrated. You don't have, you can't 
deliver to us a Master Activity Schedule, and you can't tell us 
what it is going to cost; and here we are trying to write a 
spending bill. Do you people understand how the government 
operates, that we have to find the money and pay for it, but we 
can't do it until you tell us what it is going to cost?
    You are the Executive Branch, we are the people that try to 
find the money. This is the Appropriations Committee. We try to 
fund the agencies that are under our jurisdiction, and this is 
the only one, the only agency out of hundreds that we deal 
with, that just simply refuses to present a plan or to ask for 
money or tell us what kind of money they are going to need. I 
am absolutely puzzled. Maybe there is something going on that I 
am not catching. Can you help me with that?
    Mr. Prewitt. Chairman Rogers, I arrived about 5 months ago.
    Mr. Rogers. You are I think the third one in the last--how 
long? In 4 years, I think you are the third census director in 
this Administration. They burn them out pretty quick.
    Mr. Prewitt. I arrived 5 months ago, and was presented with 
the following situation: that the Census Bureau was expected, 
by congressional instruction, to have in place the capacity to 
mount either of two different designs. What I said publicly, 
not before this Committee--this is the first hearing--but what 
I said publicly was that it was my best judgment that there was 
going to come a point where you could not sustain two-track 
planning. By definition, there is a point where you can't do 
two-track planning. And when we hit that point--I said this in 
my confirmation hearing to Senator Thompson and his committee--
when you hit that point, you can no longer sustain it.
    In the meantime, we were continuing to go on both tracks. 
This is the result of one of those tracks, and it is a plan, 
and it is a plan that we can implement on April 1st, 2000.
    The Supreme Court ruled before we hit that wall beyond 
which we could not stay on two tracks, but I can tell you that 
if that decision had been delayed, I would have been back 
before the U.S. Congress saying, the Census Bureau cannot be 
there anymore if you want a census in 2000. We actually are 
able to give you that census. We are able to give you a census 
with all of those things which you hoped that we would include: 
the better coverage improvement, the better outreach, the 
better address file, the better enumeration strategies. All of 
those things we are able to give you in that census.
    And if this entire conversation is about the level of 
detail which I can specify today, then I just have to suggest 
that is not what my mind is on. My mind is on can we give you 
that census according to our constitutional obligation.
    Now, I have said, and I will repeat, that I know that we 
put you in an awful bind not to have the budget numbers today. 
I do not think we put you in an awful bind not to have a Master 
Activity Schedule, but I do think we put you in an awful bind 
not to have budget numbers. I wish we had them. I wish we were 
complete.
    The good news is we are going to complete that on a 
schedule which allows us to give this country a serious, 
quality piece of work.

                          cost of 2000 census

    Mr. Rogers. Well, when will we know what it is going to 
cost?
    Mr. Prewitt. As soon as we can present it to you.
    Mr. Rogers. Well, why don't you have it? Why don't you have 
the cost estimates? You know what you are going to do. You know 
the manpower it is going to require. You are not finished with 
a Master Activity Schedule, but you can give a fairly accurate 
estimate. Why can't we have a figure?
    Mr. Prewitt. Because we want that figure to be as solid as 
we can make it.
    Mr. Rogers. Well, who is doing that? Who is putting 
together the cost figure?
    Mr. Prewitt. If I could take just a minute or two to 
describe how we do that. We have within the Census Bureau 
something in this process that we call the lock-up room.
    Mr. Rogers. The what?
    Mr. Prewitt. The lock-up room. It is a windowless room in 
the basement of a temporary building that was assembled for a 
VA hospital in the 1940s, out in Suitland. This windowless room 
has about 50 people in it. Those 50 people come from every part 
of the Census Bureau. There is somebody there from 
administration, there is someone there from the field division, 
there is someone there from contracts, there is someone there 
from all of the parts of the Census Bureau that have to go into 
a decennial.
    What is happening in that room is that there is a big 
screen, and on that screen is this type of document, with its 
level of detail. And some line of activity gets put up on that 
screen with computer technology, and the line of activity says 
that we have to do something, some procedure; let us say, move 
175 million forms in 5 days. And someone says, I know how we 
can save a half of a day. Good. How can we save that half of a 
day? We can save that half of a day if instead of having 15,000 
laptop computers, we have 20,000.
    Mr. Rogers. Look, I don't want to cut you short. I am glad 
you have a--what is the room called?
    Mr. Prewitt. A lock-up room, sir.
    Mr. Rogers. I am glad you have that. All I want is the 
figure. I don't care how you come up with it, so long as it is 
accurate. I don't even want to hear about that. I want the 
figure. We are ready to add the totals of what it is going to 
cost to run the Supreme Court and the Federal courts, the 
Commerce Department, the Justice Department and so on, the 
Attorney General's staff, all of these things. We have their 
totals. We know what they are asking. The only blank space we 
have on the page is what is it going to cost to do the Census. 
I have been begging for this for 3 years, to three different 
directors we have said, please tell us your plan and the cost. 
And the time is up. The time is up. Give us your number. Tell 
me your number. I want your number. What is it going to cost? 
The people demand it. I want to know it. What is it going to 
cost?
    Mr. Prewitt. Chairman Rogers, one of the things that you 
also requested, I believe, that is, the Congress requested, 
were some dress rehearsals.
    Mr. Rogers. What is the cost?
    Mr. Prewitt. The dress rehearsal----
    Mr. Rogers. Please tell me the cost.
    Mr. Prewitt. As the dress rehearsals explain, it is 
incorporated in our estimates.
    Mr. Rogers. Tell me your cost.
    Mr. Prewitt. Chairman Rogers----
    Mr. Rogers. You are welcome here. But I will not tolerate a 
refusal of a demand from the Congress to tell us what it is 
going to cost to conduct our census, now.
    Mr. Prewitt. Chairman Rogers, you said that you wanted an 
accurate number.
    Mr. Rogers. I want a number. I want an accurate number. You 
have been on the job 5 months, we have demanded this for 3 
years, we paid for it a year ago. What is the cost?
    Mr. Prewitt. Chairman Rogers, the accurate number is not 
ready.
    Mr. Rogers. I am absolutely flabbergasted. I have never 
seen incompetence in government equivalent to this. I am using 
incompetence as a nice term. The reason we are where we are is 
because we don't trust the Administration. That is sad. That is 
a sad commentary. It is shameful, because we have been misled 
too many times in other arenas, and then they came up with this 
idea--you didn't come up with it, it was in place before you 
got there--of using the sampling methods.
    There are some wonderful people in the Census Bureau. I am 
not impugning the integrity of anyone, I don't intend to. I do 
not trust the operatives in the White House, and the way they 
are manipulating you is shameful. It is sad. I am embarrassed. 
It puts you, a professional person, in a spot that two of your 
predecessors have chosen to get up and leave, and I don't blame 
them. I am absolutely chagrined. I know how you feel. I 
sympathize with you, as I said at the outset. And I know you 
can't answer, because you are being told not to answer.
    The Secretary of Commerce is in the same boat. He said, 
basically, he couldn't answer because it wasn't his decision. 
It is being made farther up the ladder, in the White House. So 
if the Secretary of Commerce can't answer these questions, 
certainly I understand that you can't. But it is a sad, sad 
commentary on our Nation.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Chairman and my colleagues, I have been on this 
committee barely 2 months. I think. And, in that time, I had 
the good fortune of joining the committee for the first time, 
the subcommittee, and coming in as its Ranking Member. And, 
amongst the things I want to establish here, which I keep 
repeating at every hearing and repeat them privately to the 
Chairman, is to continue establishing the relationship I have 
established with the Chairman, one of respect and admiration 
for the fact that he has been here 15 years on this 
Subcommittee. The Chairman, however, is fair enough to know 
that there will be a couple of issues we disagree on, and at 
the top of that issue will be this one.
    I understand, Mr. Chairman, your role. Your role as an 
appropriator and Chairman of the Subcommittee is to make sure 
that we have the numbers and get the bill out. What I think 
that you did not tell us this morning is that this stopped 
being an appropriations issue a long time ago. The census issue 
became a political issue during the last census.

                            undercount issue

    You and I didn't do it; it was done by the former 
leadership of the Majority party in this House, the current 
Majority party. When the Census Bureau came back in 1990 and 
told us, whoops, we made a mistake. We did not count some 
people and we want to make adjustments to make sure that those 
people are counted, the issue did not become the undercount. 
The issue became the political question of who was undercounted 
and what that would implicate for political purposes and other 
purposes in this country. We can say whatever we want to these 
days, but that is a fact.
    The fact is that if certain people in this country had not 
been counted, this would not have become an issue. You are 
hearing that from the district that was most undercounted in 
the Nation. At this very moment there is a press conference 
going on, being held by Delegate Norton, where she is bringing 
people who look very much like the people who were not counted 
in the last census, and her slogan for this morning is, ``Once 
you see the faces of those who were not counted, you will 
understand why it is not important for some people to count 
them.''
    So I believe that it wasn't important to some leaders who 
are no longer around, thank God, to count those people. And 
there began this bashing of the Census Bureau in an attempt not 
to get those people counted.

                 EXPIRATION OF THE APPROPRIATIONS BILL

    Now, we have deadlines. And we have problems. We are the 
only subcommittee with a bill that expires June 15th. The 
Chairman didn't do that, I didn't do that. The fact of life is, 
you want to blame some Democrats. You can blame the White House 
for that one. They made an agreement with the Republicans in 
the House to give us a deadline of June 15th.
    Now we have two problems. We have to put together a bill, 
ongoing bill, and we have to deal with June 15th. Why? Because 
all of a sudden, the census has become the most political of 
items that we deal with. The thought that in counting some 
people, you may get an additional congressional seat somewhere 
represented by someone who may look like me or someone else in 
my district, has created havoc in some of the constituencies 
that influence this Congress.

                            CENSUS PROBLEMS

    So, we have to be honest in saying why we are here today. 
We are not here just because of the numbers. That is the 
Chairman's problem and my problem, the numbers. We are here 
because of the larger issue. The fact that the census wants--
some people want to cripple the count so that the count is not 
what it should be. Well, some of us are going to continue to 
yell and scream about the fact that the count should be right. 
The court spoke. It didn't say what I wanted it to say, but it 
said something of what I wanted it to say. Did it create a 
problem? Maybe that is what the court did. The courts said, we 
can use both methods. So, you present to us a plan with both 
methods. I think that is fine to me. I don't have a problem 
with that as long as it gets to the count.
    Now, we allocate dollars every year. We appropriate dollars 
every year, but the fact of life is that one of the few 
programs, if perhaps the only one that comes before us that is 
really talking about a 10-year process rather than just a year-
to-year process is the census. The census is not a 1-year 
program. And, even though we may fund parts of it every year, 
we are looking at a 10-year program. So for me to tell you that 
I need the number today, well, that is okay, but I would rather 
the number you give me is the last number you give me. I don't 
want you to give me a number today and then come a month from 
now and tell me you need another number. That doesn't solve my 
problem. I would rather wait to get the correct number.
    Now, we are told, and I think the Chairman used the word, 
that the sampling is not feasible. I think sampling is feasible 
for any count, be it the apportionment count for the regular, 
ongoing count. And, I don't have a problem with sampling. But, 
sampling became the political issue.
    Now, this is the part that really gets me, though. On one 
hand, you have folks saying I need to get this done now, and I 
join that chorus. We need to get it done now. But on the other 
hand, there is another subcommittee that has come forth with 
bills, some of which I am crazy about. In fact, there is a bill 
here that says the printing of 2000 Census questionnaires in at 
least 34 languages and braille. That sounds like something I 
would have written up. I love it. Thirty-four languages. But, I 
know what it is going to do to the count and maybe it wasn't 
put forth to make me happy. Maybe it was put forth to create a 
problem. I don't know.
    But, the fact of life is that while this subcommittee is 
saying get it done now, there is another committee saying send 
a second mailing out, do something about the local review. 
Print census forms in 34 languages and braille. You are not 
ready to do that yet, yet we want you, by tomorrow morning, to 
be ready to have this done.
    You are a professional, so I am not going to tell you, Mr. 
Prewitt, that I feel sorry for you. Right?
    Mr. Prewitt. Right.
    Mr. Rogers. When are you going to ask a question?

                         LEGISLATIVE PROPOSALS

    Mr. Serrano. I am going to take whatever time you give me, 
Mr. Chairman. And, if you give me half of the time you took, I 
will be able to ask him a question. But, that is up to you, in 
the Hershey spirit.
    My question to you, sir, to make the Chairman happy, is 
even though you are a professional and I feel sorry for you. I 
realize that you are in a situation that no one should ever be 
put in. You can't answer some of these questions because, there 
is no answer. There are no answers for some of those questions 
right now.
    But, let me ask you this one. Some of these bills that are 
floating around from another subcommittee, what problems, if 
any, do they present to you in putting forth what you have to 
do in doing the job you have to do?
    Mr. Prewitt. Mr. Serrano, some of those bills, would they 
become law, present such serious, serious operational 
consequences for the Census 2000 plan, this plan, in ways I 
could describe in detail, that I have recommended to the 
Secretary of Commerce that he in turn recommend to the 
President that these are so serious in terms of what they could 
do to the census at this stage that the President should 
consider vetoing. I cannot make a stronger statement than that.
    Mr. Serrano. And, Secretary of Commerce Daley has also 
suggested that they be vetoed?
    Mr. Prewitt. I believe that he wrote that letter to the 
Congress itself; yes, sir.

                      CENSUS UNDERCOUNT/OVERCOUNT

    Mr. Serrano. Now, what was the undercount the last time in 
numbers?
    Mr. Prewitt. Well, the undercount, we missed approximately 
8 million people, but we double-counted about 4 million people, 
so the net undercount is about 4 million.
    Mr. Serrano. Now, we know about the undercount. How did the 
double-count take place? The Members of Congress count in D.C. 
and in their home district?
    Mr. Prewitt. In principle, that is the sort of thing that 
does lead to a double-count. We do have a very special 
procedure for the Members of Congress to try to make sure that 
that does not happen, but there are people, of course, with two 
residences, and they perhaps forget that their spouse filled 
out a form, or they do not ask and the spouse filled it out in 
one residence, and then they are in the weekend home and 
another form comes in, and they send it in a second time; or 
they may have children in college, and they feel like the kid 
is home all the time, and so they say well, he seems to be here 
all the time, I guess I better put him down. In the meantime, 
the child has been counted in his college dormitory.
    So there are a number of issues which create the double-
counting. They are disproportionately in those population 
groups which have multiple homes, which have children away at 
colleges and so forth. So we end up with what we call the 
double-count, the overcount.

                  ELIMINATION OF THE LONG FORM BY 2010

    Mr. Serrano. Now, looking ahead, Mr. Prewitt, I understand 
that your Bureau is in the process of trying to eliminate a 
long form by. When is it, 2010?
    Mr. Prewitt. That is correct.
    Mr. Serrano. So it will be for the next census. There is no 
problem with bringing that up now. By the way, this is in the 
form of a question, Mr. Chairman, so that no one gets upset on 
my right.
    How are we doing with that? Will that take place?

                       AMERICAN COMMUNITY SURVEY

    Mr. Prewitt. You are making reference here, I believe, to 
the American Community Survey, which is responsive I believe to 
preferences that this committee itself introduced some years 
ago about the long form as a possible confounding effect in the 
core census. So we have designed something that we call the 
American Community Survey. We have begun to do it. The research 
phase was in 1998 and 1999. That is very much on schedule. We 
are very pleased with the early results, and in our 2000 budget 
when we do present it, it will incorporate procedures that 
allow us to compare the results from the American Community 
Survey design, which is the same data as are currently in the 
long form, with the long form as it will be collected in Census 
2000. It is very important to us to be able to calibrate 
collecting those information one way versus the other way.
    If, as we fully expect, we will be successful in that 
calibration, we will learn what we need to learn about the 
long-form data which are all the demographic data, the poverty 
data, the language data, the employment data, the time-to-work 
data, the travel data and so forth, all of those data which are 
used in the Federal formula spending, then we will be back 
before this committee or the U.S. Congress with a 
recommendation that we feel the American Community Survey, 
starting in 2003, post all of our testing period, and it is, we 
believe, the most innovative thing that is going on right now 
in the American statistical system; that the long form will, by 
the year 2010, have been replaced--the survey data will have 
replaced the need to collect the long form. This means that in 
2010, the only constitutional obligation that we will be 
dealing with is the obligation to count, and we hope we can get 
to either a postcard count or we make more use of 
administrative records. We will have a very simple counting 
procedure, because we are not trying to collect all the other 
data that we are now collecting on the long form.
    The American Community Survey is on schedule, it is 
performing the way we had hoped it would perform, and we look 
forward to reporting on it in detail to this committee and 
other committees.
    Mr. Serrano. Mr. Chairman, before I give up my time, let me 
just say, Mr. Prewitt, I want you to give us numbers. I want 
you to give us numbers once and not have to come back again. I 
want you to give us the numbers when you are ready to do the 
job that we want you to do and which the Constitution mandates 
all of us to do. I want you, sir, to understand that on this 
side of the aisle, we understand well that your department is 
caught up in the most difficult political fight. And, we will 
try to alleviate you of that political fight. But, we can't 
guarantee that, because this is a political fight at this time 
and it will go on for a while. In the meantime, we will try to 
do whatever we can on this side to make sure that you get a 
chance to do the job that you are supposed to do. We know you 
have the professional people to do that job and that you will 
do it right.
    Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    We are privileged on the subcommittee to have been joined 
this term by a person who has a degree in statistics, who 
happens to be the Chairman of the Census Committee, authorizing 
committee, review committee, Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    Dr. Prewitt, good morning.
    Just an initial comment to Mr. Serrano. I want to be sure 
we emphasize that we all share the common goal that we have 
everyone counted, and everyone counts. This subcommittee, prior 
to my joining the subcommittee, has given approximately $200 
million more than even requested by the President to conduct 
the decennial census. So this subcommittee has provided the 
resources and support to do everything we can to minimize and 
eliminate--the goal should be to eliminate the differential 
undercount.

                       POLITICS AND CENSUS POLICY

    But let me continue a little bit along the line of 
questioning from Chairman Rogers and Mr. Serrano about 
politics. Because sadly, politics is driving policy decisions 
at the Bureau, and it is seriously affecting the credibility of 
the Bureau, and that is a very sad legacy that this 
administration is going to leave, because there is a proud 
history to the Census Bureau, and how politics now is driving 
in many cases bad policy decisions and the credibility of the 
Bureau is being affected because they are having to defend some 
of these policy decisions.
    Now, making that statement, I am going to go through six 
different issues that I think illustrate the politics driving 
policy. Chairman Rogers talked about one, and that is not being 
fully prepared, despite the law of the land back in the 
appropriation bill for 1998 and money given to be prepared for 
a full enumeration census. The law required it, but politics 
apparently said we are not going to get ready. If you were 
ready, we would have had all of these details by now. So the 
lack of preparation is directly related to not following the 
law that President Clinton signed, the appropriation bill for 
Commerce-Justice back in November of 1997. So it affects the 
credibility of the Bureau for not following the law. This is 
all politics.
    The next issue I want to mention is poor legal advice you 
are receiving. For 6 years the Bureau has followed a plan that 
was illegal. We have been saying it has been illegal all along. 
Obviously you don't have good legal advice, and you are still 
following this poor legal advice, in my opinion. So we spent $1 
billion getting ready for something that is illegal. We both 
attended the Supreme Court hearing on November 30th. It was 
very interesting, and my first time to visit the Supreme Court. 
The strongest argument the administration could make was a 
standing issue and the standing issue was asking the Supreme 
Court to put off a decision until later. They did not argue 
much on the merits of the case--but they were really going into 
the standing issue--as if they were afraid to debate the issue.
    Now we are proceeding along a two-number census, which, for 
purposes of redistricting is illegal. I am telling you right 
now that it is illegal and you are going to lose again in 
court, so I hope you get some better legal advice to follow 
that up.
    On to the third item, and that is a two-number census. The 
Bureau has argued for years against a two-number census. You 
have used the words controversy and confusion to describe a 
two-number census. I can't imagine any public policy expert 
that says a two-number census is good for the date of April 1, 
2000 and yet, after the January 25th ruling, the Census Bureau 
now says, well, a two-number system is okay. That is bad public 
policy, and I think most people would agree with that. But 
politics is driving the decision.
    Now, let me go to the next one, the fourth issue, and that 
is the size of the sample and the way you are going to do this; 
you are calling it an ACE now. In 1990 it was a failure. It 
took a few years until they claimed they got some numbers. But 
they wanted to correct the problems in 1990 so they increased 
the sample to 750,000 and were only going to use households 
within a State. This was going to avoid this problem of 
contaminating numbers by using cross-State information that you 
talked a little bit about earlier. They made this strong 
argument that a 750,000 sample size, with housing units only 
within a State, is going to solve all of our problems. Well, 
come January 25th you are saying well, that is not exactly what 
you meant. Now maybe 300,000 will do it, and yeah, my district 
in Bradenton, Florida may be impacted by what happens in 
Georgia or North Carolina or South Carolina, we don't know 
exactly; but, you are going to regionalize the information, and 
once we get the details of the plan we will find out what 
States are being pooled together.
    But you have had to in effect flip-flop, again because of 
politics, and that is affecting credibility. You argue for the 
750,000 sample size using housing units within a State and then 
you flip-flop and say, well, we can do it with a sample of 
300,000.
    Then we go to the fifth issue. And that is, you have been 
saying that it is too late to make any changes. Everything is 
cast in stone. Well, last year when we were discussing the 
plan, they said well, we have to wait for the dress rehearsals. 
Those reports just came out last month. You said we have to 
wait for the Supreme Court; that came out January 25th. You 
have to wait for the Census Advisory Committee, which is an 
advisory committee appointed by the Secretary of Commerce; that 
came out January 22nd. The Monitoring Board, we want to get 
their records; they were released February 1. The Bureau wanted 
to get these reports, and now the statement is, well, it is too 
late, because it has all been cast in stone. The advisory board 
appointed by Secretary Daley recommended a post-census local 
review and they have been told it is too late.
    You wonder if this was just a sham. Why are we having a 
census advisory board? It seems like it might even be apologies 
due to the Census Advisory Committee, because it is too late to 
do anything since it is all cast in stone. Yet, as Chairman 
Rogers said, we don't have the numbers, we don't have the 
details, but it is all cast in stone.
    Let me come to the last of my points about this credibility 
problem and how politics is driving the issue. And that is, 
when you appeared before the Subcommittee on the Census back on 
March 1, I asked a specific question, and I need to get it 
clarified. The question was: Would the post-census local review 
be hurt by ACE, and I have a quote here, but basically you 
said, No, it won't be, it is not related, that ACE will not be 
impacted by a post-census local review.
    We did the post-census local review in 1990, and now I am 
hearing from Members on the Democratic side that post-census 
local review will hurt the sampling plan; but yet, in my 
committee you testified under oath that it doesn't affect it. 
So I am getting confused if the post-census local review does 
affect the ACE or not.
    Let me ask you the question first. Clarify whether ACE 
impacts post-census local review, because the Democrats are 
saying it is going to destroy sampling, and you said, no, it 
won't destroy sampling, it doesn't affect ACE. So what is the 
correct answer?

        accuracy and coverage evaluation (ace) and local review

    Mr. Prewitt. Mr. Miller, I think as I recall the question 
the way you framed it to me in early March was: What is the 
relationship between the accuracy coverage evaluation survey 
and post-census local review? And I believe my answer was that 
the accuracy coverage evaluation allows us to correct both the 
count and the address list, and since post-census local review 
is primarily about the address list, there is a relationship 
between the ACE and the post-census local review with respect 
to finding out how well we did with respect to the household 
address list. I believe that is what my answer was.
    I think you are framing that question somewhat differently 
now and I will be happy to answer--
    Mr. Miller. Let me just read the transcript here: ``Let me 
have one final question and go back to post-census local 
review. What is the relationship to post-census local review 
and the ACE issue? Is there any connection between the two of 
these, the 300,000 sample? Does it impact the--because I have 
heard that, you know, one of the reasons you are opposing it is 
that it will make it harder to do the sampling adjustment. Is 
that true, or----Mr. Prewitt: No, sir, I do not know on what 
basis that would have been suggested to you.''
    Then I come back and say, ``So the post-census local review 
has no impact, to your knowledge, on the 300,000 sampling 
process, right?'' And you say ``no.''
    Mr. Prewitt. I don't know if you have the rest of the 
transcript. I said, Unless what you have in mind is the way in 
which the accuracy coverage evaluation will help us. Do you 
have all of the transcript?
    Mr. Miller. ``Because of the time factor, it is important 
to know that the accuracy and coverage evaluation is an 
accuracy and coverage evaluation of addresses and people, 
right?'' I don't know where the rest of the page is here.
    Mr. Prewitt. I go on to try to explain the interaction.
    Mr. Miller. So, yes or no? I tried to get the answer last 
time. Will post-census local review affect the sampling, yes or 
no? Does it affect the ability to do ACE?
    Mr. Prewitt. It depends on how we implement post-census 
local review.
    Mr. Miller. You can't implement it without it affecting 
ACE? There is a lot of flexibility to implement it, isn't 
there?
    Mr. Prewitt. You have now introduced a bill which has the 
following features.
    Mr. Miller. Well, let me just say, could you design a post-
census local review that would meet the basic goals of 1990, 
that would allow local communities to have some input into the 
final say that would not affect ACE? I guess that is what you 
are saying, is that correct?
    Mr. Prewitt. No, sir.
    Mr. Miller. Well, see, you can't----
    Mr. Prewitt. I didn't say I couldn't do it. We changed the 
question a few times, so let me do the best I can in trying to 
answer your question.
    The bill that has been introduced by the committee has the 
Census Bureau returning to some--we don't know yet how many 
jurisdictions, with maps and housing counts on each block, 
August 1, giving those jurisdictions 45 days to report back to 
us. That takes us to October 1-October 4.
    Mr. Miller. If the number of days were changed, would it 
make any difference?
    Mr. Prewitt. That is the point. I am trying to find out.
    Mr. Miller. I know my time has run out. I am confused 
whether we can do a post-census local review. I got the 
impression you said you could design one. It may not have the 
45 days, and we have flexibility on it.
    Other members are here, and not I do not want to use up all 
the time, but my problem is there is a credibility problem with 
the Bureau, and politics is driving the decision, as the 
Chairman said. You are the director, and the people higher up 
at the White House are apparently telling you what to do, and 
that is very sad, very unfortunate, and we still need to work 
and get the best census we can.
    I would like to get more clarification about--about a post-
census local review that would be done without affecting ACE.
    Mr. Prewitt. Chairman Rogers, may I then offer to respond 
to Mr. Miller in writing with a more precise answer to that 
question? Because we have to frame the question just right to 
give the right answer. We would be happy to do that.
    Mr. Miller. I will write some questions that we can get a 
response to.
    Mr. Rogers. You are going to submit questions in writing?
    Mr. Miller. I will submit questions.
    Mr. Rogers. We will get the response in writing. Do we have 
a timeline we want to talk about here? You want a date?
    Mr. Miller. Right. You'll get back fairly quickly.
    Mr. Prewitt. I think so.
    Mr. Rogers. Fairly quickly?
    Mr. Prewitt. A week or so. About a year or so.
    Mr. Rogers. Fairly quickly is 10 years.
    Mr. Dixon.
    Mr. Dixon. Mr. Chairman, having just arrived and not being 
engaged in the debate or the dialogue, I don't have any 
questions but I would be glad to yield to Dr. Prewitt for 
anything he would like to say, if you didn't have enough time 
to respond to anything that was said.
    Mr. Prewitt. Thank you, Mr. Congressman. Actually, if I may 
respond to a few of the statements that Mr. Miller made.
    Mr. Dixon. Sure, be glad to.

                          final census design

    Mr. Prewitt. I think Mr. Miller would appreciate that there 
is, by definition, a date at which you can no longer change a 
census and still field it. There must be a date at which you 
can't change major procedures, that you can no longer field 
something which has been described correctly as the largest 
peacetime mobilization in history, which has to produce 1.5 
million maps, which has to recruit and train more persons than 
are in the Army, Navy and enlisted personnel combined, which 
has to optically scan some 1.5 billion pages. There must be a 
moment where it is too late to change the fundamental design if 
you are going to implement it.
    Now, the difference is at what point does that come? In my 
judgment, that point has come. Any major rearrangements to the 
fundamental design of the census at this stage will make it 
very difficult to be in the field on April 1 with a quality 
piece of work. That is my judgment.
    And we can spend many hours, and I would love to spend the 
many hours that it would take, walking through this schedule 
procedure by procedure and explaining why. So I do think that 
Mr. Miller and I agree that at a certain point you must be able 
to just implement a design. So the disagreement is, when does 
that point come? We believe it is now. We believe that 
introducing major new procedures at this stage will put the 
census at risk.
    Secondly, Mr. Miller talked about the difference in the 
sample design. The 750,000 sample design case was based upon 
what we felt to be a response to President Bush telling us to 
come up with a design that was more accurate and less costly 
than 1990. And the 750,000 cases allowed us to make State-by-
State estimates for purposes of reapportionment. And when the 
Supreme Court said that was inconsistent with the statute, we 
no longer were under an obligation to do that. So the shift 
from 750 to 300 wasn't a flip-flop. It was a direct response to 
the Supreme Court decision. It wasn't a kind of theoretical 
flip-flop or policy change. It was what made the most 
statistical and operational sense, given the Supreme Court 
decision.

                    dual-system estimation procedure

    And again, Dr. Miller is a statistician, and I think that 
his differences with us are about the dual-system estimation 
procedure. It is not about sampling. I have had this 
conversation. We don't have an argument about sampling as such. 
We all believe in the importance of sampling and use of 
sampling across our statistical system. So what we are really 
having a discussion about is dual-system estimation, and I 
would urge the opportunity perhaps to have a hearing on that 
thing because that is really what the argument is about. Am I 
correct?
    Mr. Miller. That is a significant part of the argument.
    Mr. Prewitt. Yes. So in some respects, that is what we 
ought to be discussing rather than sampling in statistical 
methods more generally.
    Mr. Miller has made reference to the two-number census. I 
do think that he himself has suggested, if I am correct, sir, 
that we are not arguing about whether a second number ought to 
be used for purposes of the Bureau of Labor Statistics or 
Federal formula funding in which it has been widely 
acknowledged that that may be a better and a more sound 
database for doing Federal funding and for constructing our 
national statistical system.
    So we are not talking about two numbers. We are talking 
about a less accurate and a more accurate number. So the 
differences, I believe, sir, then, Mr. Miller, is whether the 
other number can be used for redistricting. So at least we 
ought to try to contain the conversation around where there is 
a difference, and it is not around two numbers as such, because 
Mr. Miller and other members have recognized that if there is a 
way to get your Bureau of Labor Statistics and your education 
statistics and your health statistics and your transportation 
statistics on a firmer basis and a more sound basis, it would 
be irresponsible of the Census Bureau not to provide that to 
this country.
    That happens repeatedly. All through our trade statistics, 
we are constantly revising the numbers as we get better and 
better information and firmer estimates. So the fact that 
statisticians constantly are improving their data is not 
something new to this country. And indeed if we didn't 
constantly improve it, you would have us up here arguing with 
us, why in the world are you sticking with these old numbers 
when you know how to make them better? You would want an answer 
to that question. We know how to make that number better and we 
would like to give it to the country. So I don't think that the 
two number accusation--and I have asked to be put in the record 
the letter from the Commissioner of Labor Statistics, saying 
why the BLS has agreed to or decided on its own to base all of 
the labor statistics, all economic statistics, on the adjusted 
number after 1990. By the way, it didn't take us 3 years to 
find the error. It took us about 4 or 5 months, but not 3 
years. And that is why the BLS decided to go ahead and base its 
data, its work, on the adjusted number.
    I guess if I could--and I will stop. I appreciate this 
extra time. I simply----
    Mr. Dixon. Haven't had any time recently, huh?
    Mr. Prewitt. I just have to say for the record that I do 
not feel manipulated by the White House.
    Mr. Dixon. Thank you. I was going to ask you about that.

                         political manipulation

    Mr. Prewitt. I do not feel manipulated by anyone. I do feel 
that there are very, very many different organizations, 
agencies, advisory groups, oversight committees and so forth 
who would like to tell us how to do the job, and congressional 
committees and so forth. As I have quipped, if you forgive this 
quip, that when I came to Washington I was told that this was a 
very, very difficult, job and after I had been here a month or 
so I found out it could not be a very difficult job because I 
hadn't met anyone who couldn't do it better than I could.
    Now I think it is because the stakes are very high that 
there are many people who would like to help us, but that is 
different from feeling manipulated for partisan purposes. I do 
not feel manipulated by either the Democratic or the Republican 
interest, by the White House or the Congress. I do feel like 
there is a high level of interest in this census, but political 
manipulation I do not feel.
    Now, we have a problem. We are trying to put it together as 
fast and intelligently as we can. We believe we have a plan 
that will count the American people as best as we can do in 
2000 without the additional support of other methods--and we 
can discuss this in great detail if you would like to.
    Mr. Dixon. I don't have any further questions, Mr. 
Chairman.
    Mr. Rogers. Mr. Kolbe.
    Mr. Kolbe. Thank you, Mr. Chairman.
    Dr. Prewitt, let me begin by saying I am very disturbed by 
the comments that I heard made by the Ranking Minority Member 
that there have been leadership in the Congress that have 
attempted to make sure that people do not get counted. The 
statement was made that there was an effort to cripple the 
count to make sure that it is not what it should be.
    I find those statements outrageous and frankly are just not 
true. They are false statements and that has never been the 
case. I think we have a difference of opinion about how this 
count should be taken, but there has never been a desire on the 
part of, I think, anybody, on either side of the aisle, to make 
sure we do not get an accurate count that can be made through 
the census.
    I think Mr. Miller put his finger on a lot of the problem. 
I think that what is going on here is really undermining the 
credibility of this Census Bureau, and I am glad to hear you 
say you don't feel you have been manipulated. If that is the 
case, then there is certainly no reason for any of us to shed 
any crocodile tears for the problems that you are having. If 
there are any problems, they are problems, in my opinion, of 
your own making.
    I find it strange and a little bit incredulous to suggest 
that there is not political involvement in the way the Census 
Bureau has come up with the proposals as to how it is going to 
conduct the census. After all, you are a part of the executive 
branch, part of the Commerce Department and part of the 
executive branch, and I do believe there is a political 
direction to what is going on here.
    But let me, if I might, just ask a question. I am not a 
statistician. I am not an expert as either you are or Mr. 
Miller are in this area. But the question I have goes to 
sampling rather than what we were just talking about a moment 
ago. Let me begin by saying you just made a point, I think, 
that is very important. If the Bureau of Labor Statistics and 
others can improve the kinds of data we get of employment, and 
the Commerce Department of trade data we get through sampling 
techniques, we should do so and I absolutely agree. Of course, 
we are always going to be trying to improve that kind of data. 
But I think it is important to recognize that for the most part 
you use fairly aggregate kinds of numbers.
    This goes to the heart of the question that I want to ask 
when it comes to polling. All of us as politicians are fairly 
used to looking at political polls, and we all like to think to 
some degree we are pretty good at reading some of those 
political polls. And so if I look at a political poll that is 
done nationally, or even in my congressional district, we have 
some degree of confidence we can have, what the margin of error 
that is going to be.
    But as a politician I immediately like to turn to the 
cross-tabs and I like to look at different information. And so 
in my congressional district I want to see how a certain group 
feels about the issue of, let's say, Social Security. And so I 
am going to look to the cross-tab and I am going to look to see 
what women who are between the ages of 35 and 50 and who are 
single and have an income over $40,000 and who live in the 
rural area and are Hispanic or Native American, how they feel 
about Social Security. Would you not agree that the margin of 
error rises rather significantly?

                 MARGIN OF ERROR AMONG CROSS-TAB AREAS

    Mr. Prewitt. Each of those extra cross-tabs?
    Mr. Kolbe. Yes, when you add each of those extra cross-
tabs. My point has always been when it comes to the census, 
that is great--sampling can give us a better count nationally. 
Probably also at the State level. Even at the local areas. But 
ultimately the census is used, as you know, for--and we are 
talking here for political purposes now, it is used for, it is 
used not just for congressional redistricting but it is used in 
my area for the boards of supervisors or commissioners. It is 
used for the State legislature, of course. It is used for the 
school boards. It is used for the local city wards and so 
forth.
    And so as each of those lines draw over each other, you get 
finer and finer areas. Ultimately when you do the sampling that 
you have to do, you have to end up locating the people you 
decided to sample in a particular place. You have to locate 
them somewhere so that I know exactly where they are. The 
courts in Arizona this last time decided that the districts 
would be drawn to--they decided since computers were capable of 
doing it, that the congressional districts would be drawn to 
precision where there would be zero differential. They couldn't 
divide the number by six. They had one extra person so one 
district got one more person. Otherwise, the other five 
districts were exactly the same number of people.
    So you have to actually end up putting those sampled people 
in exact location if you are going to be able to do that. How 
can you do that with accuracy? How do you know that this person 
that you are going to put in this census block is a woman of 
this age and Hispanic and over the age of 35? How do you know 
that you have got the right person in the exact right place? 
You didn't count them. You sampled them.

                    MEASUREMENT AND SAMPLING ERRORS

    Mr. Prewitt. Mr. Kolbe, in this kind of work, there is 
something we call measurement error and there is something we 
call sampling error. I believe your district includes Tucson. I 
was recently in Tucson. And someone drove me through a 
neighborhood, and in it was a street. There were a series of 
bungalows, small little houses, every house had an address. You 
think it is really going to be easy to count this block. And 
then they took me around behind. Every one of those houses had 
three or four trailers parked back there, with a migratory 
worker living with families, so forth and so on. You know your 
neighborhood much better than I do. None of those trailers had 
an address. Now, we have got to go find them. We have got to 
get behind and make sure we find them all. They are very hard 
to find. That is what creates measurement error.
    And then there is something called sampling errors. You 
just referred to it, the confidence interval around any given 
sampling estimate. We therefore have to make a judgment about 
whether even down at the small area level, whether the sampling 
error is going to be smaller than the measurement error. And 
you ask us how we can make sure we get the precise number of 
people in each block. We aggregate those blocks up. Your 
district probably has, I don't know, say 6,000 blocks. By the 
time we aggregate those six thousand blocks up with sampling 
error, it is in the nature of the statistic--as Dr. Miller 
will, I think, agree with me--it is in the nature of that 
procedure that you cancel out the sampling errors; but the 
measurement errors add up, so at the end of the day you have a 
less accurate count of your district if we have to aggregate 
and add up all of those measurement errors, all of those places 
that don't have addresses and we are going to have a hard time 
finding them. So it isn't that we will be precisely correct. No 
estimate will be precisely correct. But the question is, which 
error is going to be greater for the purposes that we feel an 
obligation to kind of----
    Mr. Kolbe. It has to be precisely correct, because when you 
draw all these lines, there is going to be one block that is 
all by itself. It is going to be the only one that is not in 
more than one of all the 15 or 20 different political 
subdivisions that I have got. So it has got to be exactly 
correct to have the right number in that block. So you have to 
make a decision.
    Mr. Prewitt. Right. But what I am suggesting is that in 
that block if we have undercounted, say, 7 or 8 percent because 
of the difficulty of the address list, the resistance of being 
counted, all the hard-to-enumerate, hard-to-count problems, 
then we now have a block that is off by 7 or 8 percent. The 
question is whether we can get closer to being accurate in 
there using this method than the measurement method and the 
counting method. It is nothing more complicated than that.

                             USE OF COUNTS

    Mr. Kolbe. I have one other question. I am not satisfied 
with that answer. Maybe Mr. Miller can help me understand it. 
Maybe he has got a problem too. I have one other question. That 
is, now that you have decided you are going to do this two-
count, if you are successful in doing this two-count, is it 
your understanding that every local governmental unit will be 
allowed to pick and choose as to which count they use?
    Mr. Prewitt. The current law, as I understand it, is the 
Constitution of the United States and Title 13. The Census 
Bureau provides the most accurate count that it can. The 
decision of whether to use that count, whether it is one number 
or two numbers or more numbers, the decision whether to use 
that is a State decision, not a Federal decision, not a 
decision that the agency can make. A State can go out and do 
its own census for purposes of redistributing, drawing 
congressional boundaries, State legislative boundaries, county 
seats, whatever it wants to do, it can use whatever numbers it 
wants. That is not a Federal law. We are only obligated by law 
to provide the numbers to the State within 12 months of the 
start of the census date, March 31, 2001. The use of it is not 
our decision.
    Now, as I understand the current prevailing law, any number 
we produce that is adjusted using our accuracy and coverage 
evaluation, the number that is unadjusted shall be reported at 
the same time and it will be to the same level of detail. That 
is, any jurisdiction in the country will have both sets of 
numbers, just as the Bureau of Labor Statistics had both sets 
of numbers and chose to use them more correctly. So the answer 
is we will make available to every jurisdiction both sets of 
numbers if that is what they want.
    Mr. Kolbe. And so which of those is the official number? Or 
is it neither or both?
    Mr. Prewitt. Both, right.
    Mr. Kolbe. Both?
    Mr. Prewitt. The official number from the Census Bureau 
will be the number that it believes to be the most accurate.
    Mr. Kolbe. We know which one that is going to be.
    Mr. Prewitt. Not necessarily, we don't know that. We won't 
know that till the time.
    Mr. Kolbe. I think you have made it pretty clear which one 
you have decided is going to be the most accurate.
    Mr. Prewitt. Mr. Kolbe, I have said and I will say again. I 
am under oath--I am not under oath. Nevertheless, if I may, I 
am under oath as far as I am concerned but even when I am not 
under oath, I would say that the probability is very high that 
the Census Bureau will believe that the adjusted number is more 
accurate than the unadjusted number. It is not certain. We may 
learn something. We may have a difficulty. Something may occur 
in the process and if that happens, we will call the unadjusted 
number the official number because we will believe it is more 
accurate. I do not think that is likely to be the case, but if 
it is, it will be the case. We will not report a number to this 
country and call it official if we don't think it is the most 
accurate number that we have available.
    Mr. Kolbe. As far as you are concerned, a State could 
determine to use, for its purposes of congressional 
redistricting and perhaps legislative redistricting, use the 
sampling number, and could allow cities to use the actual--or 
rural areas, counties, to use the actual count because it comes 
out better for them. So that when you aggregate all those, you 
have got quite a different picture.
    Mr. Prewitt. It is nothing that we control, have a position 
on. That is a State decision. That is not something the Census 
Bureau----
    Mr. Kolbe. Is it not true--you said the States can make 
that decision but if a State decided, let's say, to take my 
State of Arizona where 60 percent of the population and the 
power in the legislature is now in Phoenix, in Maricopa County, 
if they decided that they would just by decree add 200,000 
people to Maricopa County and they tried to use that for 
redistricting, don't you think they would run into a few legal 
problems?
    Mr. Prewitt. I think they certainly would, but it wouldn't 
have anything to do with the Census Bureau.
    Mr. Kolbe. But it would run into problems of Federal law.
    Mr. Prewitt. Sir, I am not an expert on--whatever law would 
be at stake here.
    Mr. Kolbe. Well, so you are going to in the end make a 
decision after you have done it as to which one you are going 
to designate as the official count; is that correct?
    Mr. Prewitt. That is correct.
    Mr. Kolbe. And you are saying at this point you have not 
made that determination?
    Mr. Prewitt. We can't until we see the numbers.
    Mr. Kolbe. I see. Thank you, Mr. Chairman.
    Mr. Rogers. Ms. Roybal-Allard.

                        DIFFERENTIAL UNDERCOUNT

    Ms. Roybal-Allard. Thank you, Mr. Chairman. Mr. Prewitt, I 
am going to get a little more local in my questioning. A recent 
GAO report came out, and I believe it was commissioned by 
Congressman Miller, and the report showed that the biggest 
undercount--first of all, the biggest loser in the undercount 
was California, where we lost about $2.2 billion, and my 
district was the ninth largest undercounted area in the 
country. Were there any surprises that came out of that report 
or did it simply reaffirm what the Census Bureau already knew? 
And if not, are there any adjustments or anything that you are 
planning to do in order to address some of the things that came 
out of the report?
    Mr. Prewitt. Well, we certainly have known and indeed the 
country has known that we undercounted in 1990 and that that 
undercount was differential by demographic group and geographic 
group, geographic location. And your State has a high 
concentration of the groups which are most difficult to count.
    As the Census Bureau, of course, we don't do the kind of 
analysis which says what are the economic implications of the 
undercount. Certainly nothing in the GAO report surprises us. 
We would have been very surprised if the States which would 
have suffered within the GAO account had been those States 
which had low populations of Hispanics or low populations of 
African Americans or low populations of American Indians and so 
forth--been very, very surprised.
    So in that sense, the results of the GAO analysis are 
highly consistent with where we know the differential 
undercount to be concentrated. We obviously feel very, very 
strongly it is an issue of social justice to try to reduce that 
differential undercount, and the Census Bureau has spent a lot 
of time, a lot of energy, a lot of effort to try to come up 
with a set of methods that will reduce that differential 
undercount which will allow us--and that includes our outreach 
programs, our partnership strategies, our multiple language 
forms, everything else, in order to try to do something about 
that.
    We have to say to the country that the proportion of the 
population which is difficult to count has grown. There are 33 
percent more new immigrants in the country today than there 
were in 1990. The Hispanic population is up. The African-
American population is up. The number of irregular housing is 
up. The number of highly mobile people, the number of single-
parent households, which means no one is home, is up. All of 
the things which we know from our earlier experience make it 
difficult to find people have increased in proportion since 
1990.
    We will do the best we can to find those people and count 
them and try to get rid of the differential undercount, but we 
will not be fully successful for exactly the reasons I just 
explained to Mr. Kolbe. All of those unaddressed trailers back 
there are new since 1990. We don't have an address file. We are 
out there walking those blocks, pounding on those doors, 
walking in the alleys to try to find them. It is very difficult 
to find them all.
    So it is a long answer, and I am sorry; but, no, the GAO 
report, the pattern of the results was not surprising, given we 
know what we know about the differential undercount. And 
secondly, we have put in place everything that we can think of 
that will try to reduce that differential undercount.

                      EFFECTS OF PAID ADVERTISING

    Ms. Roybal-Allard. Also, Sacramento, California was one of 
the sites for the dress rehearsal, and it is my understanding 
that the paid advertising that was used had increased the 
awareness of the census in that area from about 28 percent to 
80 percent. However, based on the 1990 census, we also know 
that awareness doesn't necessarily translate into action. In 
other words, even though people are aware of the census, know 
what it is about, doesn't mean that they are actually going to 
fill out the form and turn it in.
    Can you tell me what is being done to address this problem 
so that not only is the awareness raised but that awareness 
actually translates into action?
    Mr. Prewitt. If I could respond to that question in two 
parts. It is very important to understand that the advertising 
campaign is designed to increase the initial response rate. 
That is, response rates all across our surveys, not just those 
in the Census Bureau but across the Federal system and indeed 
across the private sector, they are going down. There is less 
civic engagement in this country than there was in 1990. So the 
response rates are going down. So the advertising campaign has 
tried to stop that erosion. The awareness and motivation are to 
try to get that response rate up.
    The people who we are trying to get to fill out the 
questionnaires are not the difficult-to-count. That is, the 
advertising campaign won't reach into those alienated, anxious, 
fearful, highly mobile population groups, linguistically 
isolated and so forth.
    So in addition to the advertising campaign to increase 
awareness, we have to go out and motivate those people. We have 
to go to their churches. We have to go to their community 
groups. We have to go to their schools. We have to go to where 
they are plugged into the society.
    We have signed over 10,000 partnership agreements. We 
expect to sign close to 100,000. Many of those will be very, 
very effective. Not all of them, of course, but many of them 
will be. We have a Census in the Schools Program that is going 
to reach 100 percent of the schools. We have linguistically 
equipped people in our questionnaire assistance centers and our 
telephone centers. All of that has been put in place to reach 
the hard-to-count. But that is different from the advertising 
campaign which we hope will boost the initial response rate so 
that we have to find fewer people. But reaching the hard-to-
count takes different kinds of strategies.
    Ms. Roybal-Allard. So you are reaching out, then, to 
community groups and people and organizations that have the 
trust of these hard-to-attract people, groups?
    Mr. Prewitt. Yes. We have spent a great deal of time on 
what we described as our partnership strategy and our outreach 
strategy, targeted primarily if not exclusively on the hard-to-
count regions and population groups.
    Ms. Roybal-Allard. Also, based on the dress rehearsals, was 
there any information that came out of those that was a 
surprise and where you had to make certain adjustments, 
particularly Sacramento? Quite frankly, I was surprised that 
Sacramento had been chosen for the dress rehearsal, but I 
understand it has all the characteristics that are needed. But 
was there any new information that came out of those dress 
rehearsals that perhaps the Census Bureau was not aware of and 
that you are now changing your techniques?
    Mr. Prewitt. The most important thing that came out of the 
dress rehearsal was that the pattern that we feared would be 
there since 1990, that is, hard-to-reach and differentially-
hard-to-reach, was reconfirmed. That is, the very problem we 
were trying to address with the accuracy and coverage 
evaluation on initial design persists and is indeed expanded.
    The other very important thing that came out of the dress 
rehearsal experience for us is it identified infrastructure 
components of our design which had to be enhanced. Optical 
scanning, supervisory ratios, a number of operational 
components that had to be enhanced to go into the census 
period. That is what we are doing in that lock-up room is 
enhancing those procedures. That is why we don't have a number 
today, because until we have fully incorporated the results of 
that experience into our plan, we do not want to tell you how 
many people are going to have to be here between noon and 4:00 
on a Tuesday afternoon and how many forms are going to be put 
in a truck and moved. All of that is the detailed work that we 
are doing.
    The second most important thing that we learned from 
Sacramento is which of our procedures should be enhanced to 
make the census more robust and on a firmer footing.

                          USE OF CENSUS COUNT

    Ms. Roybal-Allard. Let me have some clarification in some 
of the responses that you had to some of the other members. Is 
it my understanding, then, that you come up with the most 
accurate number, which you would call your official number, but 
that States and local governments are under no obligation to 
use those numbers for any purpose? It is entirely up to the 
States?
    Mr. Prewitt. The State can generate its own internal 
obligation, its own rules and its own Constitution, but that 
has nothing to do with the Census Bureau. The Census Bureau is 
obligated to produce the most accurate statistics it can for 
this country. The use of those numbers is then left to the 
political and legal processes. It is not a Census Bureau 
policy. The Census Bureau certainly would prefer to call the 
most accurate number the official number whenever we can. But 
that is a number that is changing all of the time as we 
continue to improve our work.
    Ms. Roybal-Allard. And then there was some question about 
using two numbers and having two numbers and the confusion 
about that. If you were just to use the actual enumeration, 
just the one figure and not to make any adjustments--or I guess 
that was step two--if we were to eliminate step two, what would 
be the results? In other words, would then we as a country, as 
Members of Congress, economists and everyone, would we be using 
numbers for which we had no way of knowing the accuracy, how 
close we were and so we would be in this guessing game of 
developing our labor statistics, our economic plans? Everything 
would be then based on a guess without any understanding of how 
close we were to the actual numbers?
    Mr. Prewitt. I am afraid that is the case. That is, if we 
did not do the accuracy and coverage evaluation and the only 
number we had was the number that we had by the end of 2000 
itself, that is, there would be no way for this country to know 
how we did--when this country debates the undercount and the 
differential undercount, it is debating the results of work 
that the Census Bureau has done. This is the agency in the 
country that produces a report card on its own performance. So 
when the country has a discussion about how well we did in 
1990, it is basing that on work that we ourselves have 
produced. We take our responsibilities so seriously that we 
report our levels of inaccuracy as carefully and fully as we 
try to be accurate in the first place. It is the kind of agency 
we are.
    Ms. Roybal-Allard. So it is actually in the best interest 
of the country to evaluate those numbers and to readjust and 
then provide us with the most accurate information possible?

                           TWO-NUMBER CENSUS

    Mr. Prewitt. I would think it would be in the interest of 
the country to know how well we did in 1990, 1980, and of 
course again in 2000. If I could give one small footnote on the 
two-number conversation. In 1990 it was a two-number census, 
not about the issues that you are thinking.
    What we do in every year, 1980, 1990, 1970, we count the 
overseas, the federally-employed personnel; that is, the 
military, Diplomatic Corps and so forth. For purposes of 
apportionment, we include that in the counts. For purposes of 
redistricting, we take it out. We have been doing that for 
years. No one is worried about it. That is two separate 
numbers. One is official for apportionment purposes. The reason 
we put them in for apportionment purposes is we can locate them 
in the right State. The reason we take them out for 
redistricting purposes is we can't allocate them within the 
State. So for redistricting purposes we can't have them in 
there.
    That has been going on for years. That is a two-number 
census. One official apportionment number; a second official 
count for redistricting. It has never created a lot of 
confusion or consternation and so forth. The idea that two 
numbers are necessarily more confusing than a progressively 
more accurate number, this is a case where the most accurate 
number for reapportionment includes the overseas military but 
for redistricting excludes them. So the Census Bureau produces 
what it considers to be the most accurate number for those two 
different purposes.
    Ms. Roybal-Allard. Thank you.

                       STATE USE OF CENSUS COUNTS

    Mr. Rogers. Thank you. Dr. Prewitt, well, your 
determination is to leave it to the States or localities to 
decide which of these two numbers they want to use--that is 
your goal, as I understand it?
    Mr. Prewitt. It is not my determination. It is a State 
decision, not a Census----
    Mr. Rogers. But your goal is to leave it to the States to 
decide which of the two numbers to use, correct?
    Mr. Prewitt. That is not a goal. That is the law. It is not 
my law. It is not the Census Bureau's law. It is the State law 
that would decide if it wants to use the number.
    Mr. Rogers. What I am driving at is it is your policy that 
whatever the States do with these two numbers is their 
business, correct?
    Mr. Prewitt. Correct.
    Mr. Rogers. If that is so, then the only way to achieve 
that is for you not to declare any of these numbers official 
because many, if not all, of the States' laws, either by State 
constitution or statute, require them to use the official U.S. 
census number in their redistricting operations. So if it is 
your policy to leave the decisions strictly to them to decide 
how they want to do it, would it not be the best thing not to 
declare either number the official number?
    Mr. Prewitt. Chairman Rogers, that law is a State law. They 
can use it, change it, do what they want to it. That would not 
be a Census Bureau law. We have a policy, not a law. We have a 
policy and we intend to honor that policy and we have been 
doing it since 1790, to present to the country what we believe 
to be, at any given time in a process of constantly trying to 
improve, the most accurate count we can come up with for 
different kinds of purposes and they vary from purpose to 
purpose; and that, in effect, would be the official number for 
that purpose.
    Mr. Rogers. Well, you are making lawyers happy. They are 
seeing dollar figures. Lawsuits after lawsuits after lawsuits, 
as Dr. Miller has said, because the credibility of these 
numbers is going to be so confused by your giving two numbers 
for different purposes and it is astounding to me that we are 
at this point.
    You wanted to clarify something?
    Mr. Miller. Just a clarification on this two number issue. 
So on December 31 or before that date, you will release 
statewide numbers based on the full count, right?
    Mr. Prewitt. Correct.
    Mr. Miller. Before April 1 you will release two sets of 
numbers by census block, one being the full count, the other 
one being the adjusted number; is that right?
    Mr. Prewitt. The full count minus all the errors that we 
know that are in there; but yes, correct.
    Mr. Miller. It would be two sets of numbers released by 
block, right?
    Mr. Prewitt. Correct.
    Mr. Miller. One time you said if they want. And I want to 
make sure they will have the data.
    Mr. Prewitt. The data will be available in whatever form as 
best we can provide it, in whatever form the States want it. We 
are probably going to do it on CD-ROM and most States are happy 
to have it that way.
    Mr. Miller. They will have access to all the block 
information, both sets of numbers?
    Mr. Prewitt. Correct.
    Mr. Miller. I thought the Secretary of Commerce said they 
would both be official numbers. Are you saying only one would 
be official and one will be unofficial? I am confused by that.
    Mr. Prewitt. I am not sure. I don't know what the reference 
is to the Secretary, but let me say the Census Bureau's policy 
has always been, as I say, for 200 years is----
    Mr. Miller. You have only done two numbers once. This time.
    Mr. Prewitt. No, no. I just said a minute ago we did two 
numbers in terms of putting the overseas military in and out. 
We have done that whenever it has been appropriate. The Census 
Bureau, like any major statistical agency, is constantly 
improving as it corrects, finds errors, improves its 
methodologies and so forth. Any given statistical series has 
the property that it is often being improved as you go. And 
depending on how they are being used, we would say for these 
purposes, this is the most accurate number.
    We believe, and as I said to Mr. Kolbe, and I do not want 
to play any kind of word game, it is our judgment today that 
the more accurate number in the spring of 2001 will be the 
adjusted number using the accuracy and coverage evaluation. It 
may not be.
    Mr. Miller. We are going to have one official number--would 
you clarify that if I am not----
    Mr. Prewitt. One official number.

                     DELETING PEOPLE FROM THE COUNT

    Mr. Miller. As Mr. Kolbe was asking about, you really work 
with census blocks, 6, 7 million blocks in this country and you 
are going to have to add people and delete people from a block 
based on the statistic, right?
    Mr. Prewitt. In using accuracy coverage evaluation, yes.
    Mr. Miller. You are actually going to delete people after 
they have been counted?
    Mr. Prewitt. No, never. We will not delete any record from 
the census.
    Mr. Miller. In 1990 they deleted people.
    Mr. Prewitt. I would have to check on that.
    Mr. Miller. Look at Long Island or Bucks County, 
Pennsylvania.
    Mr. Prewitt. We do not delete records from the census file. 
Anyone who fills in a form, or any other way we get it, once it 
is in the census records, it will not be deleted.
    Mr. Miller. You are not deleting people when you do the 
adjustment process, you are saying. Once the official number is 
there, and say there are 500 people in the census block, it 
would never go below 500 people after you have had the official 
count; is that right? My understanding is you actually delete 
people. You did in 1990.
    Mr. Prewitt. I am sorry, I will have to go back and give 
you a report on what we did in 1990. We do not delete census 
records.
    Mr. Miller. But you are going to add individuals. Correct 
me--Mr. Kolbe said you may have to add a Native American to 
this census block or you may have to add an African American 
male to this one. You add individuals to a block when you do 
your adjustment, right?
    Mr. Prewitt. We create an arithmetic adjustment that gives 
the States, if we are reporting this back to the States, our 
best estimate of the population size of a given block.
    Mr. Miller. But when you adjust it, you will add people but 
not delete people from the original count?
    Mr. Prewitt. The arithmetic adjustment that we will do does 
not sort of add individual cases or subtract individual cases, 
it comes up with a point estimate of the number of people that 
we believe is the most accurate number of people who are on 
that block with people of that characteristic.
    Mr. Miller. So you will be adding or subtracting, I think? 
You will be subtracting?
    Mr. Prewitt. But not census records. Very important. That 
is really very important. I want to make sure the record 
indicates that.
    Mr. Miller. You will subtract--if a block has, say, 100 
people, on average you should only have 95 people, we will make 
that 95.
    Mr. Prewitt. Correct.
    Mr. Miller. So you will reduce the original count to an 
area----
    Mr. Prewitt. Arithmetically, but we will not be subtracting 
out five records.
    Mr. Miller. But you will be deleting----
    Mr. Prewitt. It is really not the same. It is so important 
for me to argue----
    Mr. Miller. You are not deleting.
    Mr. Prewitt. We are not deleting census records.
    Mr. Miller. You are deleting within a block--that is a very 
small area. What is the average size of a block?
    Mr. Prewitt. Thirty households. About 6,000 blocks per 
congressional district.
    Mr. Miller. So if a census block has a count of 50 people, 
all right, we go--and that is the full enumeration number--by 
adjustment you can come back and say we counted 50 people but 
on a statistical average we shouldn't have that many people. We 
will say there is only going to be 48 people.
    Mr. Prewitt. Correct.
    Mr. Miller. But that is deleting people. Not individuals 
but--you have to delete an African American male, a Hispanic 
female? You delete it by that detail for all 6, 7 million 
blocks? You have to, I guess.
    Mr. Prewitt. Yes.

                         dual-system estimation

    Mr. Miller. So you are going to have accurate enough 
statistics with 6, 7 million blocks to say--I think we need to 
add 2 African American males in this block but we want to 
subtract 2 female Hispanics out of this block. So you are going 
to be able to do that for all 6, 7 million blocks based on the 
sample of 300,000.
    Mr. Prewitt. That is what the dual system estimation allows 
us to do. But you are a statistician, you appreciate that.
    Mr. Miller. But I think it is impossible.
    Mr. Prewitt. Sit down and spend some time with us on the 
design, Mr. Miller. I would love to do that.
    Mr. Miller. It is an impossible dream to get the accuracy 
you want. I feel very confident you are going to lose for 
redistricting purposes in the court. You are selling snake oil. 
You are going to lose in the court.
    Thank you, Mr. Chairman.
    Mr. Prewitt. Mr. Chairman, may I just quickly speak on 
this? As I can go back again, the problem is not whether we are 
going to be perfect. We know we are not going to be perfect. 
The problem is whether we are going to be closer to the true 
number using dual-system estimation. They are not. Mr. Miller, 
I really do not think it is snake oil. We may have a difference 
about dual-system estimation, but it is not snake oil.
    Mr. Miller. Snake oil is that it is going to lose in the 
courts and while all the confidence is being put in sampling. 
Sampling is going to be ruled illegal for redistricting, as it 
was for apportionment. What do you have? You are not going to 
have any post-census local review or more languages because all 
you are relying on is sampling. That is my snake oil argument.
    Mr. Prewitt. No, sir. That is not all we are relying on. We 
have a plan which we can talk about in great length, which we 
believe will give the most accurate count that we can reach 
without statistical methods in the year 2000, and if the States 
want to then use those numbers for redistricting, they will. If 
the court rules that is what has to happen, it will. We still 
will believe in an accuracy and coverage evaluation purpose for 
statistical purposes beyond the year 2001. We will believe very 
strongly in it for exactly the reasons you have acknowledged 
yourself.

                        use of block information

    Mr. Miller. The problem is block information, and that is 
what Mr. Kolbe was raising. That is what you use for 
redistricting, block information. And I was in Tallahassee last 
week. It was interesting. I stopped by the Subcommittee staff 
that is getting ready for reapportionment. You have probably 
seen these computers. They draw these lines. It is all based on 
block. You are going to add or delete basically individuals, 
not a specific named individual from each of those blocks, and 
it is a mind-boggling task that on the accuracy alone, the 
courts will throw it out.
    We were at the hearing of the Supreme Court back in 
November and Justice Scalia said, Are we creating a whole new 
area of census law? He is right, we are creating this area of 
census law. Every community is going to pick and choose, Oh, I 
don't like that number. Oh, I want this number. That is the sad 
part of this census.
    Thank you, Mr. Chairman.

                             second mailing

    Mr. Rogers. Well, the Census Bureau is the only group of 
people I know who is capable of statistically justifying saying 
1 and 1 don't equal 2, it equals 2.38 or something like that. I 
think the courts are going to bring us back to our senses, S-E-
N-S-E-S.
    Dr. Prewitt, for 3 years we have been told by the Bureau 
that a good mail response rate is critical for two reasons: 
one, mail responses are most accurate; and, two, it saves time 
and money. And for 3 years the Bureau assured us that they had 
a plan to achieve a 67 percent mail response rate which would 
be 2 percent better than 1990. A critical improvement was to 
use a second replacement questionnaire to get people to 
respond. How much of your goal of 67 percent mail response rate 
was contingent on the second mailing?
    Mr. Prewitt. Our best estimate was the second mailing would 
add about 6 percent cases, so 6 percent. I mean, from 61 to 67 
would have been the result of the second mailing.
    Mr. Rogers. Did you test that--did you have a second 
mailing in the dress rehearsal?
    Mr. Prewitt. Correct.
    Mr. Rogers. What impact did it have on the response rate in 
both cities?
    Mr. Prewitt. Our best estimate--it is somewhat difficult, 
as you can appreciate. It is awfully hard to know whether the 
person who sent in the second one would have sent in the first 
one if they hadn't gotten the second one, and so forth and so 
on. Our estimation is we are right on the mark. That is, 6 
percent; and maybe, Sacramento, there is one way to interpret 
the data which would suggest 8 percent.
    Mr. Rogers. My information was that in South Carolina at 
Columbia there was an 8.2 percent increase and in Sacramento a 
7.5 percent increase. Is that accurate?
    Mr. Prewitt. Right. But what I am saying, sir, we tried to 
do research on that. I am not going to quibble about the 
numbers. You can't tell exactly how many of those would not 
have come in anyway, but say 7\1/2\, 8 percent.
    Mr. Rogers. That is substantial.
    Mr. Prewitt. Absolutely. Even if it is 6 percent, it is 
substantial.
    Mr. Rogers. It was very successful. But you deleted that 
now, have you not, in your 2000 plan, the second mailing?
    Mr. Prewitt. Correct.
    Mr. Rogers. Not going to do that?
    Mr. Prewitt. Correct.
    Mr. Rogers. Even though it will reduce the accuracy 
substantially?
    Mr. Prewitt. We think by including it, it will increase the 
inaccuracy substantially or we wouldn't have eliminated it. We 
wouldn't eliminate something because it reduced accuracy. We 
would only eliminate it because it increased inaccuracy.
    Mr. Rogers. You have lost me now. If doing a second mailing 
would increase the response rate by 8 percent, why is that not 
a good thing?
    Mr. Prewitt. Because it also increased substantially 
duplicate responses, duplicate returns. Duplicate returns are 
very difficult to get out of the file. There is something 
like--our estimate if we did a blanket mailing in 2001, the 
number of duplicate forms would be something like 3\1/2\ to 4 
million. Now, when people send in two forms--you know, there 
are two reasons we didn't do it, Mr. Chairman. One was--let me 
talk about that one first, then get back to the duplicate form. 
One was public confusion. People didn't like it, just like you 
and I don't like if somebody sends us and then we respond and 
then a week later we get another thing from that place saying, 
Why didn't you answer? I say, I already answered. Can't those 
guys read their mail?
    You create a real problem with blanket mailing because a 
blanket mailing goes out to, after all, 60 percent of the 
households of this country, which is about 70 million 
households who have already responded. They are going to be 
angry with us.

                         target second mailing

    Mr. Rogers. Originally you were only going to send the 
second questionnaire to those households that did not respond 
to the first one.
    Mr. Prewitt. That is the targeted mailing, yes. The 
targeted mailing, we have eliminated that procedure for the 
following reason. Our contractors looking at the problem, 
examining it, the gap in time that it adds to our schedule is 
about 4 or 5 weeks. The reason is you can't send out the 
targeted mailing until you are certain that everybody who is 
going to send the first mailing in has finished. Then you have 
got to find those addresses. You have got to readdress and 
remail. The problem with that delay is nonresponse follow-up, 
which is a very critical part of this process, is then delayed 
by 5 or 6 weeks. The deterioration in the data and nonresponse 
follow-up starts almost immediately. I cannot say strongly 
enough, we have got to locate people where they lived on April 
1. Memory begins to degrade. Mobility begins to take place. 
Those things will degrade the quality of nonresponse follow-up. 
So for a procedure that may add some cases, it will either 
create duplicates, which are errors that we then have to fix, 
or it will degrade the entire nonresponse follow-up strategy if 
it were a targeted mailing.
    Mr. Rogers. In order to make up for that expected 6 to 8 
percent drop in mail response rates, in order to go out and 
find the people that would have shown up on that second 
mailing, you have got to spend a lot of extra money to hire 
additional enumerators to go find these people, do you not?
    Mr. Prewitt. Correct. But if we mailed the blanket mailing, 
again, I think that number as I recall--because we have got to 
readdress, remail, pay postage, reprint forms and so forth--I 
think that number is close to 100, about $110 million. So it is 
not the response rate that has increased. You have got to do 
that as a net number, not as an absolute----
    Mr. Rogers. If you do a target mailing only to those that 
did not respond the first time.
    Mr. Prewitt. And then run the risk of all of the errors 
that are going to be introduced in the nonresponse follow-up by 
delaying that by 6 weeks, we are in the middle of the summer? 
That is a very serious----
    Mr. Rogers. Thirty days. My information is it would take 
about 30 days more time than planned to do the target mailing.
    Mr. Prewitt. We then would have to wait. It takes about 30 
days before we could remail. We then remail. Then we have to 
wait for those to come in and we have to code those, optically 
scan them, make sure they are part of the address list before 
we go out into nonresponse follow-up. So the total elapse time 
is 5 to 6 weeks.
    Mr. Rogers. What is bad about that?
    Mr. Prewitt. The fundamental design of the census is a 
mail-out/mail-back design. We are going to send this form with 
first an announcement letter, then the form to 120 million 
addresses. It is very, very critical that we understand this is 
based upon mailing.
    Mr. Rogers. Stay on track with me here. What is bad about 
the 6 weeks delay in the second response?
    Mr. Prewitt. After we get the responses in, we have to go 
out and knock on the doors of that 40 million households which 
did not respond. Now, 6 weeks after April 1, or 9 weeks after 
April 1, or even a day after April 1, things begin to degrade. 
Houses get torn down. Apartments get converted. People move. 
People forget who their roommates were. All of the 
characteristics that make it difficult to measure people are 
harder to measure 6, 7, 8 weeks after the fact than the day of 
the fact. That is what is at stake. We think we would have more 
errors than we would gain with a targeted mailing. If we 
thought that the targeted mailing would give us a better result 
at the end of the day, we certainly would do it.
    Mr. Rogers. If you do the second mailing and it delays you, 
as you say, 6 weeks, my information is 30 days, it will add 
time to the schedule, thus cutting into the time for 
statistical adjustment.
    Mr. Prewitt. I promise you that the decision about the 
targeted mailing is a decision about the quality of the 
nonresponse follow-up data. That is just the way we have 
calculated that.
    Mr. Rogers. Well, if you do the blanket mailing and you get 
some duplicates in, that can be handled by the computer, can it 
not?

                            Blanket mailing

    Mr. Prewitt. There are two things about the blanket 
mailing, one of which is the--and I don't know how we will 
handle it, and I am happy to have advice of this Committee--how 
we will handle the public anger, skepticism of 60 million 
households, to get a second form after they mailed it in. They 
are going to say this Census Bureau doesn't know what it is 
doing.
    Mr. Rogers. Listen, people get junk mail all the time. They 
will consider this junk mail, I guarantee it, whatever it looks 
like.
    Mr. Prewitt. That is very distressing to me. We have done 
everything we can to try to separate it. If the country decides 
this is junk mail and if the U.S. Congress decides this is junk 
mail, we are going to have a difficult time doing the census.
    Mr. Rogers. I don't consider it junk mail. None of us do, 
but a lot of people do. You are not going to offend very many 
people. Don't worry about offending people. Dismiss that for 
the moment.
    Mr. Prewitt. We had a dress rehearsal in which we tested 
this. We offended lots of people.
    Mr. Rogers. So what?
    Mr. Dixon. The argument shifts.
    Mr. Rogers. Why is that a bother to you?
    Mr. Prewitt. We just had a long conversation about the 
credibility of the Census Bureau, and now we are going to say 
to sort of roughly 100 million people in the United States that 
the Census Bureau can't even sort of record their response.
    Mr. Rogers. If it made them mad, it must have worked 
because you got an 8.2 percent increase in response rates in 
South Carolina, and 7.5 percent in Sacramento.
    Mr. Prewitt. Those aren't the people it made mad. It made 
all the people mad that already sent their form in. Just like 
it would make any of us mad if we constantly get asked for 
something we have already done.
    Mr. Rogers. Pardon me. What you are doing is not a PR 
thing. We are trying to count people. And it bothers me that 
what I am perceiving that you don't--you are not going to do 
the second mailing because it is going to eat into your 
statistical sampling adjustments procedure, and that bothers me 
because we are sacrificing an actual enumeration procedure 
which is a substantially good one in favor of trying to just 
simply guess; and in many blocks, as you told Mr. Miller, 
actually deleting people that you have actually counted.
    Mr. Prewitt. The decision to not do a targeted mailing or 
second mailing, blanket mailing, was made well before the 
Supreme Court decision, well before the Supreme Court decision. 
We had no idea what the outcome was. I understand this is your 
perception. I have to say it is an incorrect perception. That 
is a procedure which we have eliminated because it produces 
more error than it eliminates. Four million duplicate forms are 
extremely difficult to find, because one form says Joseph 
Smith; the other one says Joe Smith. You have got to figure out 
if that is the same person or not the same person. Sometimes 
they manage to put their child in who was at college. Sometimes 
they didn't. The forms are not going to be identical when they 
come in. Four million duplicate forms is very difficult to 
find. It simply is not a procedure that we decided to accept or 
reject based upon the A schedule. It is simply an incorrect 
perception, or else why wouldn't we have done it months ago?

                              Address list

    Mr. Rogers. In 1990 the poor quality of the address list, I 
think we can agree, was a major cause of both cost and accuracy 
problems?
    Mr. Prewitt. Correct.
    Mr. Rogers. We spent $182 million to develop the list but 
still missed or miscounted, by most estimates, 5.5 million 
households. We sent enumerators to 13.4 million housing units 
that were either vacant or didn't exist, to the tune of $317 
million, 39 percent of the total spent on non-response follow-
up. Improving that address list was to be a major success story 
for the 2000 Census and we invested enormous amounts of money 
in that, but it doesn't appear that that is going to be the 
major success story that we had thought.
    There have been major problems. In fact, we had to give you 
over $100 million in the last 2 years just to try to fix them. 
But now we are told that the best we can hope for is that it 
isn't any worse than 1990. Because of the expected poor quality 
of the address list last month, your own Census Advisory 
Committee recommended that you conduct a post-census local 
review program so that local communities wouldn't be penalized 
yet again in 2000 as they were in 1990 because of the problems 
with your address list. So why have you refused to implement 
that recommendation?
    Mr. Prewitt. Mr. Chairman, as I said earlier in my 
comments, the Census Bureau really does appreciate the support 
of the Congress with respect to reengineering the master 
address file, and I do think it is a success story. We have put 
together a much, much better address file than we had in 1990. 
We have block-canvassed every block in this country. We have 
had people out walking, trying to find those trailers behind 
the houses and so forth and so on.
    Now, one of the issues that was on the mind of the Advisory 
Committee was that the master address file has to be completed 
by midsummer in order to address all of the forms to get our 
mail labeling. What they said, that will miss new construction. 
So we have now worked hard with the Advisory Committee, and 
also based upon our dress rehearsal results, to make sure that 
we can get new construction in, up to and including April 7, 
2000. So that we had in place a procedure to do that called a 
``postal casing check'' which we are doing with the Post 
Office, but the judgment of many people of the postal casing 
check was that the Post Office would not do that well. So we 
put in place a new construction procedure, and we believe that 
the address list that we will have when we actually go into the 
field on April 1 is absolutely as accurate as any agency could 
ever expect to get. We are talking about addresses that change 
every day. We are talking about houses being torn down, houses 
being built, conversions of old warehouses into residential 
units. We are talking about apartments that used to be two and 
now they are four. It is a constantly moving phenomenon. I am 
convinced that we will have a better address file by far than 
we had in 1990.

                    post-census local review program

    Mr. Rogers. Well, your advisory committee, as I say again, 
recommended that you include a post-census local review 
program. My perception is that you followed their 
recommendation on the new construction program but did not 
follow the recommendation on the post-census local review 
program because it would cut into your time that you need to do 
statistical adjustment. Can you dispute that?
    Mr. Prewitt. This is the exchange we had. The post-census 
local review, indeed I think the same advisory committee urged 
strongly that that not be the subject of legislation, and as I 
think Congressman Miller's staff must have reported to him.
    The reason for not doing the post-census local review in 
our judgment is that it does two things: One, it is a 
complicated difficult procedure. We may be dealing with as many 
as 20,000 different mayors in a space of 18 working days. That 
is 1,000 a day which are saying, Oh, we think there are more 
people here, and we do not know for certain how in the world we 
would be able to deal with that in that time frame.
    Now, the thing that we would be giving them in the post-
census local review is exactly the same address list that we 
would have been giving them that we had ready on April 1. That 
is the one that we created with them. We put in place in 
response to our 1990 experience a very detailed local 
engagement with jurisdictions. Over 86 percent of the addresses 
of the United States have not been part of that program. I have 
a whole file here of all of the things that we are doing with 
that procedure. This is our address reengineering strategy. So 
it is not as if we did not hear the experience of 1990 and 
create a system that would give us the best address file, using 
the input of local jurisdictional leaders, mayors, county 
superintendents, tribal government chairmen and so forth.
    Now, if what we are going to give them is the same address 
list that we have already done, there is not much to be gained 
except a complicated procedure late in the census stage. The 
reasons for not doing it, I simply go back to what I said 
before. We decided not to do that prior to the Supreme Court 
decision. It has nothing to do with that--it was a decision--
125,000 people added in 1990 and what everyone experienced, 
including the Director of the Census, Barbara Bryant, who 
testified before Mr. Miller's committee on the fact that it 
simply did not work very well, it wasn't a very effective 
procedure; put in place a better one. We have now put in place 
a better one with your support and it is support we very much 
appreciate.
    Mr. Rogers. Does anyone else have any questions they would 
like to bring up? Mr. Serrano, you are recognized.

                       clarification of comments

    Mr. Serrano. Thank you, Mr. Chairman. Mr. Chairman, I have 
a couple of questions. First, Mr. Chairman, however in the most 
diplomatic way I feel compelled just to make a brief comment on 
Mr. Kolbe's comments about my previous comments. I am sorry he 
is not here. Obviously he felt that my comments were not true. 
He must have not been, and I am pretty sure was not, involved 
in the maneuvering at that time.
    But, I think we need a historical perspective, Mr. 
Chairman, of what it was I was talking about. I was talking 
about a period of time when the meanness level on the House 
floor rose to an all-time high. It was the time when 
appropriation bills, if you recall, Mr. Chairman, would go to 
the floor and people would try to amend them, saying unless you 
could come up with a green card, you would not get any disaster 
aid during a flood or an earthquake. It was the highest moment 
for the U.S. English movement. It was the highest point for 
everything from trying to do away with congressional districts 
represented by African Americans to all kinds of other bashing 
on the House floor. And with that historical perspective in 
mind, I can understand why some people felt that the least 
thing we wanted to deal with was counting people who were 
precisely the people we were bashing. So that became part of 
that behavior at that time.
    With that in mind that, I bring it up. I have no doubt in 
my mind that some folks, who are no longer here, and maybe some 
who are still here want certain people counted because it is 
right against everything they were doing at that time.

                         census of puerto rico

    I do have, Dr. Prewitt, some issues to discuss with you 
too, very brief ones. One of the issues I have been working on 
many years now is to try to include the 4 million American 
citizens who live in Puerto Rico in our census count. I realize 
that the constitutional mandate is to count people within the 
States and that is clear. But the Constitution did not 
envision, when it was written, American citizens living in 
territories or in places other than States. I think it is 
proper, not only for this discussion but for other discussions, 
to maybe revisit and reanalyze and reinterpret what the 
Constitution says.
    Now, I understand that the census this time will include a 
count from Puerto Rico. I would like you to tell me what the 
count will look like in terms of what it will be used for, how 
it will appear, and will those figures be used for any national 
figures? For instance, the most important national figure for 
me is when the census says there are whatever, 25, 30 million 
Hispanics in this country, will there be an asterisk for the 
other 4 million or will that 4 million be added to the 25 or 
whatever? When the census says Americans own 1.3 TV sets per 
household, it is probably 7.9 but--you know, 9.3 pairs of 
shoes, whatever, will that include the figures from Puerto 
Rico? What will those figures be used for and how far can you 
take them?
    Mr. Prewitt. Congressman Serrano, the good news about 2000, 
it is the first census where the form, the census form is 
identical in Puerto Rico and the mainland. That is extremely 
important because when you are tabulating data, if you have got 
a different form for Puerto Rico or for the islands than you 
have for the 50 States plus the district, it is very, very 
difficult to kind of coordinate those in a way that you can 
tabulate them in the way that you are suggesting. So the most 
important thing to say is the 2000 Census in Puerto Rico will 
be conducted with exactly the same form.
    Now, with respect to tabulation. We will be tabulating on 
most of--we are tabulating lots and lots of different ways for 
different kinds of purposes, of course, but the core 
tabulations will have 50 States, the District, Puerto Rico; 
that is, anyone who wants to see the Puerto Rico count as part 
of the larger count, it will be there for most of the 
tabulation purposes.
    Now, when you ask the question how many television sets are 
there per household, that data would be available--see, that 
would be the decision of the statistical agency, not the 
Bureau. We will provide those data in such a way that if they 
want to incorporate Puerto Rico into it, they can. And many, 
many statistical agencies will do so.
    When you ask the rather specific question of whether the 
actual count of Hispanics in the United States after the year 
2000, when we are reporting that data for the 50 States, it 
will exclude Puerto Rico. It just has to, because that is what 
we are obligated to do. It will take a change in the law to 
allow us to change that. But for other purposes where we are 
simply saying, for example, how many Hispanic citizens are 
there, we then could include Puerto Rico into that count. So it 
simply depends on the terms of the tabulation and they will 
differ from one purpose to another as they do now.
    Mr. Serrano. Now, in the past, they conducted their own 
census?
    Mr. Prewitt. We did it for them, but with the census form 
that they preferred to use that was different from the standard 
form, but we conducted it.
    Mr. Serrano. Are they the same employees and the same 
folks?
    Mr. Prewitt. Yes, all the same procedures will be used in 
Puerto Rico as in the other States.
    Mr. Serrano. So you are clear on that, then, the law tells 
you to count only if the question was how many Hispanic--how 
many American citizens of Hispanic origin are out there, then 
you can----
    Mr. Prewitt. That would be legitimate.

                          IMMIGRATION CONCERNS

    Mr. Serrano. One last point, Dr. Prewitt, and I thank you 
for your testimony today and for sitting and watching some 
other dialogue, started by me. In the 1980 census, people like 
myself almost got a heart attack when the Catholic Church--and 
I will say my church so no one thinks I am attacking the 
church--said we can't guarantee that Immigration will not come 
looking for people who are here undocumented, and get counted 
in the census, and that became an incredible issue. Let me 
preface my comments by saying that illegal immigration is an 
issue that we are all concerned about and no one is in favor of 
illegal immigration. But your job is to count whoever is here, 
not to get into the issue of whether they are here legally or 
not.
    Have there been any conversations with the Immigration 
Department? Is there anything you can tell me that you hear? 
Are you going to do a good job and count people and then get 
them raided by the Immigration Department because you did such 
a good job? What are we talking about here? Has there been any 
conversation taking place around this issue?
    Mr. Prewitt. Yes, there have in two or three different 
respects. I will be quick. The Census Bureau takes 
confidentiality very, very important. It is as important as 
accuracy because if we ever lost our pledge of confidentiality 
to the American public, the census would actually begin to get 
into serious trouble. We understand that. We go to jail before 
we release any confidential information. So the commitment that 
we have to confidentiality is absolute and strong.
    However, making people believe that is a different task. 
And so first with respect to the INS issue, we obviously have 
made representations to INS and other people who have done this 
on our behalf, urging INS to suspend any raids during the 
census period. So there is no kind of confusion. We have reason 
to believe that will happen.
    Secondly, we have worked with GSA who is finding all of our 
office space. We will have to open up nearly 500 local offices 
or site more than 500 local offices, and we have asked even if 
we are in a Federal building never to be on the same floor, 
never to be adjacent to, to be separate as from IRS and INS as 
possible for exactly these reasons. And that happens, you know. 
GSA has got its problems.
    Mr. Serrano. The wish of many Members of Congress, too.
    Mr. Prewitt. Mr. Kolbe has left. I had a very unfortunate 
experience in Tucson which I do have to report. I went to 
Tucson for a town meeting. I was making a very strong 
confidentiality pitch and then from the audience someone stood 
up and said, Dr. Prewitt, are you aware that you just opened 
the local office here in Tucson? I said, Yes we are aware. We 
are very proud and so forth and so on. They said, Do you know 
that it was in a space that was just vacated by the INS and 
that they have given you the same phone numbers that INS had? 
We were out of there in 24 hours. So we feel very strongly 
about that.
    Now, to the question of how can we get aliens who we are 
obligated constitutionally to count to cooperate, we have as 
part of our partnership program worked very closely with the 
Catholic Church. We know that if a Catholic church or the 
schoolteacher or the local community leaders say yes, you can 
trust this, it is important, then it will help. We can't make 
people believe it very easily.
    We are, finally, a Federal bureaucracy. So we are doing 
everything we can to work with the kinds of organizations which 
can convince those parts of our population that these data will 
be confidential. And we are reasonably confident that there is 
going to be a lot of help on that score.
    Mr. Serrano. Just one last point then. I intend, in the 
most undercounted district in the Nation, to play a role in two 
languages, if I don't pick up a third soon, to get people to be 
counted. From your viewpoint now, I am not asking for a 
commitment because you can't give me that commitment--you think 
I would be pretty safe in telling people you are not going to 
run into any other problems related to the census or during the 
census count? That is another issue. You will deal with that 
issue tomorrow or next Wednesday. However, during the census 
count, during this important--I can assure you that you are 
standing up and being counted is not going to cause you other 
problems?
    Mr. Prewitt. I can just repeat that we will go to jail 
first before we will do anything that will jeopardize any 
citizen or non-citizen because of their response to the census 
form. It is important to remember that we don't ask citizen and 
non-citizen. We don't ask status. We don't even know what kind 
of documentation anyone has. It is not part of the census 
record.
    Mr. Serrano. Thank you, Dr. Prewitt.

                     POLITICAL ASPECT OF THE CENSUS

    Mr. Dixon. Thank you, Mr. Chairman. I will try to be brief. 
I want to thank you for your, what I think, fine testimony and 
good responses to the questions here. But I also want to say 
that I don't think that you are personally sensitive enough to 
what is going on here. I would liken it to a medical physician 
and a science practitioner trying to talk about a method of 
treating a patient. You are coming with a scientific background 
and trying to demonstrate an appropriate way to conduct a 
census. We are politicians. For you it is a scientific 
endeavor. For us it is a political endeavor. And I think, 
Doctor, you have to understand that on both sides of the aisle.
    There have been references to the White House. I have a 
document that I could relate to or make reference to from Jim 
Nicholson that clearly spells out that it is a political issue 
for Republicans. All of us understand that. It is their job to 
attack your credibility and you must understand that, too. 
Snake oil. They are predisposed to what would happen on the 
enumeration issue and the Constitution and the Supreme Court. I 
personally would guess that Dr. Miller is torn between his 
science and his politics. So he is not going to agree with you. 
You cannot appeal to him on the professional level, in my 
opinion, because we are going to treat this as a political 
issue and you have got to get that.
    Now, I say all that to say that in my view, I think that 
you should keep the lowest profile possible. Don't give them or 
me any target to shoot at. And that was a preamble to the fact 
that you don't have a dollar amount. Anything that they can 
beat up on to attack your credibility are arrows in their 
armor. And so when you say that you are going to have a number 
next spring--you give them ammunition. So my question to you is 
with all of the science that you have at your disposal, I know 
that you want to be as accurate as possible. Can you be more 
specific? Don't give them opportunities to attack your 
credibility. And I say that with respect because we all would 
agree, if we were to take a lie detector test, this is 
political on both sides. This is political. This has got 
nothing to do with the best count. The Chairman of the 
Republican Party says this is about adding 4\1/2\ million 
Democrats. It is a reasonable assumption that Latinos and 
African Americans will be Democrats, but they say at stake here 
is their GOP majority in the House of Representatives as well 
as partisan control of State legislatures nationwide.
    So you have got to keep to your science and keep your head 
down, and don't delay about this number. Since you were 
appointed by a Democratic administration, it is a war and they 
have to attack you. So don't give them more to attack you with.
    Now, can you state or can you provide a letter to the 
committee at some reasonable time as to when we might have a 
number? At least give us a month; you know, spring is a long 
time. Now, I personally am on your side because I think the 
science supports you. However, I am here to say that, 10 years 
from now, some other Democrat may be taking the other side. I 
just want you to realize that for you it is science; for us it 
is politics.
    Mr. Prewitt. Thank you, Congressman.
    Mr. Rogers. Go ahead and answer the question.
    Mr. Prewitt. I heard a slight inflection in his voice at 
the very end.
    Mr. Serrano. He has a way with words.

                      TIMEFRAME OF THE CENSUS PLAN

    Mr. Prewitt. The particular question has to do with whether 
we can provide you, this committee----
    Mr. Dixon. A more narrow----
    Mr. Prewitt [continuing]. A better timeframe. And I think 
we can do that. As I would go back to what I said to Chairman 
Rogers, we really want that number to be the last number that 
we have to talk to you about.
    Mr. Dixon. I understand.
    Mr. Prewitt. We want to scrub and scrub and say this is it. 
This is where we are going to be and that is part of the thing 
that makes it difficult to give you a precise date.
    I think that----
    Mr. Dixon. Doctor, you are very precise. I wasn't asking 
for precise.
    Mr. Prewitt. I appreciate that. No, I think I understand, 
and I will do everything I can to be responsive to your 
request, which is a letter to this committee specifying the 
more specific time frame within which we can provide----
    Mr. Dixon. The month, the month.
    Mr. Prewitt. The budget numbers.
    Mr. Serrano. Pick a month of 31 days.
    Mr. Prewitt. With respect to your other comment, if I may 
respond quickly, the----
    Mr. Dixon. And one of the things I noticed here--it is not 
offensive, but it just isn't in the real world when you say, 
``while availability of revised estimates of the schedule may 
not be ideal for the appropriation process.'' This is the game, 
you know, but you kind of discard it. Well, maybe it isn't to 
your convenience, but we want to be precise. The game is up 
here and on the floor and in the Senate.
    Mr. Prewitt. That is very useful. I appreciate the comment. 
And I, as I did say earlier in response to the Chairman's 
comments, that we also don't want to put the committee in the 
awkward position of working with a number, and then we then 
have to come back a few weeks later and say we hadn't finished 
all of our work, it is not the right number. It could be up or 
it could be down.
    So I seriously appreciate when Chairman Rogers asked 
earlier whether I was bothered--I am bothered by the fact that 
we cannot give you an accurate number today, but I would be 
more bothered to give you an inaccurate number and then later 
to give you an accurate number. That would bother me more 
seriously. So that is what we are trying to do.
    Mr. Dixon. But Doctor, the longer you delay the number, the 
louder the volume on this.
    Mr. Prewitt. Correct.
    Mr. Dixon. Do you need more people to get the number, more 
supercomputers? I understand its not like baking a cake, it is 
going to take more than 3 hours. Are you applying enough 
manpower and technology to this problem to get the number? 
Because the longer you delay, the more we are going to take 
that and exploit it. You don't have to respond.
    Mr. Prewitt. Let the record show that I heard the 
statement.
    Mr. Miller. Mr. Chairman, could I make one comment?
    Mr. Rogers. Very briefly.
    Mr. Miller. I just want to respond to one thing that Mr. 
Dixon was saying and that is the science versus the politics. 
There is no question there is a lot of politics. But on the 
science issue, you can make the argument that the large 
aggregated level as State level, sampling can be effective. But 
when you get to census block, I think there is a real division. 
When you are only talking about 50 people on a block and there 
are 6 or 7 million blocks, there is a legitimate debate by 
scientists, by statisticians, that this is not the most 
accurate data. And when you do redistricting, as you know, you 
work with census blocks. So I think we can talk about politics, 
there is for question on both sides, but there is legitimate 
debate for redistricting purposes. Block data has a serious 
problem.
    Thank you, Mr. Chairman.
    Mr. Rogers. Dr. Prewitt, we thank you for your testimony 
and your fortitude in sitting there in the face of this. You 
have a hot potato here. That may be news to you, but the thing 
that I want--and this is not politics. We are in the process of 
putting together a bill to fund all of these agencies for the 
year 2000, not to mention dealing with the June 15th, 1999 
date, and we simply can't operate until we have a number to 
plug in. The full Committee can't divide up the big pie to the 
Subcommittees, not knowing what we are dealing with here, 
because this can be up to a $5 billion item we are talking 
about here. And as they say in the Bronx, that ain't hay.
    Mr. Prewitt. Even in eastern Connecticut, or Kentucky.
    Mr. Serrano. Next time we say ``hay'' in the Bronx, I will 
call you up.
    Mr. Rogers. So we are looking for a number, and the sooner 
the better. And as I say, whether some people take that as 
politics or not, if the Supreme Court had refused to give us a 
number about their budget, I would be screaming at them just as 
I am screaming at you. I don't care who it is. If you are not 
giving us the numbers so that we can do our job, I am going to 
scream at you. And whether you call that politics or whatever, 
it doesn't matter to me. I want your numbers. And I think the 
Census Bureau has been lax in this, and it raises suspicions.
    You have got to understand where this side is coming from, 
as I indicated a moment ago. We don't trust this Administration 
to do things--we think they are political in everything, 
because we have been burned too many times now, in matters 
unrelated to the census. And where they are asking for 
discretion in matters that we consider as important as an 
accurate census, we are suspicious. It doesn't mean it is so, 
it just means we are suspicious and looking for evidence that 
there is manipulation.
    That is sort of what is motivating all of this. We have 
been burned before on things like the INS with Citizenship USA, 
and a number of other things. So we are suspicious and we are 
looking for evidence that this is being manipulated as they 
manipulated citizenship in the United States of America. So 
that is where we are coming from, Mr. Dixon.
    Mr. Dixon. Oh, I understand that.
    Mr. Rogers. So when you say I can't give you a figure at 
this late date, and the Secretary of Commerce has told me the 
same, not because you didn't have it, but because on high they 
had told him that he couldn't release it, that raises some 
hackles, raises some suspicions. And so we are suspicious. And 
until you bring us the number immediately so that we can do our 
work, as everyone else has, we are going to remain suspicious.
    I don't mean to impugn your integrity. I don't think your 
integrity is in question here. I don't think anyone would do 
that.
    Mr. Dixon. No, Mr. Chairman.
    Mr. Rogers. But I am nervous about the possibilities of 
manipulation of this census that all of us, I think, are 
determined not to let happen; on both sides, I think.
    Mr. Dixon. Right. I did not use the word ``integrity,'' nor 
do I suggest that anybody's integrity is questioned. But it is 
clear, as the Chairman says, that your credibility as at issue 
here, and I just want you to get that.
    Mr. Rogers. Well, thank you very much for your testimony, 
and we will look forward to talking with you again soon.
    The hearing is adjourned.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 15, 1999.

            NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

                               WITNESSES

DR. D. JAMES BAKER, UNDER SECRETARY FOR OCEANS AND ATMOSPHERE
SCOTT B. GUDES, DEPUTY UNDER SECRETARY
PAUL F. ROBERTS, CHIEF FINANCIAL OFFICER/CHIEF ADMINISTRATIVE OFFICER

                            Opening Remarks

    Mr. Rogers. The committee will be in order.
    We are pleased to welcome you to our final hearing--out of 
23 hearings, this is the last one of this fiscal year. We are 
pleased to welcome Dr. James Baker, the Under Secretary for 
Oceans and Atmosphere in the Department of Commerce, and his 
associates. He is appearing on behalf of the programs in the 
2000 budget request of the National Oceanic and Atmospheric 
Administration, a small agency buried in the Department of 
Commerce. They only have about 60 percent of the entire budget.
    This year the NOAA budget request presents a very ambitious 
agenda, proposing a total funding level of $2.5 billion, an 
increase of $280 million over fiscal year 1999, as well as 
advance appropriations totaling $5.4 billion extending through 
the year 2018.
    They say that timing is everything, and, Dr. Baker, your 
timing is such that you are presenting one of your most 
ambitious budgets ever at a time when the annual spending caps 
are at their tightest ever. So the job ahead of us, you and us, 
is to tailor the needs that you will be speaking on to the 
budget realities that we are facing. It would be helpful if we 
had your assistance and that budget scrutiny that we will have 
to engage to try to fit an oversize foot into an undersize 
shoe.
    Let me say before I introduce you to present your testimony 
that we have been joined on the subcommittee by a new member of 
the subcommittee, Jose Serrano, who is new to the subcommittee 
and is new ranking member of the subcommittee. And I have told 
him privately--I have not said it publicly--that it is a 
daunting task that he has undertaken because this subcommittee 
covers such a broad spectrum with a lot of intricate programs 
and hundreds of agencies, literally, in three Departments of 
the Government and all of the Federal courts, as well as a 
great host of independent agencies like FCC and SEC and FTC--
ABC and CBS. And he has handled himself very well. He has 
studied. He has attended every hearing, and he has had probing 
questions of all the witnesses that we have had here. You will 
see during the course of the hearing that he will be equally as 
probing on your agency.
    So, Mr. Serrano, let me thank you for the work you are 
doing to quickly get up to speed on a very complicated agenda.
    Mr. Serrano. I thank you, Mr. Chairman, for those kind 
words. I must tell you that the staff that you always see 
behind me, to my left, in my office, and staff in the committee 
and the support I have gotten from your staff and the 10,000 
binders that were given to me in the last month or so have made 
it possible, and I thank you for the opportunity to have been 
an equal partner. And I look forward, as we continue to put 
this bill together, to the kind of a situation where, 
notwithstanding that one issue that divides this House, on 
everything else we will have a very joyous occasion on the 
House floor.
    Let me say that I want to welcome Dr. Baker, and in line 
with what you just said, Mr. Chairman, I was amazed at the 
multitude of responsibilities that NOAA covers, and I will 
comment on that later. But I am looking forward to your 
testimony and looking forward to joining the chairman in making 
sure that you continue to do the work that you have to do.
    Mr. Rogers. Dr. Baker, we will make your written statement 
a part of the record, and if you would like to summarize it 
briefly, we would be pleased to hear from you.
    Dr. Baker. Yes, sir. Thank you.

                                overview

    As you said, we have a large increase proposed this year, a 
12.5 percent increase. We believe that the budget that we have 
laid on the table demonstrates our commitment to meeting our 
responsibilities for investing in and maintaining the 
infrastructure for the services that we deliver to the public.
    This request addresses increased data acquisitions needs 
through the replacement of a fishing research vessel and 
increased days at sea with the University-National 
Oceanographic Laboratory System; provides for increased 
supercomputing capacity requirements for better weather and 
climate modeling; recurring costs for replacing facilities; 
pay-related and inflationary cost increases; replacement of 
outdated observing systems; and providing a broader and more 
diverse pool of potential employees by establishing educational 
training relationships through a joint partnership with a 
consortium of Historically Black Colleges and Universities.
    As we have discussed, Mr. Chairman, the NOAA budget is 
predicated on the need to ensure continued delivery of 
essential science, technology, and services to the Nation. We 
have a number of departmental, interagency, congressional, and 
Presidential initiatives that we are addressing, including the 
Lands Legacy Initiative, an Oceans 2000 activity, the Natural 
Disaster Reduction Initiative, and the Climate in the 21st 
Century Initiative.
    Let me just say a word or two about each of those.
    On the ocean and coastal side, we recognize that one-third 
of the United States GDP and one-half of the Nation's jobs are 
produced in the coastal zone. This initiative that we have will 
increase the protection, restoration, and sustainable use of 
the Nation's ocean and coastal resources.
    In terms of Lands Legacy, we recognize that economic and 
environmental well-being that we derive from natural resources 
are essential to make these diverse areas valuable to the 
Nation. We recognize escalating losses and degradation of 
coastal wetlands, fisheries habitat, and coral reef ecosystems 
are issues that we have to address.
    We have identified $105 million of new funding for targeted 
investments to expand protection of ocean and coastal areas, 
restore habitat, provide states and coastal communities with 
the tools and resources for economically sustainable smart 
growth as outlined in this Lands Legacy Initiative.
    In terms of the ocean side, we had last year, 1998, the 
Year of the Ocean, and we have in our budget $78 million in new 
funding to promote better navigation, providing that 
information out to marine transport, better understand the role 
of oceans in shaping weather and climate, provide for increased 
fisheries data collection capacity, stock assessments, and 
fishery conservation, and developing a commercially viable 
domestic marine aquaculture industry.
    We are also involved in resource protection under our 
responsibilities under the Marine Mammal Protection Act and the 
Endangered Species Act, an area that is growing for us. We are 
committed to preventing extinction of marine species that are 
at risk and in restoring their habitat and ecosystems through 
greater public involvement in conservation planning, creating 
incentives for landowners and states to protect species and 
their habitat, and entering into long-term conservation plans 
with landowners. We think this is one of the real successes we 
have had in the last couple of years, developing joint plans 
with the private sector and with private landowners to find 
ways to protect endangered species.
    We have in this budget $130 million aimed at endangered 
species, including $100 million for a Pacific Coastal Salmon 
Recovery account that will bolster salmon recovery through 
improving Federal conservation activities and building state, 
local, and tribal partnerships to share the limited resources 
that we have while improving the scientific information that we 
need to recover the salmon.
    We will also aim these funds at leatherback and loggerhead 
turtles, Hawaiian monk seals, and North Atlantic right whales, 
all of which are under our jurisdiction.
    We continue to address issues in South Florida as we have 
$5.1 million to address the South Florida Everglades 
restoration effort, and we already have some very good 
accomplishments in that area as the State of Florida begins to 
replumb so that freshwater once again flows through the 
Everglades.
    We have $22 million to support the administration's Clean 
Water Initiative, addressing general issues of both point 
source and nonpoint source pollution, and also looking at 
issues of harmful algal blooms, which today we estimate are 
causing something like $1 billion a year in economic losses.
    On the atmospheric side, we continue to push for our 
Natural Disaster Reduction Initiative. We request a net 
increase of $42 million for that Natural Disaster Reduction 
Initiative. The next stage, working with the Economic 
Development Administration, the National Institute of Standards 
and Technology, with the United States Geological Survey, and 
with FEMA for an end-to-end strategy of better building 
standards, better forecasts, and better delivery of information 
when we have natural disasters.
    We include in this the completion of the modernization of 
the Weather Service, and I am pleased to say that we will have 
the final deployment of our Advanced Weather Interactive 
Processing System by the end of June of this year, thus 
completing the modernization of the Weather Service once we 
have finished the closure of the offices.
    We have, just one example, doubled the warning time for 
tornadoes from 1993 to 1998. This will allow us to continue the 
very effective activities that we have in the Weather Service.
    We have a variety of other activities on the weather side 
that will provide us some new capabilities there. We can talk 
about those in more detail.
    Then, finally, on Climate in the 21st Century, we recognize 
that we have been very successful in forecasting not just 
short-term weather but the El Nino and somewhat longer term 
climate. We are looking at ways that we can do a better job of 
extending our weather forecasts so that farmers, public power 
utilities, and the private sector will have this ability to get 
new information. Right now weather information is being used by 
the public and by the private sector. There is a whole new area 
of weather derivatives on Wall Street that is a $2.5 billion 
market. That builds on the information that is developed from 
our scientific agency, and it is important that we do the best 
job of providing that.
    We are also looking to do a better job of observing and 
monitoring both the ocean and the land as we try to provide the 
best scientific understanding for the changes that are taking 
place in the long term on the planet.
    In conclusion, Mr. Chairman, I want to say that our 2000 
budget builds on the progress we have made with the assistance 
of this committee and support from the Congress over the years. 
We believe that our environmental stewardship and assessment 
methods are essential to the Nation's economic health. We are 
trying to focus our efforts on what matters to the American 
people. We have many partnerships in place, and we hope we can 
develop those further.
    Thank you for the opportunity to be here, and we would be 
happy to answer questions and discuss any of these things 
further.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rogers. Thank you, Dr. Baker.
    We have a little bit of a scheduling problem. Chairman 
Regula has a hearing waiting on him in his own subcommittee, 
and by unanimous consent, I would hope we would let him have a 
few minutes here at the outset so he can go back to his regular 
chores.
    Mr. Regula.
    Mr. Regula. Thank you very much. Thank you.

                         jason project funding

    Dr. Baker, just a couple of questions. I understand you had 
asked OMB in your request to put JASON funding in and that was 
rejected. Do you have any idea why?
    Dr. Baker. I am sorry to say I don't know why, and I am 
also sorry to say they didn't include that funding because we 
think it is a very important part of what we do. We welcomed 
the congressional help last year, and we continue to try to 
make it work.
    Mr. Regula. I have had some experience with it with our 
local high schools, and it is a very good project.
    Dr. Baker. We would like to see that effort expanded.
    Mr. Regula. Very good. Thank you.

                        lands legacy initiative

    I am a little confused on the Lands Legacy because that 
gets into the Interior Subcommittee jurisdiction. I notice that 
you would be getting some money for dredging and restoration, 
coastal zone management, marine sanctuaries, et cetera.
    If that is accomplished, you will acquire new lands. Who 
manages those new lands? Normally they would fall under the 
Department of Interior. If you have funding to do this, do you 
become the player in the coastal zone management as opposed to 
Interior?
    Dr. Baker. Yes, sir. I think there are two aspects of the 
Lands Legacy program. One is there is a set of issues that we 
thought were critical issues that have to be addressed, for 
example, providing additional assistance in the management of 
our marine sanctuaries. We have 12 marine sanctuaries. They are 
very thinly covered in terms of management. We are looking to 
do a better job. This is something that each of the states has 
asked us to do, and $15 million, for example, in that fund is--
--
    Mr. Regula. That comes out of land and water conservation 
funds.
    Dr. Baker. Yes, sir.
    Mr. Regula. Which normally is within the Interior 
Department's jurisdiction.
    Dr. Baker. The other piece of this is the President and OMB 
decided how they would fund this activity, and it was their 
decision that they thought that monies from receipts from the 
Outer Continental Shelf Lands Act, which is a Land and Water 
Conservation Fund, would be an appropriate funding mechanism 
for that. It is my understanding that as OMB has looked at 
that, it was their view that this would be an appropriate 
funding mechanism for NOAA to operate, although that had not 
been the case in the past. It had been strictly Interior and 
Agriculture through the Forest Service.
    I think our view has been these are important programs to 
get done. We think that they should be funded or we should 
negotiate what the numbers are to be funded. We are not wedded 
to that fund for doing the job. We think it is important to do 
it, but as we understand it from OMB, they think this is an 
appropriate way to fund it.
    Mr. Regula. Well, I understand from OMB there isn't really 
any money there. It is one of those bookkeeping transactions. 
It looks like there is money, but it is not there. It is being 
used for a lot of other things. They probably saw this as an 
opportunity to fund your activities in the marine area. So I 
guess we will have to resolve this issue.

                        protected marine species

    The other question I have--and I don't know quite where the 
disconnect is--the United States Geological Service (USGS) 
budget has a decrease of $3.5 million in habitat protection, 
and at the same time you get a $2.6 million increase in 
protected species baseline funding.
    I don't know if there is a rationale for that. Why drop 
USGS--and they have primary responsibility--and yet give you 
additional money?
    Dr. Baker. If this is the protected species area----
    Mr. Regula. Yes, it is.
    Dr. Baker. We have a different responsibility from the USGS 
in that we protect marine species. We have a different set of 
species that we protect. I cannot speak to why the USGS funding 
declined, but----
    Mr. Regula. So you are saying that it is totally two 
different sets of species.
    Dr. Baker. In terms of protected species. Yes, we separate 
out those. They do a certain set. We do primarily marine. They 
do a couple of species, do both marine and freshwater, but our 
job is protecting marine species, only saltwater.
    Mr. Regula. As far as you know, there is no overlap then?
    Dr. Baker. There is no overlap in the species that we 
protect, yes, sir.
    Mr. Regula. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rogers. Would the gentleman yield?
    Mr. Regula. Yes.

                    land and water conservation fund

    Mr. Rogers. Does the gentleman consider that the Interior 
Appropriations Subcommittee has exclusive jurisdiction over the 
land and water conservation fund?
    Mr. Regula. I am not sure. I suspect it does, but I would 
have to go check the statute that created it. Historically, it 
has always been an area of responsibility in the Department of 
Interior, but I don't know--you probably are not certain 
either--what the statutory authority provides.
    Dr. Baker. Certainly that has been the case in the past. 
There is no question about that. And this would be a new use. 
In our reading of it, it seems to be broader than just those 
two agencies, but I think that is something that has to be 
worked out.
    Mr. Regula. We will check that, Mr. Chairman. Thank you.

                   national estuarine reserve system

    Mr. Gudes. You had asked who controls the property. In the 
Estuarine Reserve System, it is actually state property. It is 
run by the states. It helps support the states in operating 
properties.
    Mr. Regula. So you are responding to a state request.
    Mr. Gudes. Correct, the National Estuarine Reserve System 
is operated by the states. NOAA assists them, and actually it 
is an area where the Congress has been providing funding to 
increase buffer properties last year, and that is part of the 
purpose of what the money would be used for.
    Mr. Regula. In other words, this is a response to states 
asking you to take additional responsibilities.
    Mr. Gudes. Part of the initiative is.
    Dr. Baker. Yes. Requests for both marine sanctuaries and 
estuarine research reserves come from local communities who 
say: ``these are things that we would like to do.'' How can we 
do it within Federal guidelines? Then they make a proposal 
which we work with them on.
    Mr. Regula. Do states provide any of the money themselves 
for this work?
    Dr. Baker. Yes. In the case of National Estuarine Research 
Reserve, yes, half the funding comes from the states, and much 
of the staffing comes from states and state agencies.
    Mr. Regula. Thank you.

                      overall noaa budget request

    Mr. Rogers. Thank you for being here, Mr. Chairman.
    Now, let me talk to you briefly about the overall macro-
budget proposal. You are proposing about a $400 million 
increase, offset by about $120 million in decreases, mostly in 
programs supported by Members of Congress, as well as some 
supported by NOAA. That is a 13 percent increase, which is one 
of the largest increases in any agency's budget that we 
consider, at a time when the budget caps from 3 years ago are 
biting us the worst ever. We will have actually fewer dollars 
to spend this year than last year. So in order to get that kind 
of an increase, we would have to slash a lot of other people to 
find the money.
    CBO determined that the President's overall budget request 
was $30 billion above the spending caps that are in place for 
the fiscal year. So the subcommittees here will have to produce 
bills that live within those caps. We don't have the luxury of 
abandoning them unless the Congress determines that that is so.
    Within the Commerce Department, the original request for 
the 2000 census included a $1.7 billion increase. We don't have 
their revised request, but it is going to be substantially 
higher than that. So what we need from you most, I think, is 
your help in fitting your budget request into the realities 
that we have to live with.
    The first thing we need is for you to tell us which of the 
increases that you are requesting are absolutely required to 
allow NOAA to carry on its most vital life and safety functions 
in fiscal year 2000. Which and how much of your increases are 
``must do''?
    The second thing we are going to need is for you to 
prioritize your requested increases, take all of your increases 
and rank them in some priority order. You know, I would rather 
you do that than you make us do that. I think it would be 
better for the taxpayers if you, the experts, tell us which are 
more important than the others.
    Can you help us with that?
    Dr. Baker. Yes, sir. We do a strict study of priorities 
within our own agency, and we are prepared to sit with you and 
your staff and outline the things along the lines that you 
talked about.
    Mr. Rogers. I am sure everything you have asked for is good 
and legitimate and nice, and maybe in years when we have more 
money to deal with, we would be able to talk about them. But 
this year is not one of those years. It is going to be a real 
tough year to find the money to do what has to be done.

                             fee proposals

    Now, you are proposing in your request the enactment of $20 
million in fisheries fees and $14 million in navigation fees. 
Those are legislative proposals over which we have no 
jurisdiction and have not been even transmitted to the Congress 
yet. And if the past is any guide, they are unlikely to be 
enacted. And that would leave a $34 million hole in your 
request.
    Which of the proposed increases should we take off the 
table to make up for that $34 million hole that I am sure will 
be there?
    Dr. Baker. Mr. Chairman, I recognize and fully understand 
the issues with respect to fees, and I have had a very similar 
conversation with the Office of Management and Budget who every 
year, well, not only encourages this but pushes very hard to 
have such fees added, even though Congress has dictated to us--
they have made it very clear to us that certain fees are not 
acceptable to the Congress.
    I think this is an issue that we need to resolve so that we 
don't have to come back continually with this discussion. I 
agree with you in two ways. Number one, we very likely will 
have a hole in the budget, and, number two, we don't have 
agreement on the fee issue.
    I would like to find a process whereby we could see whether 
there are, in fact, some fees that could be added to the NOAA 
budget and that we could get agreement with the commercial 
sector, with the public, with the Congress, about how that 
could be done, and then see if there is some way we can get 
agreement on all sides that we will not come back and ask for 
fees which Congress has continually told us are not going to 
happen.
    I have seen legislation on the navigation fees. We have had 
the discussion on fish fees. The administration view continues 
to be that there are certain services where a smaller amount of 
the public benefits, and so they should pay fees for this. 
There are such fees in other parts of the Government. But 
unless we find a better process to deal with it, we will not be 
able to solve that problem, and we still have a hole in the 
budget.
    As I said, we are certainly willing to sit with you and 
work out how we can fill these holes which are likely to be 
there.
    Mr. Rogers. I don't think you have proposed these fees to 
OMB, did you?
    Dr. Baker. No, sir.
    Mr. Rogers. This is OMB's idea, these fees?
    Dr. Baker. It is OMB's idea, but it is an administration 
viewpoint that there are certain functions of the Government 
where the fees should be charged, and they look broadly across 
and add those to the budgets that come forward, and that is 
what we see. But as I said, we have been getting congressional 
direction now ever since I have been administrator that if we 
simply lay on the table fisheries fees, this is not going to 
work. And I would like--hopefully maybe next year I would ask 
OMB to have this discussion. We talked about it in the 
Department of Commerce. I hope next year we can come back and 
say we are trying to address this in a more sensible way.
    Mr. Rogers. As I have said in other hearings, I think we 
are going to have to bring OMB up here and sit them down beside 
you when you testify so that--I mean, it really irks me that we 
have you and other Department heads and agency heads that have 
to march up here and defend a budget you did not submit--that 
OMB thrust upon them. And they are not here to explain why they 
are doing these things. Some people down there are fresh out of 
college, perhaps, at OMB and don't understand the realities of 
life or the proper role of the executive and legislative 
branches. I think some of them need to go back to school.
    So next year, I think one way to solve this dilemma is for 
them to be here and face the music, like you have to, defending 
a budget that somebody else wrote. And it is unrealistic.
    Any thoughts about that?
    Dr. Baker. Somehow the fee issue has got to get addressed, 
I agree. And I think you need to get the parties to the table 
to discuss it. There are fees that are collected for entry into 
National Parks and so on. As we have gone back and tried to 
look at fees in NOAA, we have not come up with good proposals. 
That is not to say that we could not, but I think we have to 
have a better process.
    Mr. Rogers. Well, just go back and tell those people at OMB 
that gave you this fake budget that next year they are going to 
be here sitting beside you. Would you convey that to them?
    Dr. Baker. I would be happy to.
    Mr. Rogers. And tell me what they say. [Laughter.]

                          proposed rescission

    Now, the same thing is true of the $3.4 million rescission 
proposed out of prior year emergencies, which does not score as 
an offset against discretionary appropriations. We have got to 
fill that hole as well, while we are at it.
    Dr. Baker. Can you comment on that, Scott?
    Mr. Gudes. Mr. Chairman, the issue is that I think two 
years ago the Appropriations Committee did a reprogramming of 
balances in what we have called the pipeline. And these are the 
balances that were left over after the Congress redirected the 
funding.
    Mr. Rogers. No. These are 1992 emergency funds. But, 
anyway, we will talk----
    Mr. Gudes. I am sorry, sir. I don't know the answer to 
that.
    [Clerk's note.]--Subsequent to the hearing, the following 
information was provided:]

    The $3.4 million is the remainder of emergency supplemental 
funds provided for a grant to the Louisiana Department of 
Wildlife and Fisheries for shellfish and fishery habitat 
restoration in P.L. 102-368. These funds are no longer 
required.

    Mr. Rogers. You have got another $3.4 million hole that you 
have to fill.
    Now, when can we expect your proposals in view of these new 
facts about the lack of any fees that will be forthcoming and 
these other holes? When can we talk?
    Dr. Baker. Well, as soon as we finish the hearing, we are 
happy to start that discussion.

                    LAND AND WATER CONSERVATION FUND

    Mr. Rogers. Now, you also ask $105 million for a number of 
new programs out of the land and water conservation fund that 
Chairman Ralph Regula was talking to you about which come from 
offshore oil royalties. Unfortunately, I think for your request 
under the law, the allowable purposes of monies from the land 
and water conservation fund are for the National Park System, 
the National Forest System, and the National Wildlife Refuge 
System. And as Ralph Regula has said, the subcommittee with 
jurisdiction over that is Interior, not this subcommittee.
    In addition, the Secretary that is mentioned throughout the 
law establishing the fund is either the Secretary of the 
Interior or Agriculture, certainly not Commerce. And only 
Commerce is one that we have jurisdiction over.
    It appears that you have a major authorization problem for 
the $105 million Lands Legacy Initiative that you asked for 
from that fund, and so we are confused. Is this one of those 
OMB initiatives as well?
    Dr. Baker. No, Mr. Chairman. We submitted what we thought 
were responses to public needs for the NOAA programs, and then, 
in fact, it was OMB that proposed that this particular set of 
programs which we have on the table, the Marine Sanctuaries, 
Estuarine Research Reserves, certain work in the Coastal Zone 
Management Program, be funded from the Land and Water 
Conservation Fund.
    Now, as they reported to us, in their view, authorization, 
special authorization was not required for the Department of 
Commerce to use those funds. Although this has not happened in 
the past, to do this in the future was not precluded from the 
act.
    However, they thought that there might be questions about 
this in Congress, and so we have also transmitted legislation 
which we think would cover this issue. But as I said at the 
beginning, I think our view from NOAA is these are important 
programs. We would like to see them or some fraction of them 
funded because they meet needs. And if this funding mechanism 
is one that is not workable, we are certainly willing to try to 
find another way to do this.
    Mr. Rogers. Well, we have got another $105 million hole 
here. OMB is not batting too good today.

                      COASTAL ZONE MANAGEMENT ACT

    Now, within the Lands Legacy Initiative, you request $28 
million for community-based smart growth under Section 310 of 
the Coastal Zone Management Act. Unfortunately again for OMB, 
there is no authorization for activities under Section 310 of 
the CZMA, even if somehow non-matching grants to communities 
for a whole host of purposes could be considered technical 
assistance. There was a similar request for funding 2 years 
ago, which was not provided for the very same reason.
    Now, how are we going to handle that? Are you going to send 
up another reauthorization for the CZM Act to carry out what 
you are proposing here?
    Dr. Baker. Yes, sir. In fact, I understand we have sent up 
a proposal for reauthorization of the Coastal Zone Management 
Act, which would include Section 310.
    Mr. Rogers. If history is a guide, it will not pass, and so 
we are going to have another $28 million hole in your request. 
You don't want us to appropriate for something not authorized, 
do you?
    Mr. Gudes. Mr. Chairman, much of this bill isn't 
authorized. For the FBI, the Immigration Service, much of the 
rest of the Department of Commerce is not authorized.
    Mr. Rogers. But you are asking for a new program, or a new 
use.
    Dr. Baker. Well, it was an expansion of the 310, which has 
been one of the more popular programs in coastal zone 
management, the States' noncompetitive grants.
    Mr. Rogers. We fund things like the FBI under existing 
authority. This doesn't have that going for it. So we have got 
another problem here.
    I have a host of others, but I am going to yield to my 
colleague.
    Mr. Serrano. Thank you.
    As the chairman said, I came on this subcommittee for the 
first time, and I fell into the chair of the ranking member. 
And so I had to spend quite a bit of time just trying to learn 
different areas of this bill, and I must say that of all the 
areas, NOAA is the one that seems to be the most complicated 
because it covers so many things, from the atmosphere to the 
bottom of the ocean and everything in between. And I want you 
to help me in terms of the work that some of us have to do in 
our communities in just dealing with a lot of people.
    One of the complaints around here is that we approve and 
support too many things that too many members really have very 
little information about.
    So if you were to advise me on what to tell constituents of 
mine who wanted to know what is NOAA in 25 words or less and 
how it affects their life--I mean, they know about the Weather 
Service, but past that I don't think they really know NOAA. 
What would you tell me?

                            OVERVIEW OF NOAA

    Dr. Baker. Mr. Serrano, I appreciate that opportunity. As 
you say, the part of NOAA that affects everybody in the country 
is the Weather Service, and we have the best Weather Service in 
the world. We provide warnings and forecasts. As Jack Kelly 
says, we have a ``no surprises'' Weather Service that works so 
well and people tend not to think about it. But the nightly 
news provides that information.
    The Weather Service is not all that we do. We are very 
heavily engaged in community work that ranges from the private 
sector out to the private citizen as we do our oceans work. For 
example, the mapping and charting that we do is, in fact, the 
oldest part of NOAA, started in 1807, provides that information 
which is needed for 95 percent of the marine transport that 
comes into the country. So anybody who drives a car, eats a 
fish, or is engaged in any kind of thing that has international 
or even interstate commerce has been involved with some piece 
of NOAA. So we are providing that kind of information.
    The New York-New Jersey harbor, for example, depends 
critically on the basic information we provide on tides and 
currents for the big ships that come in, and we are trying to 
do a better job so the big ships don't go to Canada or to some 
other ports.
    We are also very much engaged in providing the science for 
natural hazards. As we see oil spills or spills of toxic 
substances, we provide the science to the Coast Guard and to 
EPA, which don't have the same capabilities that we have, so 
that we can do the right job of both protecting people and 
protecting the nursery habitats for fish.
    We are also very much engaged in the Coastal Zone 
Management Program where we have all states but one, in fact, 
that have coastlines, providing both in those areas what we 
call smart growth, growth that both protects the environment 
but also allows economic development, just as a joint state-
Federal program which has been very, very successful.
    We are also responsible for archiving and distributing all 
of the environmental data that the country uses as we look at 
these longer-term changes.
    So any citizen in any part of the country, but particularly 
in a coastal state, will be engaged with NOAA in many issues 
every day.
    Mr. Serrano. Now, there are many Members of Congress from 
districts that are surrounded--not surrounded but that touch on 
water in many ways, and I have often heard them question how 
you would be involved with them. What should I tell them?
    Dr. Baker. Well, any area that has marine connections is a 
place that NOAA is involved. And as I say, we provide 
monitoring and detection of the pollution that affects beaches. 
When communities want to develop along a coastal area to build 
new hotels or new developments, they need to meet environmental 
standards so that that is sustainably done. These environmental 
standards are developed under the Coastal Zone Management Act, 
as I say, which every coastal state, including New York, is a 
participant. So we are very much engaged in the economic growth 
of the country as we grow and make sure that we are protecting 
our environment.
    Mr. Gudes. I would just say that whether your constituents 
are in New York City, in the Bronx, or eastern Kentucky, or 
Florida, the work that this agency does is critically important 
to those people. Take hurricanes off of Florida. Take winter 
storms in New York. Our agency is the key agency that does 
forecasting to the public. Our agency is the agency that does 
climate forecasting for the public. This isn't a coastal issue; 
it isn't an interior issue. It is critically a life and safety 
issue, and it is our Weather Service and our satellites that 
provide that monitoring, that capability for the American 
public.
    Mr. Serrano. Thank you.

                      DREDGING IN NEW YORK HARBOR

    I also know that you work or will be working closely with 
the Corps of Engineers, for example, the Corps has identified 
highly contaminated sediments such as dioxin as a concern in 
the port of New York-New Jersey project. How will the proposed 
NOAA initiative impact the ongoing Corps work at the port? And, 
secondly, are they supportive of your request? Is this a joint 
effort that they are aware of?
    Dr. Baker. They are very much aware. In fact, the effort 
that we have in our initiative, in fact, was worked jointly 
with the Corps of Engineers. This comes from communities saying 
that we want to be involved in these dredging activities, both 
as we look at dredging to improve the port but also dredging 
that could help us either build some new areas or make sure 
that we don't destroy the wetlands.
    Now, on this particular New York issue, do we have any 
comment on that, Nancy? Nancy Foster is the Director of our 
National Ocean Service.
    Dr. Foster. We work very closely with the Corps of 
Engineers because we are the people that work with EPA on 
Superfund sites. So we have a great deal of expertise when it 
comes to the protection and restoration of habitats and living 
marine resources.
    So there is a piece of the Lands Legacy Initiative that 
deals with dredging. Since we have a concern for the 
environment and a concern for dredging ports and harbors, as 
you heard Jim say, the idea is that we bring our communities, 
local communities to the table early in the process with a view 
toward not getting these projects hung up at the very end and 
eliminating costly delays. And the Corps is very interested in 
this, as is the port of New York.

                   CORAL REEF RESTORATION INITIATIVE

    Mr. Serrano. I also noticed, Dr. Baker, that you have a new 
initiative. I don't have it handy how much you are asking, but 
it is a new initiative to deal with the issue of the severely 
injured coral reefs in several locations. Could you tell me 
something about that initiative, where they are located and 
what condition the reefs are in? And can we, in fact, restore 
them to some state that we could all be proud of?
    Dr. Baker. Yes, sir. This is an important aspect of our 
program that we have proposed. Ninety-five percent of the coral 
reefs are in the Pacific; 5 percent are in the Caribbean and 
around Florida and the Gulf of Mexico. But they are equally 
important to us because they affect the tourism and the 
business and the ecological systems that we deal with.
    We have $10 million in here primarily aimed at coral reef 
restoration, and as you know, recently there was a grounding 
off Mona Island in Puerto Rico in 1997 where coral was 
damaged--seven acres, in fact.
    We have new techniques for stabilizing and restoring the 
coral by gluing part of it back with special underwater 
concrete. We have ways of coming back and regrowing some of the 
coral.
    Something like 80 to 85 percent of our marine fish use 
coral reefs as a habitat during some part of their lives, so 
this is not just a tourist destination, but it is also very 
important for our offshore marine fishery industry. And we felt 
that restoring coral reefs, particularly those reefs which are 
damaged by boat groundings, bad mistakes in navigation and so 
on, are something that we needed to address. So that is the 
highest priority for us as we look at the coral reef issues.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Latham?

             Y2K COMPLIANCE OF THE NATIONAL WEATHER SERVICE

    Mr. Latham. Thank you, Mr. Chairman.
    As you know, in last year's bill, this committee directed 
the Department to certify that all the systems were year 2000 
compliant by April 1 of this year. However, as of the latest 
correspondence from the Department, it is not clear that the 
National Weather Service was certified as being compliant. 
Would you give us an update on what is going on?
    Dr. Baker. Yes, sir. We are very nearly Y2K compliant in 
all of our mission-critical systems. We provide quarterly 
reports, and we continually monitor about $6.2 million of the 
supplemental funding that we had requested is associated with 
our process to make sure that we can do that.
    We are very close now to being fully compliant in mission-
critical systems. Our big supercomputer has been made Y2K 
compliant, and we are now using the additional funding that we 
requested to make our non-mission-critical systems Y2K 
compliant.
    I think our experts are convinced that we will be fully 
compliant well in time for the end of the year.
    Mr. Gudes. I think the biggest issue that we have is our 
new Class VIII supercomputer, getting that installed. We are in 
the process of installing that in FB-4, Federal Building 4. It 
turned out that asbestos was in the flooring, and when the 
computer was put in, the floor moved. We started repairing the 
floor. Asbestos was found there. We have actually had a delay 
because of those environmental conditions in Suitland.
    I think the only other systems that we have some problems 
in, our research component, we have the Wind Profiler System. 
We are in the process of making that Y2K compliant. We did make 
it Y2K compliant, but it actually ended up inhibiting the 
ability of the system to do its mission. We had to go back and 
redesign that system. And I think we have one system in NOS, 
the Chart Distribution System, it will be Y2K compliant this 
summer.
    The other thing I should say, General Kelly is here. We 
have done a lot of work with the users on Y2K to ensure that 
the end-to-end system will work, so it is just not that NOAA 
ensures that we are Y2K compliant, but that the users are 
prepared. And the Weather Service and our satellite service 
both have done, I think, an outstanding job in that.
    Dr. Baker. I might say, one of the important things we 
discovered in terms of making sure that we can deliver weather 
services on January 1, 2000, is that it is not just the fact 
that our computers can work, but--the people can get the work; 
that if there is a power outage, we know how we are going to 
handle the power outages, and the other systems that can affect 
our internal systems. And so we have also been looking 
carefully at that, the end-to-end system, to make sure we 
really are delivering our products.
    Mr. Latham. That will be fully tested?
    Dr. Baker. We are in the process of doing that. We are 
doing it right now.
    General Kelly. We have actually done two end-to-end tests. 
The last one was about two weeks ago, with the FAA and a whole 
host of other users. We have tested our systems with their 
communications systems and were able to exchange information.

                           NOAA Weather Radio

    Mr. Latham. Still with the Weather Service, you have 
doubled the tornado warning lead times from 5 minutes to 11 
minutes. In my district, Fort Dodge, I have been waiting for a 
transmitter to be put in place since early last year. I know 
they have been working to resolve this, but the project has 
been delayed about three times. Could you give me an update on 
this?
    General Kelly. With the NOAA Weather Radio transmitter, we 
are having intense challenges with the manufacturer. We just 
went out for a demonstration. It did not work. The wheels are 
in motion.
    Mr. Latham. We just had 29 tornados in the state last week.
    General Kelly. Yes, sir. But the manufacturer has failed to 
produce a transmitter that works, so I am kind of reluctant to 
pay for it.
    Mr. Latham. That sounds rational. And thank you for being 
rational.

                          Seafood Inspections

    One thing I should ask about, being on the Agriculture 
Appropriations Subcommittee also, is the National Marine 
Fisheries role in inspecting seafood. The GAO has recommended 
that that duty be handled by one single agency like the Food 
Safety Inspection Service. Do you agree with the GAO? I mean, 
that is an agency whose goal is safe food. Would that be 
appropriate?
    Dr. Baker. Yes, in fact, we are planning to do a handoff of 
that. Do we have an answer on exactly where we are with that?
    It is in process.
    Mr. Latham. When do you expect it to be done?
    Dr. Baker. It is about to be transmitted, the proposal to 
do just that.
    Mr. Gudes. In terms of the quality testing of the shellfish 
and the seafood itself.
    Dr. Baker. So we have been working on it for several years.
    Mr. Latham. Do we have any idea when this will finally----
    Dr. Baker. Two weeks to get the proposal up here, and then 
depending on how we can make things happen, we will be pushing 
it. But this is something we want to do, absolutely.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

    The President's Budget for FY 2000 includes a provision to 
transfer the U.S. Department of Commerce voluntary Seafood 
Inspection Program from the National Oceanic and Atmospheric 
Administration (NOAA) to the Food and Drug Administration 
(FDA). The transfer of the existing Program to FDA, where it 
will continue to operate as a separate fee-for-service 
activity, will be accomplished as part of the Department of 
Health and Human Services/FDA appropriations process, if the 
Congress concurs. Separate legislation to establish the Program 
as a Performance Based Organization (PBO) and transfer it to 
FDA is anticipated in the near future. Although the program can 
function at FDA without PBO legislation, this legislation will 
be very beneficial in that it will provide a firm legislative 
foundation for the voluntary program to operate within FDA; 
establish a new management position, the Chief Operating 
Officer, to manage the program; and affect other operating 
efficiencies.
    Collocation of the two Federal seafood inspection 
activities at FDA makes good public policy sense. FDA is a food 
agency--Commerce is not. This reorganization also addresses 
confusion regarding who to talk to about Federal seafood 
inspection. FDA will continue to carry out its mandatory 
hazardous areas/critical control points (HACCP) seafood safety 
program, and the voluntary program will continue to offer its 
services through a separate organization--both within FDA.
    One probable benefit to the voluntary program's customers 
resulting from the transfer is expected to be reduced overhead 
costs for the program which will translate into lower future 
rates than would otherwise occur. FDA will also have the 
opportunity to eliminate redundant or overlapping inspections 
relative to the voluntary program's customers. By recognizing 
that these plants are already operating under Federal 
oversight, FDA can redirect valuable inspection resources to 
address other priority seafood or food safety needs. This will 
not add to the voluntary program's customers' costs but will 
result in more effective use of our Government's food safety 
resources.
    [Note: The legislation has not yet been transmitted.]

                           La Nina Situation

    Mr. Latham. Just one more question here, I guess, and this 
is an ``aggie'' question, in a sense. We have had El Nino, and 
normally as far as adverse conditions such as drought in the 
Midwest, La Nina is what normally is the bigger problem. Do you 
have any predictions or estimates of what we are going to see 
this year in the Midwest?
    Dr. Baker. Right now, the models all agree that we are 
going to have a continuing La Nina situation for at least the 
next 3 months, and normally all the models don't agree when we 
are looking at these long-term forecasts. But the fact that 
they do agree I think means we have a pretty robust forecast 
for that, so typical La Nina conditions there for this coming 3 
months. Three months is about as far forward as we can forecast 
at this point.
    The Pacific Ocean is cold at the moment, abnormally cold. 
It is staying that way. All of our information says it is going 
to continue that way.
    Mr. Latham. So the prediction in the Midwest, the normal La 
Nina would be drought?
    Dr. Baker. That is right.
    Mr. Latham. So we can hope for higher grain prices because 
of----
    Dr. Baker. I am not getting into that. [Laughter.]
    But there definitely is a connection.
    Mr. Latham. I know, and I think the chairman and I talked a 
lot about La Nina when we were over on our trip together.
    Dr. Baker. Mr. Latham, I should say that one of the things 
that we are trying to do is to improve that forecast because I 
think we saw the importance of doing an accurate El Nino and La 
Nina forecast over the past 2 years. And so one of the requests 
in our budget is to expand the observing system that we have in 
the Pacific Ocean so that we can, in fact, provide better 
information for these longer-term forecasts.
    Mr. Rogers. Thank you.
    Congresswoman Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.

                             dredging issue

    Coming from California I am acutely aware of the importance 
of our ports and the importance of trade. I would like to get 
back to the dredging issue where I understand that it has been 
estimated that you have to dredge about 400 cubic yards 
annually at our ports.
    Could you elaborate a little bit more on this proposal and 
how California will benefit, particularly the L.A. port, in 
light of the fact that we are building the Alameda corridor, 
which is intended to really allow for greater imports and 
exports in that area?
    Dr. Baker. Congresswoman Roybal, I grew up in Long Beach, 
California, and I watched it. When I was growing up, I watched 
the whole port slowly sink as they took away a lot and did not 
replace it with water. Fortunately, we are past that point now 
as we pump water back in and oil comes out.
    But we have been very much engaged in the dredging issues, 
both in the Los Angeles/Long Beach Harbor and also in the San 
Francisco Harbor because as I said it is important to those 
communities to make sure that we can continue to have big ships 
come in so that we can have the commerce that makes sense for 
us.
    One of the things that the communities have asked for, 
both, all around San Francisco Bay and in the Southern 
California area, is to find a way that we can both dredge, 
which is economically critical, but find a place to put the 
dredge spoils that make sense. They do not hurt the wetlands 
but they can allow communities to develop some more land or put 
it in a place that makes sense.
    And that is the proposal that we have in--I think it is $10 
million--in the Lands Legacy Initiative is to work with the 
Corps of Engineers to do that.
    We also will be establishing with the funds that we are 
requesting in this budget a new information system in the Long 
Beach/Los Angeles Harbor. It is called the PORTS, Physical 
Oceanographic Real Time System, because the big tankers that 
come in want to know what the tides and the currents and the 
winds are and they want to know it right now, in real time.
    And, so, we are putting in place such a system so they can 
get that information. This has proved very valuable in the four 
ports where we have it now. And the mariners love it.
    So, we are trying to address both the community concerns 
and the economic concerns with the new issues that we have on 
the table.
    Ms. Roybal-Allard. Now, I believe that up North, when you 
were dredging, you ran into some contamination problems. Is 
there some anticipation that the same thing could happen in Los 
Angeles and are you prepared to deal with that?
    Dr. Baker. Well, I think that it is pretty clear that we 
are going to have contamination problems because there is no 
port where you dredge where you do not have some contamination. 
It is a question of what it is, how you can deal with it.
    There is a huge DDT problem right off the Pales Verdes 
area.
    Mr. Gudes. Actually our program is not proposing to do the 
dredging, but rather work with communities in terms of 
effective, efficient use and environmental use of the dredge 
spoils. So, to be able to use dredge in ways that are creative. 
In Maryland, here, for example, Popular Island, where dredge 
spoil from the Chesapeake Bay is being used to restore those 
islands, which have eroded over the years and to be able to 
rebuild those islands.
    That is the concept.
    Ms. Roybal-Allard. What happens if it is contaminated 
though?
    Mr. Gudes. We are trying to find ways actually to be able 
to more effectively use contaminated spoils so that it can be 
used and be capped, I believe.
    Do you want to elaborate?
    Dr. Foster. That again is one of the uses of this Lands 
Legacy proposal. From the beginning it was to get the community 
and the concerned folks to the table so that you can decide 
based on all the experts, whether or not it is something that 
you could use. And if there is any way to treat it and what is 
the safest way to deal with it. And if not, then to select the 
safest disposal method so that people are comfortable with what 
is going to happen upfront.

                      noaa partnership with hbcus

    Ms. Roybal-Allard. I also noticed that on your budget 
proposal on page 4, you include a million dollars to establish 
an educational training relationship, a partnership with 
historically black colleges and universities.
    Could you elaborate a little bit on what you hope to 
accomplish through that and if, at any time, you intend to 
expand it, for example, into the Hispanic-Serving Institutions.
    Dr. Baker. Yes, we do. We are, in fact, looking at the 
moment to have an expansion of that program and we are talking 
to the various representatives of the Hispanic-Serving 
Institutions. It is our view that the work place in the 
Government should reflect the citizenry of the United States 
and, yet, it does not do that. It is very skewed in terms of 
minority representation.
    We believe that the environmental area is one that is 
exciting and interesting and we have been approached by these 
groups of colleges and universities saying is there a way that 
we could work with you to provide programs and infrastructure 
that would both help your scientific programs but also develop 
interesting ways for students to come up through the programs 
and then contribute either to your agency or in the rest of the 
work force.
    So, we have been closely working with the representatives 
of those institutions to find a way that we could do something 
that was relevant to our mission and, yet, could help build 
capacity in those institutions and we are jointly putting 
together a program to do that.
    Ms. Roybal-Allard. Are you doing anything, for example, at 
the high school level? At least trying to get information out 
to let them know that there is even----
    Mr. Gudes. Actually we----
    Ms. Roybal-Allard. By the time you get to college, if you 
have not taken the right classes----
    Dr. Baker. Yes, exactly. And we have two areas where we 
have been involved in lower than college institutions. And one 
is the GLOBE program where we have students in the early grades 
taking environmental measurements and then putting these 
measurements on the Internet. Maps are then made and the 
information is sent back to the schools.
    We use the information in our scientific determinations but 
it also helps the students get engaged in this process. That is 
the GLOBE program and there are over 2,000 schools involved in 
this program.
    And then we have also been very supportive of the JASON 
program which is a way of getting information out from 
underwater exploration out to schools through a National 
Geographic activity. And we would like to expand those things 
because that is a way of showing students what can be done and 
getting a good interaction back.
    Ms. Roybal-Allard. Could I get more information?
    Dr. Baker. Yes, I would be happy to send you some more 
information.
    Mr. Gudes. I also think that, you know, our activities are 
located through the country and in Chairman Rogers' district; 
the Weather Service Office works with local schools. That 
happens throughout the country. The Fisheries Service in 
Florida has adopted a Marine Science School, Madeira Beach High 
School, just North of St. Petersburg. And this is something 
that is ongoing all the time. Our hurricane pilots are out 
talking with students.
    I met with Cabriole High School in Longboat, California, 
when I was out there.
    Ms. Roybal-Allard. Well, maybe I can get something going in 
my area.
    Dr. Baker. And we also hire students during the summer, 
summer interns. This has been a very successful program. They 
can come in, see some of the exciting things that we do and 
then they can go back to their schools and get more engaged.
    Ms. Roybal-Allard. Well, if you could just provide me with 
some----
    Dr. Baker. Yes, we would be happy to do that.
    Ms. Roybal-Allard. More information.
    Thank you.
    Thank you, Mr. Chairman.

                       jurisdiction for dredging

    Mr. Rogers. Dr. Baker, the Corps of Engineers would be 
surprised, I think, to know that you are into the dredging of 
harbors business. And I think the EPA would be surprised that 
you are in the business of deciding what to do with the spoils 
out of those dredges.
    You have no jurisdiction for that.
    Dr. Baker. No, sir. And I did not mean to say that we are 
involved in dredging. But we are involved there in two areas. 
One is in mapping of areas that have been dredged in case there 
are changes in the shape of the ocean bottom because this is 
something that the big tankers are very interested in knowing. 
That is one area.
    And the second thing is in helping communities with 
scientific information to help communities decide what to do 
with dredged material. That was the basis of our----
    Mr. Rogers. Where does EPA fit into that? I thought that 
was what EPA was doing.
    Mr. Gudes. We actually do, at the National Ocean Service, 
work with EPA. In fact, we have individuals located in EPA's 
regional offices in damage assessment, in restoration, in 
hazardous materials, the oil spills are issues. And we actually 
now do consulting on some issues that are very similar.
    Mr. Rogers. I suggest you stick with your authorization and 
stay out of other people's business.
    We got enough hands in the pie.
    Mr. Gudes. Mr. Chairman, we are authorized to do those 
things.
    Mr. Rogers. Well, not these things.
    Mr. Gudes. We are authorized. We deal with these type of 
issues every day. In the case of the Prince William Sound with 
EPA, we were, Dave Kennedy, from the National Ocean Service, 
was probably the lead individual who worked on trying to deal 
with the restoration of those beaches in the Prince William 
Sound area.
    Dr. Baker. Part of the CERCLA authorization.
    Mr. Rogers. Well, Prince William Sound is different than 
the regular dredging process. That was a specific disaster 
relief.
    Mr. Gudes. I am sorry, Mr. Chairman, are you just talking 
specifically about dredging, only dredging? I thought you were 
talking about the whole----
    Mr. Rogers. The whole conversation you had with Ms. Roybal-
Allard was about what you are doing in dredging the harbors in 
California, which you have no responsibility nor money. The EPA 
deals with the hazardous deposits and so forth. You have a very 
limited authorization to deal with anything dealing with 
dredging. And I do not want this agency reaching out and trying 
to bring somebody else under your jurisdiction. We will not 
stand for it.
    Enough of that has gone on in NOAA already. And in this 
budget request, my gosh, you are proposing to seize the 
Interior Department. And there are other agencies that you are 
just sort of swallowing up if you have your way, and that just 
is not going to happen.
    Mr. Miller.

                     mote marine research facility

    Mr. Miller. Thank you, Mr. Chairman.
    I think I am the only cultural member of this Committee 
from the Gulf of Mexico.
    Mr. Latham. You have Puerto Rico. [Laughter.]
    Mr. Serrano. You have Long Island Sound.
    Mr. Miller. You have the coast, too?
    A couple of different things. This is my first year on this 
Committee also but prior to entering Congress I was on the 
Board of Mote Marine research facility. So, I am familiar with 
NOAA. My predecessor in Congress, Andy Ireland, took my job on 
the Mote Marine Board when I got elected to Congress, and we 
just switched jobs there.
    But you mentioned Bob Ballard and the JASON project and 
that is a really good program. It is one of the great ways that 
Mote Marine really excites young people. And Bob comes to 
Congress a lot and gives a little demonstration most years, 
too. So, that is the type of program that you need to get young 
people excited.
    So, you all provide direct support for that program?
    Dr. Baker. Yes, we do.
    Mr. Miller. Do you know how much?
    Dr. Baker. It is about $1.75 million.
    Mr. Miller. That is the type of thing that you need to get 
young people involved in science.
    Let me go quickly then. One area that is of interest to me 
is red tide. You all have done some research on this harmful 
algal bloom work and I know that Mote has done some of that 
work. Where do we stand on that issue as far as progress and 
funding levels? And it was authorized last year.
    Dr. Baker. Congressman Miller, this has been, I think, a 
very important issue. In fact, in my mind is one of the most 
important problems that is facing coastal states and the 
country is the fact that as we put new chemicals into the ocean 
we are changing the chemistry of the ocean. We are putting 
phosphorus and nitrogen and heavy metals out as non-point 
source pollution; it is changing the chemistry and it is 
changing the biology such that we are getting more and more 
toxic substances growing in the coastal areas.
    And we can show you maps and increasing trends of these. 
Red tides are one example. Brown tides, dead zones, all kinds 
of toxic substances, toxic animals, toxic plants that grow and 
they seem to be primarily more toxic than you would expect just 
for the number of nutrients that are there.
    In my view, the changing chemistry of the ocean leading to 
these toxic substances is a more important issue than the 
changing atmospheric issue that leads eventually to the change 
in climate.
    And I think it is something that we have to address. The 
NOAA role here is accurately monitoring, doing the science, 
finding out exactly how the chemistry is changing and trying to 
understand the biology and then providing that information out 
to communities.
    Right now, we have $11 million in our budget to do that. We 
will be looking to do more in that area because I think it is 
absolutely critical for communities to know what is the change 
in chemistry and how are the substances changing?
    This has a direct impact on fisheries, it has a direct 
impact on people using the beach. And as I said, it is not just 
toxic substances but it is also lack of oxygen that happens. We 
have this area the size of New Jersey in the Gulf of Mexico 
that is a dead zone because of all the chemicals and we are 
trying to understand the extent of that, the science of it, so 
we can learn how best to deal with it.
    Mr. Miller. How much of that do you do as in-house research 
versus, you know, external?
    Dr. Baker. I think approximately 72% of this is external. 
And as we propose programs we are trying very hard to do this 
work outside with the university community which is critical. 
And there is some private sector involvement also.
    Mr. Miller. Is there a bias toward the university 
performing this research? What about labs such as Mote Marine 
that are not affiliated with a university?
    Dr. Baker. Actually Mote Marine is a great lab. And I have 
known the directors and been involved in their activities. They 
do excellent work and have a good reputation.
    Mr. Miller. But it is not a university.
    Dr. Baker. The way we run our programs it is a competitive 
procurement.
    Mr. Miller. It is funded significantly below the authorized 
level. Is that because the authorized level was too high or is 
it not a high priority?
    Dr. Baker. Mote Marine?
    Mr. Miller. No, no. The issue of----
    Mr. Gudes. The blooms are funded under several programs in 
NOAA, the Coastal Ocean Program, the Sea Grant Program, and 
then some of our NOS laboratories we do the work in Charleston, 
South Carolina, for example, is a lab that works on the toxic 
substances.
    Mr. Miller. Let me switch to another thing. I guess Mote 
Marine gets involved with sharks and what is happening in that 
area of research. And I guess NOAA is taking a more active role 
on these migratory marine fishes.
    Dr. Baker. Absolutely.
    Mr. Miller. Like shark and tuna, et cetera.
    And Mote has been doing some of that work.
    Dr. Baker. They have been doing some of that work.
    Mr. Miller. And, you know, enhancing some of those stock 
because there has been a perception that younger kids go out 
and go shark fishing.
    Dr. Baker. Sharks are a real interesting example of a 
problem that we face. They are long-lived and they are being 
heavily fished these days. There is a lot of finning of sharks. 
To understand their basic biology of sharks, their life-cycle, 
the recoupment of sharks is something that is important. And 
Mote Marine has a long history of good work here. We have a 
competitive shark program I believe.
    And Mote participates in that but I do not know more 
details beyond that.
    Any other comments about the shark program?
    Dr. Rosenberg. Mote Marine Lab does actually receive 
funding for us to work in the history of sharks. They have also 
hosted several stock assessment and working group meetings with 
bringing in outside experts to work on the status of shark 
resources.
    So, they have been intimately involved in the process of 
developing this science.
    Mr. Rogers. You need to identify yourself.
    Dr. Rosenberg. I am Andrew Rosenberg and I am the Deputy 
Assistant Administrator for the National Marine Fisheries 
Service.
    Mr. Miller. The Shark Research Center that is designated 
somehow or another.
    Are you getting a new ship?

                       fisheries research vessels

    Dr. Baker. We are proposing a new fisheries research vessel 
in the budget to replace, to start the replacement of some of 
our 30 to 35-year old ships.
    Mr. Miller. Is this something that GAO and some others have 
questioned whether you should be in that business directly or 
whether you should be contracting that out rather than owning 
and running these ships?
    Dr. Baker. Yes. We have had a continuing discussion with 
both the GAO and the Inspector General in the Department of 
Commerce about the role of Government-owned versus outside 
capabilities for ships. And since I became the Administrator we 
have drastically changed the ratio of in-house versus outside 
facilities.
    Today we are doing more than half the work that we do in 
mapping and charting is contracted out. And we are moving in 
that direction in research and we are looking at ways that we 
can maximize both our use of outside contractors as well as 
having in-house expertise.
    Our plan is that at the moment that this ship would be 
built with Federal funds and we are planning to operate the 
first ship Federally but the other ships which are in the 
outyears, we are still open to determining how that might be 
done. And we are looking at potential university consortia or 
private sector consortia to operate those.
    Mr. Miller. But the decision was made that you are going to 
build your own ships?
    Dr. Baker. For this particular ship. I think that overall 
the mix of NOAA ships when I came in the plan was to build and 
operate a Federal fleet of 30 Federal ships. With the help of 
this Committee, the GAO, the Inspector General and others, we 
have drastically changed that mix. We are moving closer to a 
50/50, inside/outside mix of the way we operate vessels.
    Mr. Miller. How many ships do you have?
    Dr. Baker. We will have a fleet of 15 ships that we are 
currently operating.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Miller. What size?
    Dr. Baker. Well, they range from 270 feet all the way down 
to about 70, I think, in that 15.
    Dr. Rosenberg. The shortest which is about 100 or something 
like that.
    Mr. Miller. I look forward to learning more about the 
entire NOAA because I have heard a lot about it. One Federal 
facility I have in my district--and I have very little Federal 
involvement--is the Weather Service Office. Because I visited 
the facility a couple of years ago, in Ruskin, Florida, and it 
is not a large operation. But I have been there and it is an 
impressive facility. But that is the only Federal facility I 
have that is in my district.
    But I look forward to learning more about it.
    Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Wamp?
    Mr. Wamp. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. I, too, appreciate the National 
Weather Service and the cooperation we have there, Congressman 
Cramer and I, on the kind of emergency location there. And it 
has served us extremely well since it was put into action, 
placed into action, and I am positive that it saved lives since 
it was put into operation.

                            invasive species

    But today I want to ask about the invasive species issue. 
It is very germane to the Tennessee Valley in that there are 
probably two dozen known invasive species that are a major 
environmental problem to us. And we have a chair of excellence 
at the University of Tennessee, David Simberloff, who is one of 
the experts in our country on this particular issue.
    I just wanted briefly to go through how you coordinate with 
USGS and Interior agencies. I am also on the Interior 
Subcommittee and so this cuts both ways for me here on this 
particular problem of invasive species.
    Dr. Baker. Well, we coordinate very well with the 
Department of Interior on this. In fact, we co-chair the 
Aquatic Nuisance Species Task Force, which is one that the 
President established by Executive Order this past year.
    Bruce Babbitt and I co-chair that and that is our 
responsibility in aquatic species. And we are working very 
hard. I do not have the numbers on what we are spending on 
that. Do we have a basic species number?
    Mr. Gudes. No.
    Dr. Baker. But this is something that is a very high 
priority for us. The President has established an Executive 
Order and we are looking at a whole series of things from Zebra 
mussels to green crabs in California and the Pacific Northwest 
and a variety of other things that have an impact. It is 
something that we take very seriously and we have full 
coordination since we co-chair that task force.
    Mr. Wamp. And I realize that it is still relatively new. 
The American people do not fully understand it. And I hope they 
will understand what a great environmental threat it is but 
with respect to the aquatic side of this double-edged problem 
it seems to me like great or maybe a greater emphasis is placed 
on ports versus inland watersheds. And I just wondered where 
the greatest threats are and what is being done specifically in 
watersheds like the river systems in the Tennessee Valley 
region with respect to invasive species there? We have 
problems, obviously, but I know a lot of attention goes to the 
ports.
    Dr. Baker. Well, ports are important. The NOAA 
responsibility is both for the coastline and for the Great 
Lakes. And, of course, the Zebra mussel, which is one of the 
most invasive species that we have, started in the Great Lakes. 
And, so, we have been doing for a long time research on trying 
to understand the life cycle and the issues that are associated 
with the growth of the Zebra mussel, which is now extending out 
over most of the watershed in the Eastern part of the United 
States.
    It has not quite made it across the Rocky Mountains yet but 
it is still covering most of that part of the United States. 
So, this is something that we are very engaged with and that is 
probably the biggest effort that we have, I think, the Zebra 
mussel effort. And, so, that is one that really is not just a 
port issue, but it is very much a waterways issue also.
    Mr. Wamp. As I see your Lands Legacy pop up in half a dozen 
places, is the Lands Legacy part of that issue directed at 
invasive species?
    Dr. Baker. The invasive species request is about $1 million 
and that is separate from Lands Legacy. I do not believe that 
is included. We do not have a piece of Lands Legacy here. We 
have $1 million proposed for invasive species this year. And 
does that include the current funding on the Zebra mussels that 
we have, which must be in addition to that?
    Mr. Gudes. The Zebra mussels is about $2.8 million.
    Dr. Baker. Most of our expenditures are directly out to the 
states on the aquatic nuisance species.
    Mr. Gudes. And the Great Lakes Environmental Research 
Program.
    Mr. Wamp. One of the minor points of paranoia that exists 
on our side of the aisle here with Lands Legacy is that with 
this many different agencies cooperating who is the umbrella 
agency overall of Lands Legacy? It seems that one of the fears 
is that this is a way to take the issue of climate change or 
global warming or both and try to, through Lands Legacy, spread 
out the forces and maybe even enact some of the Kyoto 
recommendations without ratification by the Senate.
    And I raise that issue just because I see you all as the 
probable umbrella agency. Is that the direction that we are 
headed?
    Dr. Baker. No, sir.
    There is no connection with what we have proposed under the 
Lands Legacy program and the issues of global climate change or 
Kyoto compliance. The issues which we have addressed under 
Lands Legacy are the issues of coastal zone management, marine 
sanctuaries, National Estuarian Research reserves, which are 
strictly local and regional land management issues, which 
communities have asked to be involved with. It is in no way 
connected with the global change or Kyoto compliance issues.
    Mr. Wamp. So, you could say that had Kyoto would not even 
come up, we would still be doing your portion of Lands Legacy 
in their entirety just as good environmental solutions?
    Dr. Baker. Absolutely. In fact, the issues which are on the 
table for the Lands Legacy program were on the table when I 
first came in as administrator in 1993.
    Mr. Wamp. And they are not related to climate change?
    Dr. Baker. Absolutely not.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.

                     salmon restoration activities

    Now, let me get back to the budget. You asked for a new 
$100 million grant program for West Coast States, Washington, 
California, Oregon, related to salmon restoration activities.
    You have indicated that the authorization for that program 
is in Section 6 of the Endangered Species Act. That section 
does provide for financial assistance to States. It authorizes 
appropriations from the Cooperative Endangered Species 
Conservation Fund in the Department of the Interior.
    It does not authorize appropriations of general account 
monies, as you propose in your budget. Is that yours or is that 
OMB?
    Dr. Baker. Well, we believe that we have authorization for 
this. Let me ask our general counsel if she has a comment on 
that fund.
    Ms. Medina, this is authorization for the salmon fund.
    Ms. Medina. Yes. We have an authorization under the 
Endangered Species Act under Section 6, and under the general 
purposes of the statute to recover these species.
    Mr. Rogers. It authorizes appropriations only out of the 
Cooperative Endangered Species Conservation Fund, which is in 
the Department of the Interior.
    Ms. Medina. I believe we have cooperative agreements with 
states in place now, Mr. Chairman, and our authority derives 
from this portion of the Act and the Secretary, as defined in 
the Act, is both the Commerce Secretary and the Interior 
Secretary.
    But perhaps you should have a legal discussion of the 
authority that is in the Act.
    Mr. Rogers. We will have a staff discussion of this but I 
think that is in the Department of the Interior.
    Ms. Medina. We would be happy to discuss it with you 
further.
    Dr. Baker. We should look at it in more detail.
    Mr. Rogers. You can discuss it but I suggest that you read 
the statute first. Nevertheless, it is the Chair's opinion that 
it is in the Department of the Interior.
    Until you can prove to me otherwise, that is the way that 
we are going to interpret it.
    That is an indication that other agencies, such as 
Interior, are given the predominant role by statute with 
respect to the Endangered Species Act, as it should be. And I 
have to tell you that this agency is reaching out and grabbing 
other people's jurisdictions. And I do not know what is driving 
that, Dr. Baker. You are not that kind of person.
    Dr. Baker. But we have responsibility for marine species 
under the Endangered Species Act. And salmon are defined as our 
responsibility there. It is a joint responsibility depending on 
exactly where the salmon are. But that is a definition in the 
Act that NOAA is responsible for the marine species and we have 
separated out those species so we do not have overlap on it.
    Mr. Rogers. I understand that but you are using a fund in 
the Department of the Interior which by statute you cannot use.
    Dr. Baker. I guess our view is that the funding can be used 
by NOAA but we are certainly willing to have this discussion 
with you as soon as possible and I understand your point there.
    Mr. Rogers. All right. In any case, the Endangered Species 
Act as a whole is going to require reauthorization.
    Dr. Baker. Yes, sir.
    Mr. Rogers. Will the Administration be proposing 
legislation to increase NOAA's role and to authorize a general 
appropriation of monies to carry out Section 6?
    Dr. Baker. Certainly as we have gone forward in discussions 
about reauthorization of the Endangered Species Act, we have 
not planned, as my understanding, to change the NOAA role with 
respect to what species we are responsible for.
    Mr. Rogers. Well, at any rate, here is another $100 million 
of your budget that, in my opinion, is not authorized.

                          fleet modernization

    Now, back to the new fishing boat that Mr. Wamp or, I 
think, Mr. Miller discussed with you.
    Dr. Baker. Yes, sir.
    Mr. Rogers. You are asking for $52 million for a new ship. 
As you know, GAO remains concerned about whether NOAA is 
aggressively pursuing the most cost-effective alternatives for 
acquiring marine data. And, in fact, they label it as one of 
four major performance and management issues facing the 
department.
    On February 24th, GAO indicated they did not know whether 
NOAA's proposed replacement ship was the most cost-effective 
alternative currently available because it had not had a chance 
to review the latest studies of NOAA's fleet modernization 
efforts or its acquisition plan for its fisheries research 
mission.
    Tell us whether the purchase of a fisheries ship is the 
most cost-effective alternative; what examinations were made of 
the cost of the different alternatives; and, what your long-
term fleet plan is?
    Dr. Baker. Yes, sir.
    We have carefully looked at this question of, as we need 
new seagoing capabilities, whether we should do this in-house, 
whether we should do this with a private sector providing ships 
and the capacities to do this. And we have continuous reviews 
of the cost-effectiveness of this plan.
    And, as I said when I came in, we had a fleet of 30 
Federally-owned ships, today we are down to 15. And we are 
always looking at new ways of doing things.
    As we looked at the fisheries issue the big problem that 
the fishery management faces is stock assessment. The kind of 
stock assessment that we need to do needs to be done with 
acoustically quiet vessels. There are no such vessels available 
in the private sector today.
    And, so, we have gone out to try to find out how we can 
best get such a vessel. We have focused our fleet replacement 
on this particular area of the fleet which is the fisheries 
stock assessment whether than any other part of the fleet. And 
we did have an independent review done by a consultant, Craig 
Dorman, who had worked for the Navy and he is very familiar 
with this. We would be happy to provide that independent review 
and we would be happy to have GAO take a look at this once 
again.
    [Clerk's note.--Subsequent to the hearing, the following 
was provided:]

    A copy of the Dorman report as well as a copy of the NOAA 
Fisheries Data Acquisition Plan is attached.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Dr. Baker. But we do feel that this is the most cost-
effective way to do a job which we do not see being done any 
other way.
    Mr. Rogers. We would like to see the evaluation.
    Well, in summary, as we look at your budget request, you 
have got a lot of problems. We have got $38 million in fee and 
rescission gimmicks. We have $205 million in new programs for 
which authorization is lacking. We have got $52 million per 
ship acquisition where there appears to be no consensus among 
the agencies that are overseeing those plans.
    So, in total, there is nearly $300 million that is 
problematic right at the outset here. I do not know how you 
want to try to remedy those problems. But the time frame is 
very short.
    Dr. Baker. Yes, sir.
    Mr. Rogers. We have got to have some movement within the 
next month or so or else it goes out of our hands. So, I think 
our work is cut out for us.

                                 awips

    Now, let us get back to one of our favorite subjects, 
AWIPS--Advanced Weather Interactive Processing System.
    Where are we with respect to the June deployment deadline 
and the $550 million cap?
    Dr. Baker. We will finish deployment by the end of June 
under the $550 million cap at the build number. That is the 
capacity's that we have agreed to build 4.2, that were fully on 
track with either meeting or exceeding that deadline, doing 
that early.
    Mr. Rogers. Any hitches?
    Dr. Baker. None. There are no hitches that we currently 
have and every AWIPS system that has gone in has worked. The 
system has been very successful and we are pleased with the 
development there.
    Mr. Rogers. Is the software okay?
    Dr. Baker. Software is okay. And our software upgrades have 
continued to work.
    General Kelly. We certainly have some challenges but we 
have met the alpha versions. I am Jack Kelly, Director of the 
National Weather Service. We have alpha versions of the 
software out in a number of the forecast offices right now of 
4.2. So, we have had some challenges but we have met every one 
of those challenges.
    Mr. Rogers. Under budget?
    General Kelly. Within that budget.
    Mr. Rogers. That is the first good answer I have had all 
day. [Laughter.]
    Dr. Baker. That is why we brought in General Kelly. 
[Laughter.]
    To solve these problems.
    Mr. Rogers. What impact will deployment have on the 
operation of forecast offices, and on weather prediction from 
the perspective of someone just watching the evening news?
    Dr. Baker. Well, you have already seen, Mr. Chairman, the 
improvement in the lead time of tornadoes. The reduction of 
false alarms, a great improvement in the land fall of 
hurricanes, for example.
    All of this comes because we have a better observing system 
with NEXRAD, because we have better satellites with our GOES 
satellite and because our communication and software system is 
pulling it altogether. This is a system that works. Every piece 
of it has worked and we finally got the costs under control 
with the AWIPS.
    So, I think we really have delivered. But what you see on 
the nightly news is this nice combination of new data, better 
forecasts, a better basic forecast delivered out to the private 
sector and then some of these wonderful graphics which they do, 
and you can see the improvements there directly.
    Mr. Rogers. So, all of the installations will be in place 
by the deadline?
    Dr. Baker. We will have 119 in place and then there are two 
more that the Secretary has agreed to. Well, no. As of March 
31st we have 119. That is what my note is saying here. This is 
Jack Kelly, Director of the Weather Service.
    General Kelly. We will have the baseline systems in by 30 
June. The two new forecast offices, Caribu, Maine and Key West, 
Florida are above the baseline and will be installed in July.
    Dr. Baker. Those are two additional systems.
    Mr. Rogers. That is absolutely complete.
    Mr. Gudes. In terms of the hardware and the actual first 
4.2 software.
    Dr. Baker. At that point, we will not have closed all of 
the offices that we plan to close. Our current plan is to close 
all of the offices on the schedule by the end of this year. If, 
in fact, some of those offices are not closed or there is an 
agreement that we have to have additional offices then, of 
course, we would not have finished the system. But the system, 
as designed and planned today, is there.
    Mr. Rogers. Now, that is at Build 4.2.
    Dr. Baker. Yes, sir.
    Mr. Rogers. On Build 5, in the budget, you ask for an 
increase of $17 million for what is called systems evolution. 
Apparently the completion date has slipped, though, is that 
correct?
    Dr. Baker. Yes. Build 5 allows us to, I think, reduce by 
another 69 people. But I do not know about the slip. Jack 
Kelly, Director of the Weather Service.
    Mr. Rogers. What is the completion date of Build 5?
    General Kelly. We have money proposed in this budget and we 
will have another $9.5 million we would hope in the 2001 
budget. So, we believe it will take us about two years to 
develop Build 5.
    Mr. Rogers. What is your completion date?
    General Kelly. Two years from the start of the next fiscal 
year.
    Mr. Rogers. So, October of 2001?
    Dr. Baker. By October of 2002.
    Mr. Rogers. Tell us what Build 5 will do for us?
    General Kelly. It will do a number of things. Number one, 
it will bring on some software that has already been tested 
which will further improve our accuracy to detect tornadoes and 
severe thunderstorms. And further lengthening the lead time of 
the tornadoes and severe thunderstorms. And also we do 
something that we call false alarm rate which is frankly the 
number of times a day something is going to happen and it does 
not happen. So, our forecasts will be more accurate.
    It will give us the ability to control a number of radars. 
A simple forecaster can control a number of radars and there is 
a certain amount of manpower savings associated with that, 
about 69 manpower spaces.
    Mr. Rogers. And what will be the estimated total cost of 
development?
    General Kelly. That will be $25 million.
    Mr. Rogers. How necessary is it if we move forward quickly 
with that upgrade?
    General Kelly. In my opinion it is important that we move 
as quickly as we can. Number one, it will improve the accuracy 
and lead times on the most severe forms of weather which cause 
our citizens to have their lives and property to get damaged in 
the severe thunderstorms and the tornadoes.
    It would be good to save our manpower spaces.
    Mr. Gudes. And I think the other issue, Mr. Chairman, is 
the actual people that we have building the software, the team 
we have together, both private sector, the NOAA laboratories, 
in both our office of Oceanic and Atmospheric Research and the 
Weather Service. We have that team together and we need to move 
to building the next set of software and it will be difficult 
to re-put that team together.
    Mr. Rogers. But when the 4.2 is in place, we can then 
declare that AWIPS is a success, because Build 5 is an enhanced 
capability, is that generally correct?
    Mr. Gudes. Build 5 was in the initial specs of what the 
functionality of the system was to do. Build 4.2 allows us to 
transfer from AFOS and I guess to use a department of Defense 
term, initial operational capability for the system.
    I think that is probably an accurate way to describe it.
    Mr. Rogers. But when 4.2 is working, we can shut the old 
systems down, can we not?
    Mr. Gudes. AFOS, yes, sir, that is right.
    Mr. Rogers. Now, is Build 5 the last major upgrade that is 
being planned at this point?
    General Kelly. Again, not to get into a question of 
semantics, but I do not know how to define the next to last 
major upgrade. One certainly listens to our users and attempts 
to put it in place systems to satisfy the requirements that 
they state. The science community continually develops new and 
better methods to forecast weather.
    AWIPS will be the platform that we will attempt to use that 
new technology so would we call that major? Certainly we are 
not talking about another $550 million program. But are we 
talking about small dollars to certain technology? We will 
always try to improve the services of the Weather Service.
    Mr. Rogers. Well, I think we can all celebrate when 4.2 
goes on line.
    We have been waiting patiently, expensively waiting.
    General Kelly. That makes two of us.

                               satellites

    Mr. Rogers. Now, I want to talk about satellites. You are 
asking $4.3 million this coming year and $18 million overall 
for a new satellite project. I think you call it ACE Follow-on 
GEOSTORM?
    Dr. Baker. Yes, sir.
    Mr. Rogers. And you are asking for a $30 million increase 
for the Polar Convergence Program, a system that will 
eventually cost over $3 billion. And you are asking for 
continued funding for the current Polar and geostationary 
weather satellites. The overall budget request for these 
systems amounts to over $550 million.
    First, tell us about the new satellite project. What the 
need for it is, what the schedule is, why you need it, and the 
actual deployment schedule?
    Dr. Baker. Yes, sir.
    This satellite is a joint effort between NOAA, the Air 
Force and NASA to provide warnings of solar outbursts, 
outbursts of geomagnetic particles from the sun. They can have 
major disruptive impacts on the energy grid in the United 
States. We currently have a satellite at a million miles from 
the earth where we pay a relatively small amount of money to 
make sure that the data is continuous.
    And this gives us a one-hour warning of such solar 
outbursts. A new program proposed is a satellite positioned two 
million miles from earth and it provides a two-hour warning for 
these solar outbursts.
    Every 11 years there is a major increase in the number of 
solar storms or sun spots and the last time we had this was in 
1989. There was a major power outage, several billion dollar 
impact in Canada. We can expect the same thing to happen during 
the year 2000 because we have another solar cycle with a 
maximum of solar storms. We have the system out there now at 
one million miles giving us a one-hour warning.
    This system is designed to give us a two-hour warning and 
as I say it is jointly sponsored by Air Force and NASA who also 
need this information both for astronauts and for communication 
satellites.
    Mr. Rogers. So, are you sharing it in thirds?
    Dr. Baker. No, the cost for the first Geostorm Satellite 
will be 25% from both NOAA and USAF and 50% from NASA.
    Mr. Rogers. And what kind of time table are you on for 
that?
    Dr. Baker. This, I believe, is like 2002, which is when 
this satellite would actually be flown.
    Mr. Rogers. Now, for the Polar Convergence Program the 
schedule has slipped, I think, at least a year to 2009, if I am 
not mistaken.
    Dr. Baker. We have adjusted the schedule to fit the 
lifetime of the satellites. We have done this, I hope, in very 
close consultation with the staff here and the staff at OMB and 
together our two agencies, Air Force and NOAA, so, that we are 
providing a cost-effective program with, I believe, first 
satellite availability in 2008, at this point.
    This, as you know, is a joint program that replaces the 
current older satellite program which involves 4 satellites. We 
are now going to 2 satellites instead of 4, with the set of 
instruments being flown by the Europeans. So, we think we have 
found a cost-effective way of replacing a very expensive 
system. It is expensive. I do not deny that. But it is a lot 
cheaper than what had been originally planned until we came in 
and did this convergence program.
    And we have tried to stay very much on top of the costs so 
that as we see satellites' lifetime growing, we have been able 
to adjust those costs and come in with what I think is the 
proper cost for this program.
    Mr. Rogers. I am told the launch would be 2009?
    Mr. Baker. Well, the availability, the first availability 
is 2008. And then if necessary we would launch in 2009. This is 
an operational system. You never know when a satellite is going 
to die. You have to have one available. We try not to make it 
available too soon, but I cannot give you an exact time and 
exactly when you would fly it because if the satellites are 
working fine we are going to hold that on the ground until we 
need to do it.
    But we try to adjust that to make the best cost-effective 
system.
    Mr. Rogers. But the development costs request is up by $30 
million over the current year's level, correct?
    Dr. Baker. That is the current funding profile that we have 
as we move into the mode of starting to build the satellites, 
we have to start spending more money.
    Mr. Rogers. What is the minimum level of funding that would 
be required to keep development on the time frame that you have 
articulated?
    Dr. Baker. This is the minimum. This is a number that we 
have very carefully vetted throughout the system. The only 
reason that one changes this number, as we have changed in the 
past, is the assessment of risk in the system for the length of 
life of the time of the satellites flying.
    We try to incorporate that into exactly what we should 
build and when we should build it. Remember, with an 
operational system, if a satellite dies, we must fly a 
replacement satellite, otherwise, there is no weather 
information.
    And, so, we are driven by that and we have to balance those 
two things. We have some very elaborate mathematical models 
that the Air Force has developed over the years for operational 
systems. We use those to make that decision.

                      operational systems priority

    Mr. Rogers. Now, we need you to give us your priorities 
with respect to the funding for the ongoing weather satellites 
versus increased funding for Polar Convergence versus funding 
for the new GEOSTORM System, in case we can't find all the 
money you would like.
    Dr. Baker. Well, certainly, we will always put the priority 
for the existing operational system and its continuation will 
always be the highest priority for us because that is our 
central responsibility I think.
    Mr. Rogers. What would come next?
    Dr. Baker. What?
    Mr. Rogers. What would come next?
    Dr. Baker. Then new things.
    Mr. Rogers. Which ones?
    Dr. Baker. The GEOSTORMS, for example, would come after 
that.
    Mr. Rogers. And then Polar Convergence?
    Dr. Baker. No. Well, we have to have the current system and 
the Polar Convergence because if we do not pay for those 
satellites today, they will not be ready in 2008. So this is a 
critical piece of our budget, and I will always put it right up 
at the top of our priorities, regardless of other programs.
    Mr. Rogers. So you would chuck everything else to get these 
three things.
    Dr. Baker. We have always said that providing the basic 
operational services of NOAA is our highest priority. 
Completing modernization of the Weather Service and base 
funding for Weather Service, and satellites that are necessary 
for the Weather Service are always at the top of our priority 
list.
    Mr. Rogers. Well, I sympathize with you somewhat because 
these satellites costs, I know, are subject to change, and 
things are out of your control, but we would like to be kept 
informed of the cost estimates, as we go along, so we can make 
our plans as well. So can you help us keep up with it?
    Dr. Baker. We can do it.

                    pacific coastal salmon recovery

    Mr. Rogers. On the proposal to create a new $100-million 
Pacific Coastal Salmon Fund, let me ask you a few basic 
questions and try to flesh out some of the very sketchy 
information that is in the budget request. What is the level of 
funding provided for all salmon programs in the current year 
budget?
    Dr. Baker. I am going to just check to see if we have a 
number for that for NOAA or for the Federal Government.
    [Pause.]
    Dr. Baker. Currently, Mr. Chairman, in NOAA, we are 
spending about $147 million on salmon, and we spend $373 
million on all other fisheries in our Fisheries Service. That 
is the breakout for the 2000 budget.
    Mr. Rogers. No, I am talking about 1999, for this current 
year.
    Mr. Baker. The 1999 number would be $100 million less, 
roughly. Do we have the 1999 number? We do not have the 1999 
number. We will provide that for you.
    Mr. Rogers. Provide that for us. I think it is in the $40- 
to $50 million range.
    Dr. Baker. That would be approximately right, I think.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rogers. And what is the level of funding provided for 
all salmon programs provided throughout the Federal Government 
for the current fiscal year, 1999?
    Dr. Baker. We can provide that number for you. I think it 
is--I have to be careful about not giving an incorrect number--
but it is at least half a billion dollars. We will provide that 
for you, Mr. Chairman, right away.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

    Response. At present, NOAA spends $69,590,000 on salmon in 
FY 1999 and proposes to spend $181,330,000 in FY 2000. We are 
also aware of estimates by the U.S. Fish and Wildlife Service 
in its annual report to Congress on ESA only-related 
expenditures. For FY 1995 the amount of total Federal funding 
for ESA-listed slamon was $118,626,170. For FY 1996, draft 
findings total $113,431,100. NOAA will work with the Office of 
Management and Budget to compile a consolidated amount. For 
example NOAA is aware that efforts of the Department of 
Agriculture, the Interior, the Environmental Protection Agency 
and Corps of Engineers affect and promote salmon recovery.

    Mr. Rogers. See, that is my point. No one knows what we are 
spending on salmon throughout the Government. There is no 
coordination of Governmentwide programs for coastal salmon runs 
and for the Columbia River Basin, I do not think, is there? If 
you do not know, nobody knows in NOAA.
    Now, you are also requesting an additional $23 million 
under the Endangered Species Program to, among other things, 
hire over 120 additional personnel for NOAA's Northwest 
Fisheries Office to handle the workload that will come from 
NOAA being a participant in just about any development project 
in that region that will now impact watersheds throughout the 
Northwest. Is that the full requirement of additional personnel 
that would be required by the salmon listings or is that just 
the first installment?
    Dr. Baker. Mr. Chairman, I think the experts who have 
looked at this, and there are many, cannot give you an answer 
to that question at the moment. As you know, we are spending a 
lot of money on salmon. We are getting very desperate requests 
from states, including the four states that we have listed 
here. There are other states that have endangered species of 
salmon. We know that to restore the salmon requires study of 
the habitats and the commercial fishery, recreational fishery, 
all of the different aspects that are involved. This could well 
be just a down payment on a larger program, and I think it is 
something that we all have to recognize and somehow come to 
grips with. It is a difficult problem.
    Mr. Rogers. Is this something that you requested of OMB, 
this $100 million?
    Dr. Baker. I am just trying to think of the chain here. We 
have continually requested of OMB additional funding to address 
salmon issues. We were approached by the states who said that 
they needed on the order of $300 million and we were able to 
come up, working with the administration, a number that was 
$100 million.
    Mr. Rogers. Well, but you requested zero. You had a zero 
request in to OMB for Pacific Coastal Salmon Recovery.
    Dr. Baker. In our original budget submission, yes, that is 
right. That is correct. Yes.
    Mr. Rogers. And it was added by OMB.
    Dr. Baker. Yes, but it was not added by OMB in opposition 
to something that we wanted to do. I think our view has always 
been you need to do more here. So this is something that--it 
was certainly not without our blessing. Let me put it that way.
    Mr. Rogers. It must not be too important to you then.
    Dr. Baker. Well----
    Mr. Rogers. You did not ask for it.
    Dr. Baker. Sometimes things are important, but we think 
politically it is not going to happen with our interactions 
with the administration. I think the salmon problem is a 
particularly difficult one.
    Mr. Rogers. Give me a break. You did not ask for it. It is 
not important to you. It was added by the OMB. That is a simple 
answer, yes or no?
    Dr. Baker. I do not think I would say that, and I do not 
like to disagree with you, Mr. Chairman. But in this case, we 
all recognize that the salmon problem is a huge problem. It 
needs to be addressed. It is important appropriations, and when 
the administration said they felt that they could come up with 
additional funding, we supported that point of view. Sometimes 
OMB takes away or adds things that we do not think are 
appropriate. But in this case, we did not think this was an 
inappropriate thing to do. And had we thought that there was an 
opportunity to add $100 million to our budget for salmon, we 
would have put it in, in the first place.
    Mr. Rogers. Well, should we take the $100 million for 
salmon out of the Geostorm Satellite Program, do you think?
    Dr. Baker. As I said, we are certainly willing to talk to 
you about priorities and how we work the budget. But this is a 
very important topic.
    Mr. Rogers. General Kelly, is that okay? [Laughter.]
    General Kelly. If it is okay with him.
    Mr. Rogers. If it is okay with you. If you give the okay, 
we are in business here. [Laughter.]
    General Kelly. I have to defer to my boss.

                      coastal salmon recovery plan

    Mr. Rogers. Is there an overall recovery plan in place for 
coastal salmon?
    Dr. Baker. We have a recovery plan which is a plan in 
progress. This is something that we work on continually.
    Mr. Rogers. I will take that as a no.
    Dr. Baker. Well, I think it is wrong to say there is no 
plan. We have been working on recovery efforts for a long time, 
and we have the pieces of a plan in place.
    Mr. Rogers. I am going to ask you----
    Dr. Baker. Whether that plan will recover the salmon, I 
cannot answer.
    Mr. Rogers. I am going to ask you what I asked the Census 
director. Where is your plan? Let me see your plan.
    Dr. Baker. Well, we can lay a plan on the table for salmon 
recovery.
    Mr. Rogers. Where is it?
    Dr. Baker. Well, we have that. It is what we are working to 
between NOAA, and the states and the Department of Interior. We 
are working on all of the different areas, and we can show you 
that plan. We have that plan.
    Mr. Rogers. I would like to see it.
    Dr. Baker. We can provide it.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rogers. Now, will you provide for us a list of the 
projects that will be funded by that program?
    Dr. Baker. At the moment, you are talking about the $100 
million program.
    Mr. Rogers. Yes.
    Dr. Baker. The states have asked us to work with them to 
develop such a list. We do not yet have such a list of 
projects. We can only give you candidate projects because the 
states have said they would like to identify what specifically 
needs to be done working with us. But this was something that 
came up as a----
    Mr. Rogers. Well, that is very nice of the states. But 
before we appropriate the monies, I think we have the 
obligation to satisfy our constituents that the money that 
would be spent will be spent in the most appropriate way, not 
the states. If the states want to do something, they can spend 
their money. This is Federal money we are talking about. And 
before we appropriate any monies, we have got to see the plan. 
We have got to see the projects. We have got to know where it 
is going, and if that is the most appropriate way to go. 
Because we have got to pick and choose. We are out of money, 
big time.
    Is this a one-year program or an ongoing thing?
    Dr. Baker. The current plan is that this would be an 
ongoing program.
    Mr. Rogers. How much of the funds would each state get then 
and Indian tribes?
    Dr. Baker. I think the current plan is that it would be 
split equally among the states, the four states that are 
involved. Let me just check to make sure that is correct.
    It would be split 50/50 with the tribes? No. A portion goes 
to the native tribes, and the rest is split equally among the 
four states.
    Mr. Rogers. How much is going to the Indian tribes?
    Dr. Baker. What is the proportion?
    It is 10 percent is the current estimate.
    Mr. Rogers. The current estimate?
    Dr. Baker. Yes. I think that is the best I can say about 
what I can hear back here.
    Mr. Rogers. I do not think there is much of a plan here, in 
spite of what you say.
    Well, that is another $100 million we have got a problem 
with. So that leaves us with $98.35. What do you think? 
[Laughter.]

                            buyout programs

    And, finally, let me ask you about the New England Scallop 
buyout: $8.32 million for a buyout of the New England Scallop 
Fishery; 20 percent funded by a direct Federal contribution and 
80 percent by guaranteed loans to be repaid by the industry.
    The Magnuson-Stevens Act clearly contemplates buyout 
programs that are either fully funded by industry or else fully 
funded on a guaranteed basis with the Federal Government liable 
for a very small subsidy amount to cover any loss the program 
might encounter. This is the first that I am aware of, where 
the Federal funds are being used for this purpose.
    Is there any reason why any future buyout proposal should 
not be financed either entirely by industry or on a guaranteed 
basis without the need for a large direct Federal contribution?
    Dr. Baker. Let me ask the Fisheries Director.
    [Pause.]
    Dr. Baker. The initial answer was that we have done a 
number of buyouts already that were fully-funded.
    Mr. Rogers. By industry.
    Dr. Baker. No, by the Federal Government. We have done that 
already.
    Mr. Rogers. Well, on an emergency----
    Dr. Baker. And this is an attempt to move down.
    Mr. Rogers. On an emergency basis, yes.
    Dr. Baker. Yes, but we did it. And this is an attempt to 
move to a lower amount. Most of this is the Federally 
guaranteed loans, and then there is a smaller part that is the 
direct Federal funding.
    Mr. Rogers. Why can we not go to a fully guaranteed basis?
    Dr. Baker. Let me just ask if that is our direction that we 
would like to go?
    This is the Director of Fisheries, Penny Dalton.
    Ms. Dalton. The model that was used was the American 
Fisheries Act, and it provided for the same ratio. There is a 
20-percent Federal funding for it and 80-percent industry 
funded for the loan guarantees.
    Mr. Rogers. Well, that is the Alaska pollack buyout. That 
is the only one that I am aware of.
    Ms. Dalton. That they used this ratio of 20 to 80, yes. All 
of the other ones have been fully-Federally funded.
    Mr. Rogers. On a disaster, those were disasters, correct?
    Ms. Dalton. Commercial fisheries failures.
    Mr. Rogers. What I am saying scallops are getting a 
disaster loan. So this is the, except for the Alaska pollack 
fishery buyout, which was this year, this is the only one, 
other than disaster buyouts, correct?
    Dr. Baker. That is correct.
    Mr. Rogers. Mr. Serrano?
    Mr. Serrano. We are running out of time. We have two 
minutes on the vote.
    Mr. Rogers. Thank you very much, Dr. Baker.
    Mr. Serrano. If I may, Mr. Chairman, for just a second.
    If I could get you to get back to us, I am very curious 
about the whole satellite issue, how that works. You have one a 
million miles out. You want to put another one two million 
miles out. Dumb question: Why can you not move the one that is 
up there, somewhere else? [Laughter.]
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

    Currently, the Advanced Composition Explorer (ACE) 
satellite is in orbit one million miles out between the Earth 
and Sun, which is the farthest possible using conventional 
propulsion systems. ACE provides a 1 hour advance warning of 
severe solar activity to utilities, telecommunications, and 
other customers. The present ACE system has been in place since 
August 1997 and has a goal life span of 5 years (1997-2002) 
which is when GEOSTORM would launch.
    NOAA customers have become reliant on this unique data 
stream, and have demanded that NOAA make an ACE follow-on 
system our number one space weather priority. The requested 
GEOSTORM program is a follow-on to the aging ACE and will use a 
new propulsion system to allow it to reach an orbit twice as 
far from Earth, thereby doubling the warning lead-time.

    Mr. Serrano. So let me know about that. If you want to help 
out with the Clean Water Initiative that the administration has 
in place, what role would you play in that?
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

                     NOAA's Clean Water Initiative

                               ocean 2000
$22 Million in FY 2000
    NOAA's FY 2000 $22 million request, an increase of $5.8 million in 
new funding, will provide the financial assistance necessary for 
coastal states to develop and implement programs to control polluted 
runoff from agricultural areas, city streets, and other sources. This 
funding will also support the research and monitoring essential to 
finding the sources and solutions to the spread of harmful algal 
blooms, such as Pfiesteria, often associated with polluted coastal 
waters. NOAA's Clean Water Initiative is a modest investment to help 
restore and protect our valuable coastal waters that support billions 
of dollars of economic activity every year through tourism, recreation 
and commercial fishing.
Control of harmful algal blooms--$9.0 million
    Polluted runoff often carries large amounts of nutrients that can 
contaminate coastal waters. Harmful algal blooms (HAB's) are often 
associated with high levels of nutrient pollution. This funding, an 
increase of $1.8 million under this initiative, will allow NOAA and its 
academic partners to continue to be leaders in the research, 
monitoring, and assessment of HAB's to better predict and prevent HAB 
events. The requested funds will support partnership efforts that 
include: interagency cooperation through the ECOHAB research programs 
to develop models for forecasting the development and impacts of HABs; 
strengthening NOAA-state partnerships for improving HAB monitoring and 
assessment capabilities; development of capabilities to assist states 
in responding quickly to HAB events; and research on the linkages of 
coastal euthrophication, HABs, and hypoxia/anoxia to nutrient loads in 
coastal ecosystems.
State parternships to reduce polluted runoff--$12.0 million
    $12 million in FY 2000, an increase of $4 million, will provide 
coastal states with funding to fully develop and implement their 
Coastal Nonpoint Pollution Control Programs. This will significantly 
improve their ability to manage polluted runoff and reduce coastal 
water pollution. NOAA administers the Coastal Nonpoint Pollution 
Control Program in partnership with states that have approved Coastal 
Zone Management (CZM) programs. The requested funds will support State 
efforts to reduce polluted runoff, as follows: $6 million, an increase 
of $2 million from FY 1999, for grants to CZM states for development of 
coastal runoff control programs. By FY 1999, twenty-nine CZM states 
will have approved Coastal Nonpoint Control Programs, though certain 
portions of these programs need further development. In addition, four 
states that have either recently or will soon join the Coastal Zone 
Management program (Texas, Georgia, Ohio, Minnesota) need resources to 
fully develop approvable Coastal Nonpoint Programs. $6 million, an 
increase of $2 million from FY 1999, for CZM Section 306/309 grants to 
CZM states for implementation of their coastal runoff control programs. 
These grants will allow coastal states to implement on-the-ground 
management measures, and leverage other state and local resources, to 
control the flow of polluted runoff into coastal waters.
Protect and restore our coastal resources--$1.0 million
    $1 million in FY 2000 will reduce the flow of pollutants from 
hazardous waste sites into our coastal waters. NOAA's Coastal Resource 
Coordination program works at hazardous waste sites to protect and 
restore coastal resources and their habitats, including the water and 
sediments necessary to support a healthy ecosystem. The request will 
enable NOAA to address a broader range of waste sites and provide 
critical technical assistance to States and communities, improving the 
health of our coastal waters and the resources they support. The 
requested funds will enable NOAA to: work with EPA and other agencies 
to assess ecological risk and develop protective cleanups strategies at 
hundreds of coastal waste sites each year; address a broader range of 
sites, including state-lead cleanups, military and active industrial 
facilities, and solid waste sites that are polluting our coastal 
waters; and provide more technical assistance to States and communities 
impacted by hazardous waste and Brownfields sites.

    Mr. Serrano. And if you could also tell us about your plans 
for NOAA's infrastructure, rather than keep you around for a 
long time.
    Dr. Baker. We will do that.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

    Our infrastructure supports operational and research missions 
ranging from the sea floor to beyond the atmosphere and includes ships, 
aircraft, and more traditional facilities. The level of technology 
presently includes 1950's paper tape rain gauges to the most advanced 
supercomputers supporting weather and climate modeling.
    In order to meet our mission requirements now and in the future, we 
must invest in and maintain our infrastructure. The FY 2000 budget 
request includes essential funding to continue investments in NOAA's 
infrastructure, including investments in our people. Most notably, the 
budget request:
    Includes funding to address our data acquisition needs by providing 
for the first of four new Fisheries Research Vessels (FRVs), while at 
the same time increasing the number of days-at-sea by 245 for 
University-National Oceanographic Laboratory System (UNOLS) ship time 
for critical data collection needs for the Global Ocean Ecosystem 
Dynamics (GLOBEC) and Ecology and Oceanography of Harmful Alagal Bloom 
(ECOHAB) programs.
    Provides funding to maintain our supercomputing capacity at the NWS 
Central Computing Facility in Suitland, Maryland, and the Forecast 
Systems Lab (FSL) in Boulder, Colorado while acquiring a massively 
parallel, scalable computer to be located at OAR's Geophysical Fluid 
Dynamics Lab (GFDL), in Princeton, New Jersey.
    Provides increased recurring lease and/or operations costs at a 
number of NOAA facilities coming on-line in FY 1999 and FY 2000, such 
as the Santa Cruz and Kodiak Fisheries Laboratories, the Marine 
Environmental Health Research Laboratory in Charleston, South Carolina 
and the David Skaggs Research Center in Boulder, Colorado. At the same 
time funds are requested to complete the planning and design of a new 
state-of-the-art NMFS research facility near Juneau, Alaska.
    Provides adjustments-to-base for pay related and inflationary cost 
increases to the National Weather Service, as well as for the FY 2000 
pay raise for the remaining Line Offices.
    Includes funds to begin replacing outdated observing equipment in 
order to maintain continuity of core data and services and provides 
funds for continuing technology infusion for systems developed for the 
Weather Service Modernization;
    Reflects the Administration's plans to restructure and maintain the 
NOAA Corps and includes Payments for Retired Pay for Commissioned 
Officers as mandatory funding;
    Includes $1.0 million to establish educational training 
relationships through a joint partnership with a consortium of 
Historically Black Colleges and Universities (HBCU). These efforts 
would not only result in the education of new marine, atmospheric and 
environmental scientists, but would also assist many coastal 
communities in the development of new business and environmental 
engineering alternatives to support sustainable economic development; 
and,
    Provides funds to accelerate the implementation of the Commerce 
Administrative Management System (CAMS), which is critical to meeting 
NOAA's financial management requirements.

    Mr. Rogers. Thank you very much for all of your testimony, 
and the rest of your staff here.
    Dr. Baker. Thank you very much.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
